Federal Trade Commission
PERFORMANCE
& ACCOUNTABILITY REPORT
F I S C A L   Y E A R
                        2010
FEDERAL TRADE COMMISSION | Performance and Accountability Report
ABOUT THIS REPORT
The Federal Trade Commission’s (FTC) Fiscal Year (FY) 2010 Performance and Accountability Report (PAR)
provides the results of the agency’s program and financial performance and demonstrates to the Congress, the
President, and the public the FTC’s commitment to its mission and accountability over the resources entrusted to it.
This report, available at www.ftc.gov/par, includes information that satisfies the reporting requirements contained
in the following legislation:




                                                                                                                       Introduction
     •	 Federal Managers’ Financial Integrity Act of 1982
     •	 Government Performance and Results Act of 1993
     •	 Government Management Reform Act of 1994
     •	 Reports Consolidation Act of 2000
     •	 Accountability of Tax Dollars Act of 2002
     •	 Improper Payments Information Act of 2002


The performance and financial information contained in this report is summarized in a “Summary of Financial and
Performance Information” report available at www.ftc.gov/par by February 2011.




     CERTIFICATE OF EXCELLENCE




              The FTC received the Association of Government Accountants’ Certificate of
              Excellence in Accountability Reporting for its FY 2009 PAR.




                                                  FISCAL YEAR 2010                                                         I
               HOW THIS REPORT IS ORGANIZED
               This report includes four major sections plus supplemental information.


                                                 1.	 Management’s Discussion and Analysis Section
                                                     The Management’s Discussion and Analysis (MD&A) Section provides
                                                     an overview of the FTC’s mission and organization, an overview of
                                                     key performance measures and efficiency measures, mission challenges,
                                                     financial highlights, and management assurances on internal controls,
Introduction




                                                     financial systems, and compliance with laws and regulations.




                                                 2.	 Performance Section
                                                     The Performance Section explains the FTC’s performance relative to
                                                     its strategic goals and objectives, and includes an overview of how the
                                                     performance data are verified and validated.




                                                 3.	 Financial Section
                                                     The Financial Section provides financial details, including the indepen-
                                                     dent auditor’s report and audited financial statements.




                                                 4.	 Other Accompanying Information Section
                                                     The Other Accompanying Information Section provides management
                                                     and performance challenges identified by the Inspector General along
                                                     with the Chairman’s response and a summary of financial statement
                                                     audit and management assurances.




                                                 5.	 Appendices
                                                     Appendix A lists the acronyms used throughout this report; Appendix B
                                                     lists the measures replaced in the latest update of the agency’s strategic
                                                     plan; Appendix C provides contact information and acknowledgements.




  II                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
THE FTC AT-A-GLANCE
History                                                     Trade Commission Act, Telemarketing Sales Rule, Identity
                                                            Theft Act, Fair Credit Reporting Act, and Clayton Act.
The federal government created the Bureau of
Corporations in 1903. In 1914, President Woodrow            Profile
Wilson signed the Federal Trade Commission Act into
law, and the Bureau of Corporations became the FTC.              •	 The agency is headquartered in Washington,
                                                                    DC, and operates with seven regions across the
Laws Enforced                                                       United States.




                                                                                                                       Introduction
The FTC is a law enforcement agency with both                    •	 The agency had over 1,100 full-time equivalent
consumer protection and competition jurisdiction in                 employees at the end of FY 2010.
broad sectors of the economy. The agency administers a           •	 Total new budget authority for FY 2010 was
wide variety of laws and regulations, such as the Federal           $293 million.




          DID YOU KNOW?
                 •	   Consumers are affected every day by the FTC’s activities. For example,
                      consumers receive fewer telemarketing calls, obtain free credit reports,
                      receive less spam, receive identity theft victim assistance, access
                      truthful information about health and weight-loss products, pay lower
                      prescription drug prices thanks to the availability of generic drugs, and
                      enjoy competitive prices for goods as a result of merger reviews and
                      actions taken by the FTC.

                 •	   The agency manages the National Do Not Call (DNC) Registry, which
                      gives consumers the opportunity to limit telemarketing calls. At the end
                      of the fiscal year, there were more than 200 million active registrations
                      on the DNC Registry.

                 •	   In FY 2010, the FTC took action against mergers likely to harm
                      competition in markets with a total of $22.5 billion in sales. The agency’s
                      efforts to maintain aggressive competition among sellers benefit
                      consumers through lower prices, higher quality products and services,
                      additional choice, and greater innovation.

                 •	   The FTC shares the more than 13.6 million consumer fraud, identity
                      theft, financial, and DNC Registry complaints it has collected during the
                      past five years with more than 1,900 law enforcement partner agencies
                      worldwide via the secure Consumer Sentinel Network website.




                                                     FISCAL YEAR 2010                                                    III
               MESSAGE FROM
               THE CHAIRMAN                                                                               Jon Leibowitz
                                                                                                          Chairman




               The Federal Trade Commission is a small agency with
               a broad mission, and we strive to serve the American          financially distressed consumers. These efforts
Introduction




               public efficiently and effectively. This past year,           include law enforcement actions against foreclosure
               continuing financial hardship for many consumers and          “rescue” scams, bogus debt relief and credit repair
               changes in our technology-driven marketplace have             services, and deceptive work-at-home and get-rich-
               required the FTC to be flexible and to stay on the            quick schemes. We also reached a $108 million
               cutting edge of consumer protection and competition           settlement with two Countrywide mortgage servicing
               issues. Together with our talented and dedicated staff,       companies to resolve charges that they collected
               we have worked harder than ever to leverage our               excessive fees from borrowers who were struggling to
               limited resources and unleash our creativity to meet          keep their homes. In addition, the FTC enacted a new
               the nation’s economic and technological challenges—           rule to combat deceptive and abusive telemarketing
               and to produce results for the American people. This          of debt relief services, and continued to educate
               Performance and Accountability Report for Fiscal Year         consumers about managing their finances and
               2010 shows how we managed our resources, highlights           avoiding scams.
               our major accomplishments, and outlines our plans to        •	 PRIVACY: The FTC continued its ambitious
               address the challenges ahead.                                 consumer privacy program, focusing on online
                                                                             privacy, data security, children’s privacy, and
               While the FTC’s two core goals—protecting consumers           protecting consumers from intrusive telemarketing.
               and maintaining competition—have not changed,                 This year the Do Not Call Registry, one of our most
               we continue to adapt our objectives and strategies to         successful and popular initiatives, surpassed 200
               achieve these goals. To protect consumers, the FTC            million registered numbers. We also examined privacy
               has given priority to addressing the financial crisis,        issues at a series of public roundtables exploring
               privacy, technology and new media, marketing of health        ways to foster privacy protections without limiting
               care products, “green” marketing, and marketing to            innovation in areas including social networking,
               children. To maintain competition, we work to preserve        online behavioral advertising, and mobile marketing;
               competitive markets as the most efficient way to bring        we will issue proposals for comment in FY2011.
               consumers lower prices, greater innovation, and more
               choices in areas such as health care, technology, energy,   •	 HEALTH CARE AND PHARMACEUTICALS:
               and retail. We also have added a third goal, “advance         The high cost of health care is a huge concern for
               the FTC’s performance,” to highlight our dedication to        consumers, employers, and the nation as a whole. An
               organizational, individual, and management excellence.        FTC priority is ending “pay-for-delay” agreements
                                                                             between brand-name drug companies and their
                                                                             generic competitors, which keep low-cost generic
               FY 2010 PERFORMANCE HIGHLIGHTS
                                                                             drugs off the market, costing consumers $3.5 billion
               •	 FINANCIAL DOWNTURN: With Americans                         a year. The FTC has investigated and challenged
                 continuing to feel the effects of the economic              such pharmaceutical patent settlements and supports
                 downturn, the FTC has moved deftly to stop                  legislation to eliminate this problem. The agency also
                 fraudulent, deceptive or unfair schemes that exploit        monitored mergers between hospitals, pharmaceutical




  IV                              FEDERAL TRADE COMMISSION | Performance and Accountability Report
                                                           FINANCIAL MANAGEMENT

  companies, and medical device manufacturers, taking      We take our jobs as stewards of the taxpayers’ money
  action against mergers that may raise the cost of        seriously. For the FY 2010 independent financial audit,
  health care.                                             we received our 14th consecutive unqualified opinion,
                                                           the highest audit opinion available. The independent
•	 HIGH-TECH: The FTC’s antitrust investigations
                                                           auditors did not identify any material weaknesses,
  increasingly have involved high-technology               significant deficiencies, or instances of non-compliance
  sectors of the economy. For example, the agency          with laws and regulations. I am also proud to report
  took action against Intel Corporation, charging          we had no material internal control weaknesses (see
  the world’s leading computer chip maker with             Statement of Assurance, p. 25) and that our financial




                                                                                                                       Introduction
  illegally using its dominant market position to stifle   and performance data in this report are reliable and
  competition and strengthen its monopoly. The             complete under Office of Management and Budget
  Commission’s settlement with Intel will put an end       guidance. Also of note, if you combine all the consumer
  to its anticompetitive practices, while allowing Intel   redress we distributed and fines we collected in FY
  to compete on the basis of high quality, innovative      2010, plus our Hart-Scott-Rodino and Do Not Call fees,
  products, so that consumers will reap the benefits of    our agency would have returned to U.S. taxpayers nearly
  fair competition.                                        half of our FY 2010 appropriation.
•	 COMPETITION POLICY: During FY 2010, the
  FTC held six conferences on competition-related          FUTURE CHALLENGES
  topics, including energy, merger guidelines, the
                                                           In accordance with the Reports Consolidation Act
  intersection of patent policy and competition policy,
                                                           of 2000, the Inspector General (IG) identified key
  and journalism in the Internet age. After public
                                                           management and performance challenges facing the
  comment, the FTC and the Department of Justice
                                                           agency, and he assessed our progress in addressing them.
  issued revised horizontal merger guidelines to help
                                                           This year, the IG determined that FTC management
  the public, practitioners, and the courts understand
                                                           faces challenges in protection of data (both personally
  how the agencies analyze these transactions.
                                                           identifiable information and non-public information),
•	 OUTREACH AND PARTNERSHIPS: The FTC’s                    information technology security, and case management
  stakeholders include consumers, industry, and law        to target the most significant consumer problems.
  enforcement partners, and we look to them to help        Agency management agrees that these are critical
  identify marketplace trends and challenges. We           challenges, and with the IG’s assessment of our progress,
  encourage the public to contact us through our           as discussed in the Other Accompanying Information
  online complaint forms and toll-free phone numbers,      Section of this report (see p. 123). Moving forward, we
  and invite stakeholders to workshops and hearings to     will continue to tackle these matters proactively.
  discuss current issues and industry developments.
                                                           Along with my fellow Commissioners and the
  We enforce consumer protection and antitrust laws        FTC’s extremely capable and committed staff, I
  with the assistance of our domestic and foreign law      look forward to working with Congress, consumers,
  enforcement partners, and maximize the deterrent         industry members, and our domestic and international
  impact by publicizing our work through various           law enforcement partners in continuing to protect
  media and an extensive consumer and business             consumers and promote competition in these
  education program. We communicate directly with          challenging times.
  consumers through both online resources such as
  www.ftc.gov and printed publications. Much of the
  agency’s extensive consumer education materials are
  also available in Spanish at www.ftc.gov/ojo.
                                                           Jon Leibowitz
                                                           November 12, 2010


                                                   FISCAL YEAR 2010                                                       V
               TABLE OF CONTENTS
                INTRODUCTION
                About This Report........................................................................................................................................... I
                How This Report Is Organized...................................................................................................................... II
                The FTC At-A-Glance.................................................................................................................................. III
Introduction




                Message from the Chairman......................................................................................................................... IV


                MANAGEMENT’S DISCUSSION AND ANALYSIS........................................................................ 1
                Mission and Organization.............................................................................................................................. 2
                	           The FTC: Our Purpose and History................................................................................................. 3
                	           Our Organization............................................................................................................................. 4
                	           Our People........................................................................................................................................ 6
                Performance Overview .................................................................................................................................. 7
                	           Strategic and Performance Planning Framework............................................................................... 7
                	           Key Performance Measures and Efficiency Measures Overview........................................................ 8
                	           Performance Measures Summary.................................................................................................... 18
                Agency Mission Challenges.......................................................................................................................... 19
                Management Assurances............................................................................................................................... 24
                	           Implementation of the Federal Managers’ Financial Integrity Act (FMFIA) at the FTC................. 24
                	           Chairman’s FMFIA Statement of Assurance................................................................................... 25
                Financial Highlights..................................................................................................................................... 27


                PERFORMANCE SECTION................................................................................................................ 33
                Introduction to Performance......................................................................................................................... 34
                	           Relationship of Outputs to Outcomes............................................................................................. 34
                	           Verification and Validation of Performance Data............................................................................ 34
                	           Performance Measure Summary Table............................................................................................ 36
                Strategic Goal #1: Protect Consumers........................................................................................................... 36
                Strategic Goal #2: Maintain Competition..................................................................................................... 39
                Strategic Goal #3: Advance Performance...................................................................................................... 41




  VI                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
FINANCIAL SECTION.......................................................................................................................... 93
Message from the Acting Chief Financial Officer......................................................................................... 94
Inspector General’s Transmittal Letter for Audit Report............................................................................... 95
Independent Auditor’s Report....................................................................................................................... 97




                                                                                                                                                                   Introduction
Principal Financial Statements.....................................................................................................................101
Notes to the Financial Statements............................................................................................................... 106


OTHER ACCOMPANYING INFORMATION................................................................................. 123
Inspector General-Identified Management and Performance Challenges.................................................... 124
Chairman’s Response to IG Challenges.......................................................................................................131
Summary of Financial Statement Audit and Management Assurancs......................................................... 132
Improper Payments Information Act.......................................................................................................... 134


APPENDICES........................................................................................................................................ 135
Acronyms.................................................................................................................................................... 136
Discontinued Performance Measures.......................................................................................................... 138
Contact Information and Acknowledgements . .......................................................................................... 139




                                                                   FISCAL YEAR 2010                                                                                 VII
Management’s Discussion & Analysis




       VIII                          FEDERAL TRADE COMMISSION | Performance and Accountability Report
M A N AG E M E N T ’ S
DISCUSSION AND ANALYSIS




         FISCAL YEAR 2010   1
                                     MISSION AND
                                     ORGANIZATION
                                     The work of the Federal Trade Commission (FTC) is          The FTC’s Mission
                                     critical to protecting and strengthening free and open
                                                                                                To prevent business practices that are anticompetitive or
                                     markets and promoting informed consumer choice,
                                                                                                deceptive or unfair to consumers; to enhance informed
                                     both in the United States (U.S.) and around the world.
                                                                                                consumer choice and public understanding of the
Management’s Discussion & Analysis




                                     The FTC performs its mission through the use of a
                                                                                                competitive process; and to accomplish this without
                                     variety of tools, including law enforcement, rulemaking,
                                                                                                unduly burdening legitimate business activity.
                                     research, studies on marketplace trends and legal
                                     developments, and consumer and business education.

                                     The FTC’s Vision
                                     A U.S. economy characterized by vigorous competition
                                     among producers and consumer access to accurate
                                     information, yielding high-quality products at low
                                     prices and encouraging efficiency, innovation, and
                                     consumer choice.




       2                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
The FTC: Our Purpose and History
Consumers and businesses are likely to be more familiar     innovative products and services. Many of the laws
with the work of the FTC than they think. In the            governing competition also are administered by the FTC.
consumer protection area, the care labels in clothes,
product warranties, or stickers showing the energy          The FTC has a long tradition of maintaining a
costs of home appliances illustrate information that        competitive marketplace for both consumers and
is required by the FTC. Likewise, businesses must be        businesses. When the FTC was created in 1914, its
familiar with the laws requiring truthful advertising       purpose was to prevent unfair methods of competition
and protecting consumers’ personally identifiable           in commerce as part of the battle to “bust the trusts.”




                                                                                                                        Management’s Discussion & Analysis
information and sensitive health information. These         Over the years, the Congress passed additional laws
laws are administered by the FTC.                           giving the agency greater authority over anticompetitive
                                                            practices. In 1938, the Congress passed a broad
Each year, more people around the globe have come           prohibition against “unfair and deceptive acts or
to understand that the competition among independent        practices.” Since then, the FTC also has been directed to
businesses is good for consumers, the businesses            administer a wide variety of other consumer protection
themselves, and the economy. Competitive markets            laws and regulations, including the Telemarketing Sales
yield lower prices and better quality goods and services,   Rule, the Identity Theft Act, and the Equal Credit
and a vigorous marketplace provides the incentive and       Opportunity Act.
opportunity for the development of new ideas and




                                                                   THE FTC HISTORY
                                                                   AND LAWS
                                                               The Bureau of Corporations was the
                                                               FTC’s predecessor agency. The change
                                                               from the Bureau of Corporations to
                                                               the FTC had its genesis in the Supreme
                                                               Court’s 1911 decision in the Standard
                                                               Oil case (Standard Oil Co. v. U.S., 221
                                                               U.S. 1 (1911)). In the aftermath of that
                                                               decision, Congress determined to
                                                               create an administrative agency that
                                                               would be directed to prevent “unfair
         methods of competition;” to give definition to that general prohibition; to use a number of
         quasi-judicial powers to enforce that prohibition; and to enforce the Clayton Act. The FTC
         Act was later amended to prohibit unfair or deceptive acts or practices. The FTC currently
         has enforcement and administrative responsibilities under 46 laws. For a description of and
         further information on each law see www.ftc.gov/ogc/stats.shtm.




                                                    FISCAL YEAR 2010                                                              3
Management’s Discussion & Analysis




                                     The FTC Commission: (left to right) Edith Ramirez, Commissioner; William E. Kovacic, Commissioner;
                                     Jon Leibowitz, Chairman; J. Thomas Rosch, Commissioner; Julie Brill, Commissioner.



                                     Our Organization
                                     The FTC is an independent agency that reports to the        as Chairman. No more than three commissioners can
                                     Congress on its actions. These actions include pursuing     be from the same political party. Jon Leibowitz was
                                     vigorous and effective law enforcement; advancing           designated to serve as Chairman of the FTC on March
                                     consumers’ interests by sharing its expertise with          2, 2009, by President Barack H. Obama. Leibowitz was
                                     federal and state legislatures and U.S. and international   previously sworn in as a commissioner on September
                                     government agencies; developing policy and research         3, 2004, following his nomination by the President and
                                     tools through hearings, workshops, and conferences;         confirmation by the U.S. Senate. At the end of the fiscal
                                     and creating practical and plain-language educational       year, the Commissioners were Julie Brill, William E.
                                     programs for consumers and businesses in a global           Kovacic, Edith Ramirez, and J. Thomas Rosch.
                                     marketplace with constantly changing technologies.

                                     The FTC is headed by a Commission composed of
                                     five commissioners, nominated by the President and
                                     confirmed by the senate, each serving a seven-year
                                     term. The President chooses one commissioner to act




       4                                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
The FTC’s mission is carried out by three bureaus:           Counsel, the Office of Inspector General, the Office
the Bureau of Consumer Protection, the Bureau of             of International Affairs, the Office of the Executive
Competition, and the Bureau of Economics. Work               Director, and seven regions.
is aided by offices, including the Office of General




Federal Trade Commission Organization Chart




                                                                                                                     Management’s Discussion & Analysis
  Commissioner             Commissioner           Chairman             Commissioner              Commissioner
  Edith Ramirez              Julie Brill        Jon Leibowitz         William E. Kovacic        J. Thomas Rosch
                                                   -----------
                                                Chief of Staff
                                                Joni Lupovitz



                         Office of
                   Congressional Relations
                      Jeanne Bumpus                                           Office of
                                                                      Administrative Law Judges*
                                                                        D. Michael Chappell

                   Office of Public Affairs
                     Cecelia Prewett
                                                                               Office of
                                                                           Inspector General*
                                                                              John Seeba
                          Office of
                       Policy Planning
                      Susan S. DeSanti
                                                                        Office of the Secretary
                                                                            Donald S. Clark
                           Office of
                     International Affairs
                     Randolph W. Tritell




   Office of the             Bureau of           Office of the            Bureau of                 Bureau of
 General Counsel        Consumer Protection   Executive Director         Competition               Economics
  Willard K. Tom           David Vladeck      Eileen Harrington       Richard Feinstein           Joseph Farrell




                                                   Regions




*An independent organization within the FTC




                                                   FISCAL YEAR 2010                                                            5
                                     The agency is headquartered in Washington, DC, and operates with seven regions
                                     across the U.S. The graphic below illustrates the locations of the FTC regions.
Management’s Discussion & Analysis




                                     Our People
                                     The FTC’s workforce is its greatest asset. The agency’s workforce consists of over 1,100 civil
                                     service employees dedicated to addressing the major concerns of American consumers. The
                                     chart below shows workforce composition by category.


                                          FTC’S WORKFORCE COMPOSITION




                                                                                                                        Attorneys; 600

                                                        Other; 461




                                                    Senior Management; 42


                                                                       Economists; 80




       6                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE                                                  Strategic and Performance
                                                             Planning Framework
OVERVIEW                                                     PERFORMANCE MEASUREMENT
This section explains the FTC’s strategic and                METHODOLOGY
performance planning framework and summarizes the
key performance measures and efficiency measures             The FY 2010 performance planning framework
reported in the Performance Section. The Performance         originates from the FTC’s Fiscal Years 2009 to
Section contains details of program performance              2014 Strategic Plan, available at
results, trend data by fiscal year, resources, strategies,   www.ftc.gov/opp/gpra/spfy09fy14.pdf and is




                                                                                                                         Management’s Discussion & Analysis
factors affecting performance, and the procedures            supported by the FTC’s Performance Plan, available at
used to verify and validate the performance data. The        www.ftc.gov/opp/gpra/2011_performance_plan.pdf.
financial data and performance results described in
this report enable the FTC to administer its programs,       The FTC began operating under an updated
gauge their success, and make adjustments necessary to       strategic plan in FY 2010. As further explained in the
improve program quality for the public. The steps the        Performance Section, the effort to update the plan
FTC has taken to ensure the performance information          included reassessing the agency’s overall performance
it reports is complete, accurate, and consistent are         framework and evaluating performance measures to
described in the Performance Section: Verification and       ensure they provide the most relevant and meaningful
Validation of Performance Data.                              information on strategic goals and objectives. As
                                                             a result, the agency added 26 new measures and
                                                             discontinued 19 measures (see Appendix B). The FTC’s
                                                             work is now structured around three strategic goals and
                                                             13 objectives. Performance measures are used to gauge
                                                             the FTC’s success for each objective.




                                                             Statements of long-term aims outlined in the Strategic
  Strategic Goals                                            Plan, which define how the agency carries out its
                                                             mission.


                                                             Statements of how the FTC plans to achieve the
  Objectives                                                 strategic goals.



                                                             Indicators used to gauge success in reaching strategic
  Performance Measures                                       objectives.


                                                             Measures that best indicate whether agency activities
  Key Measures                                               are achieving the desired outcome associated with the
                                                             related objective.


                                                             Expressions of desired performance levels or specific
  Targets                                                    desired results targeted for a given fiscal year. Targets
                                                             are expressed in quantifiable terms.




                                                     FISCAL YEAR 2010                                                              7
                                        STRATEGIC GOALS                                OBJECTIVES

                                                                                      Identify	fraud,	deception,	and	unfair	practices	that	cause	the	
                                                                                      greatest	consumer	injury.


                                       PROTECT CONSUMERS                              Stop	fraud,	deception,	unfairness,	and	other	unlawful	practices	
                                                                                      through	law	enforcement.
                                       Prevent	fraud,	deception,	and	unfair	
                                       business	practices	in	the	marketplace.
                                                                                      Prevent	consumer	injury	through	education.
                                       Gross Costs:                      $158
Management’s Discussion & Analysis




                                       Less Earned Revenue:                (14)       Enhance	consumer	protection	through	research,	reports,	
                                       Net Costs:                        $144         rulemaking,	and	advocacy.

                                                                                      Protect	American	consumers	in	the	global	marketplace	by	
                                                                                      providing	sound	policy	and	technical	input	to	foreign	governments	
                                                                                      and	international	organizations	to	promote	sound	consumer	policy.

                                                                                      Take	action	against	anticompetitive	mergers	and	practices	that	
                                       MAINTAIN COMPETITION                           may	cause	significant	consumer	injury.

                                       Prevent	anticompetitive	mergers	and	other	
                                       anticompetitive	business	practices	in	the	     Prevent	consumer	injury	through	education.
                                       marketplace.
                                                                                      Enhance	consumer	benefit	through	research,	reports,	and	advocacy.
                                       Gross Costs:                      $117
                                       Less Earned Revenue:              (74)
                                                                                      Protect	American	consumers	in	the	global	marketplace	by	
                                       Net Costs:                        $43          providing	sound	policy	recommendations	and	technical	advice	to	
                                                                                      foreign	governments	and	international	organizations	to	promote	
                                                                                      sound	competition	policy.


                                       ADVANCE PERFORMANCE                            Provide	effective	human	resources	management.
                                       Advance	the	FTC’s	performance	
                                       through	organizational,	individual,	and	
                                                                                      Provide	effective	infrastructure	and	security	management.
                                       management	excellence.	
                                       (Since Goal 3 applies to overall
                                                                                      Provide	effective	information	resources	management.
                                       performance across the agency, Goal 3
                                       costs are distributed to Goal 1 and Goal 2)
                                                                                      Provide	effective	financial	and	acquisition	management.



                                     Key Performance Measures and Efficiency Measures Overview
                                     The FTC has established performance measures for            The following table summarizes actual performance
                                     assessing program performance against strategic goals       during FY 2010 against established targets for all of the
                                     and objectives. Of the 40 measures, 16 are considered       FTC’s key performance and efficiency measures and
                                     “key” measures because they best indicate whether           provides a synopsis of related highlights. The table also
                                     agency activities are achieving the desired outcome         includes actual results from the past two fiscal years. The
                                     associated with the related objective. Two performance      FTC met or exceeded 15 of the 16 key measures and the
                                     measures are considered efficiency measures because         two efficiency measures.
                                     they are ratios of outcomes to inputs. These measures
                                     help determine if the agency is doing things right, i.e.,
                                     minimizing resources used. For each measure, the FTC
                                     has established a performance target.


       8                                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
 LEGEND FOR UPCOMING TABLES

 ✔	    Signifies	that	the	target	is	met	or	exceeded


 ✖	    Signifies	that	the	target	is	not	met




STRATEGIC GOAL 1: PROTECT CONSUMERS




                                                                                                                         Management’s Discussion & Analysis
Objective 1.1 Identify fraud, deception, and unfair practices that cause the greatest
consumer injury
Key Measure 1.1.2 The percentage of the FTC’s consumer protection law enforcement actions that target
the subject of consumer complaints to the FTC.



                                                           PERFORMANCE HIGHLIGHTS
                                            65.0%		        At	the	request	of	the	FTC,	a	U.S.	district	court	in	August	
                         Target
                                          of	actions       2010	ordered	Central	Coast	Nutraceuticals,	Inc.,	marketers	
                                                           of	acai	berry	supplements,	“colon	cleansers,”	and	other	
                                                           products,	to	temporarily	halt	an	Internet	sales	scheme	
      2010
                                                           that	allegedly	scammed	consumers	out	of	$30	million	or	
                                           	95.9%	         more	in	2009	alone	through	deceptive	advertising	and	
                         Actual           of	actions       unfair	billing	practices.	Since	2007,	victimized	consumers	
                                                           have	flooded	the	FTC	and	other	law	enforcement	
                                                ✔          agencies,	and	the	Better	Business	Bureau,	with	more	than	
                                                           2,800	complaints	about	the	company.	
                                                           Acai	berry	supplements,	derived	from	acai	palm	trees	that	
                                              79.0%	of	    are	native	to	Central	and	South	America,	have	become	
      2009               Actual
                                               actions     popular	in	recent	years.	Last	year,	the	Better	Business	
                                                           Bureau	named	fake	“free”	trial	offers—including	those	for	
                                                           acai	supplements	offered	by	the	defendants	in	this	case—
                                                           as	one	of	the	“Top	10	Scams	and	Rip	Offs	of	2009.”

                                              71.0%	of	
      2008               Actual
                                              actions




                                                     FISCAL YEAR 2010                                                              9
                                     Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices
                                     through law enforcement
                                     Key Measure 1.2.1 The percentage of all cases filed by the FTC that were successfully resolved through
                                     litigation, a settlement, or issuance of a default judgment.



                                                                       75.0–85.0%	of	   PERFORMANCE HIGHLIGHTS
                                                           Target
                                                                           cases        Two	Countrywide	mortgage	servicing	companies	in	May	
                                                                                        2010	agreed	to	pay	$108	million	to	settle	FTC	charges	
                                          2010                                          that	they	collected	excessive	fees	from	cash-strapped	
Management’s Discussion & Analysis




                                                                         	99.2%	of	     borrowers	who	were	struggling	to	keep	their	homes.	The	
                                                           Actual          cases        $108	million	represents	one	of	the	largest	judgments	
                                                                            ✔           imposed	in	an	FTC	case,	and	the	largest	mortgage	
                                                                                        servicing	case.	It	will	be	used	to	reimburse	overcharged	
                                                                                        homeowners	whose	loans	were	serviced	by	Countrywide	
                                                                                        before	it	was	acquired	by	Bank	of	America	in	July	2008.
                                                                                        According	to	the	complaint	filed	by	the	FTC,	Countrywide’s	
                                          2009             Actual           N/A
                                                                                        loan-servicing	operation	deceived	homeowners	who	
                                                                                        were	behind	on	their	mortgage	payments	into	paying	
                                                                                        inflated	fees—fees	that	could	add	up	to	hundreds	or	even	
                                                                                        thousands	of	dollars.	Many	of	the	homeowners	had	taken	
                                                                                        out	loans	originated	or	funded	by	Countrywide’s	lending	
                                                                                        arm,	including	subprime	or	“nontraditional”	mortgages,	
                                                                                        such	as	payment	option	adjustable	rate	mortgages,	
                                          2008             Actual           N/A         interest-only	mortgages,	and	loans	made	with	little	or	no	
                                                                                        income	or	asset	documentation,	the	complaint	states.




       10                                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
Objective 1.3: Prevent consumer injury through education
Key Measure 1.3.2 Customer satisfaction rate with an FTC consumer education website or microsite.



                                  Exceed	average	       PERFORMANCE HIGHLIGHTS
                                citizen	satisfaction	   The	FTC	used	the	American	Customer	Satisfaction	
                                 rate	as	published	     Index	to	measure	how	satisfied	visitors	to	
                                  in	the	American	      OnGuardOnline.gov	are.	Over	100	federal	agencies	
                    Target
                                      Customer	         use	this	survey	to	measure	customer	satisfaction.	
                                Satisfaction	Index	     In	FY	2010,	the	FTC	collected	3,721	completed	
    2010




                                                                                                                      Management’s Discussion & Analysis
                                   E-Government	        surveys	for	OnGuardOnline.gov,	which	maintained	an	
                                Satisfaction	Index.     overall	customer	satisfaction	score	of	77,	above	the	
                                                        benchmark	score	of	74	for	government	websites.	The	
                                                        survey	also	allows	the	FTC	to	measure	key	website	
                                    	Exceeded           elements	such	as	navigation,	site	information,	look	
                    Actual                              and	feel,	site	performance	and	functionality.	The	
                                        ✔               OnGuardOnline.gov	score	for	each	of	these	elements	
                                                        was	above	the	national	benchmark	for	satisfaction.	In	
                                                        addition,	when	visitors	were	asked	whether	they	were	
                                                        able	to	do	what	they	wanted	on	the	site,	73	percent	
   2009             Actual             N/A              said	yes	and	another	18	percent	said	partially,	a	strong	
                                                        indication	that	the	site	is	an	effective	and	helpful	tool	
                                                        for	consumers.	


    2008            Actual             N/A




Objective 1.4: Enhance consumer protection through research, reports, rulemaking,
and advocacy
Key Measure 1.4.4 The percentage of proposed Administrative Procedure Act (APA) rulemakings,
conducted solely by the FTC, completed within nine months of receipt of final comments in the Final
Notice of Proposed Rulemaking.



                                     75.0%	of	          PERFORMANCE HIGHLIGHTS
                   Target
                                   rulemakings          In	February	2010,	the	FTC	completed	amendments	
                                                        to	the	Free	Credit	Report	Rule	to	prevent	deceptive	
    2010                                                marketing	of	“free	credit	reports,”	pursuant	to	
                                    100.0%	of	          the	Credit	CARD	Act	of	2009.	The	amended	rule	
                   Actual          rulemakings          requires	prominent	disclosures	for	“free	credit	report”	
                                        ✔               advertising	in	order	to	prevent	consumers	from	
                                                        confusing	these	so-called	“free”	offers	with	the	federally	
                                                        mandated	free	annual	credit	reports.
   2009            Actual              N/A




   2008            Actual              N/A




                                               FISCAL YEAR 2010                                                             11
                                     Objective 1.5: Protect American consumers in the global marketplace by providing
                                     sound policy and technical input to foreign governments and international
                                     organizations to promote sound consumer policy
                                     Key Measure 1.5.1 Policy advice provided to foreign consumer protection and privacy agencies, directly and
                                     through international organizations, through substantive consultations, written submissions, or comments.



                                                                                         PERFORMANCE HIGHLIGHTS
                                                         Target       40	policy	inputs
                                                                                         The	FTC	participated	actively	in	international	policy	
Management’s Discussion & Analysis



                                                                                         consultations	on	consumer	protection	and	privacy	issues	
                                         2010                                            directly	with	other	countries	and	the	European	Union,	
                                                                      64	policy	inputs   and	in	multilateral	organizations	such	as	the	Organization	
                                                         Actual                          for	Economic	Co-operation	and	Development	(OECD),	
                                                                            ✔            Asia	Pacific	Economic	Cooperation,	the	Internet	
                                                                                         Corporation	of	Assigned	Names	and	Numbers,	the	
                                                                                         International	Conference	of	Data	Protection	and	Privacy	
                                         2009            Actual             N/A          Commissioners,	the	Organization	of	American	States,	
                                                                                         and	the	United	National	Commission	on	International	
                                                                                         Trade	Law.	The	FTC	also	hosted	a	major	conference	on	
                                                                                         protecting	and	empowering	consumers	in	electronic	
                                                                                         commerce,	which	drew	more	than	250	government	
                                                                                         officials,	business	leaders,	consumer	advocates,	and	
                                                                                         academics	from	around	the	world	to	discuss	how	to	
                                                                                         advance	OECD	work	in	this	area	in	light	of	technological	
                                         2008            Actual             N/A
                                                                                         and	marketplace	developments.




       12                                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
STRATEGIC GOAL 2: MAINTAIN COMPETITION
Objective 2.1: Take action against anticompetitive mergers and practices that may
cause significant consumer injury
Key Measure 2.1.1 Actions to maintain competition, including litigated victories, consent orders,
abandoned transaction remedies, restructured transaction remedies, or fix-it-first transaction remedies
in a significant percentage of substantial merger and nonmerger investigations.

                                   40.0–60.0%	        PERFORMANCE HIGHLIGHTS
                     Target       of	substantial	     The	FTC	obtained	a	positive	result	in	22	of	the	57	
                                  investigations      significant	merger	and	nonmerger	investigations	it	
                                                      concluded	during	FY	2010.	




                                                                                                                          Management’s Discussion & Analysis
     2010                            	39.0%	of	
                                                      On	the	merger	side	this	includes	successful	second	request	
                                    substantial	
                     Actual                           or	compulsory	process	investigations	in	matters	involving	
                                  investigations	
                                                      crucial	pharmaceuticals	(Watson	Pharmaceuticals	/	Arrow	
                                       ✖              Group,	Merck	/	Schering-Plough,	and	Nestle	/	Novartis),	high	
                                                      tech	devices	used	in	the	medical	industry	(Danaher	Corp	/	
                                                      MDS)	and	in	scientific	and	industrial	applications	(Varian,	Inc.	
     2009            Actual            N/A            /	Agilent,	Inc	and	Panasonic	/	Sanyo),	funeral	services	(SCI	
                                                      /	Palm	Mortuary	and	SCI	/	Keystone	North	America),	and	
                                                      diesel	refueling	network	centers	(Flying	J	/	Big	West	Oil).	
                                                      On	the	nonmerger	side	the	FTC	obtained	considerable	
                                                      consumer	relief	in	a	number	of	matters	involving	computer	
                                                      micro	chips	(Intel	Corporation*),	health	care	providers	
     2008            Actual            N/A
                                                      (Roaring	Fork	Valley	Physicians,	IPA,	Inc.	and	Minnesota	
                                                      Rural	Health	Cooperatives)	and	truck	rental	services	
                                                      (Amerco	/	Avis	Budget	Group).

Performance Measure 2.1.4 Consumer savings of at least six times the amount of FTC resources
allocated to merger program. (Efficiency Measure)

                                                      PERFORMANCE HIGHLIGHTS
                     Target          600.0%
                                                      During	FY	2010,	the	agency	saved	consumers	
     2010                                             approximately	16	times	the	amount	of	resources	devoted	
                                    	1,670.0%		       to	the	merger	program,	as	calculated	using	the	average	
                     Actual                           consumer	savings	obtained	under	Performance	Measure	
                                       ✔              2.1.2	($586	million)	divided	into	the	amount	of	resources	
                                                      used	on	the	merger	program.	This	result	is	largely	
     2009            Actual         2,132.0%          attributable	to	consumer	savings	that	exceeded	target	
                                                      due	to	the	presence	of	several	enforcement	actions	over	
                                                      the	last	three	years	in	the	pharmaceutical	industry,	which	
     2008            Actual          1,121.0%         involved	significantly	sized	relevant	product	markets.


Performance Measure 2.1.7 Consumer savings of at least four times the amount of FTC resources
allocated to nonmerger program over a five-year period. (Efficiency Measure)

                     Target          400.0%           PERFORMANCE HIGHLIGHTS
                                                      During	FY	2010	the	agency	saved	consumers	approximately	
     2010                           	2,418.0%		       24	times	the	amount	of	resources	it	devoted	to	the	
                     Actual                           nonmerger	enforcement	program,	as	calculated	using	the	
                                       ✔              average	consumer	savings	obtained	under	Performance	
                                                      Measure	2.1.5	($508	million)	divided	into	the	amount	of	
     2009            Actual         1,035.0%          resources	used	on	the	nonmerger	program.	This	result	is	
                                                      largely	attributable	to	consumer	savings	that	exceeded	target	
                                                      due	to	one	particular	case	that	involved	Intel	Corporation.
     2008            Actual          164.0%


*Commissioner Kovacic was recused on the Intel case.


                                                  FISCAL YEAR 2010                                                              13
                                     Objective 2.2: Prevent consumer injury through education
                                     Key Measure 2.2.1 Competition resources accessed via the FTC’s website.



                                                                                              PERFORMANCE HIGHLIGHTS
                                                        Target         10.0	million	hits
                                                                                              The	FTC	continued	to	develop	competition	
                                                                                              related	content	to	better	serve	the	interest	of	its	
                                         2010                                                 stakeholders,	whether	they	are	individual	consumers,	
                                                                       21.5	million	hits      affected	businesses,	researchers,	or	practitioners	
                                                        Actual                                and	policy	makers.	During	FY	2010,	the	FTC’s	online	
                                                                              ✔
Management’s Discussion & Analysis



                                                                                              competition	resources	registered	21.5	million	hits	from	
                                                                                              external	sources.	These	resources	include	pages	that	
                                                                                              relate	to	individual	investigations	(such	as	complaints,	
                                        2009            Actual         11.9	million	hits      orders,	comments,	and	press	releases),	policy	and	
                                                                                              research	oriented	content	(such	as	reports,	policy	
                                                                                              guides	and	fact	sheets,	workshop	or	conference	web	
                                                                                              pages,	the	online	competition	enforcement	database,	
                                                                                              advocacy	filings,	and	amicus briefs),	and	business	and	
                                        2008            Actual         12.5	million	hits      consumer	education	material.




                                     Objective 2.3: Enhance consumer benefit through research, reports, and advocacy
                                     Key Measure 2.3.1 Workshops, seminars, conferences, and hearings convened or cosponsored that involve
                                     significant competition-related issues.


                                                                            4		               PERFORMANCE HIGHLIGHTS
                                                                    workshops,	seminars,	     The	FTC	continues	to	devote	resources	to	the	
                                                        Target
                                                                     conferences,	and	        organization	of	workshops,	conferences,	and	hearings	
                                                                         hearings             to	foster	an	environment	of	discussion	and	analysis	
                                                                                              of	the	hot-topic	issues	that	relate	to	competition.	Of	
                                         2010                                 	6		            particular	note,	during	FY	2010,	the	FTC	convened	
                                                                         workshops,		         a	two-day	workshop	analyzing	how	the	expansion	
                                                                    seminars,	conferences,	   of	electronic	delivery	of	news	through	new	media	
                                                        Actual
                                                                        and	hearings          methods	is	challenging	traditional	news	organizations,	
                                                                                              and	the	implications	for	competition	among	media	
                                                                              ✔               outlets	and	for	consumer	welfare.	In	addition,	the	
                                                                                              FTC	held	a	series	of	workshops	to	consider	updates	
                                                                                              to	the	Horizontal	Merger	Guidelines	that	are	used	by	
                                                                                              the	FTC	and	the	Department	of	Justice	to	evaluate	
                                        2009            Actual               N/A
                                                                                              the	potential	competitive	effects	of	mergers	and	
                                                                                              acquisitions,	and	a	workshop	on	the	intersection	of	
                                                                                              patent	and	competition	policy.


                                        2008            Actual               N/A




       14                                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
Key Measure 2.3.2 Reports and studies issued on key competition-related topics.



                                 8	reports	and	    PERFORMANCE HIGHLIGHTS
                     Target
                                    studies        Studying	and	issuing	reports	on	the	nation’s	crucial	
                                                   economic	sectors	is	a	key	component	of	the	FTC’s	
     2010                                          competition	related	strategic	objective.	During	FY	2010,	
                                 	9	reports	and	   the	agency	issued	a	seminal	report	on	how	pay-for-delay	
                     Actual          studies		     agreements	in	the	pharmaceutical	industry	are	costing	U.S.	
                                      ✔            consumers	billions	of	dollars	every	year.	Pay-for-delay	is	a	
                                                   type	of	anticompetitive	patent	settlement	in	which	brand-




                                                                                                                   Management’s Discussion & Analysis
                                                   name	pharmaceutical	companies	delay	generic	competition	
                                                   that	lowers	prices	by	agreeing	to	pay	a	generic	competitor	
    2009             Actual           N/A          to	hold	its	competing	product	off	the	market	for	a	certain	
                                                   period	of	time.	
                                                   In	addition,	the	FTC	issued	its	fifth	annual	“Federal	Trade	
                                                   Commission	Report	on	Ethanol	Market	Concentration”	on	
                                                   the	state	of	ethanol	production	in	the	U.S.,	and	the	semi-
    2008             Actual           N/A          annual	reports	on	oil	and	gas	activities.



Key Measure 2.3.3 Advocacy comments and amicus briefs on competition issues filed with entities
including federal and state legislatures, agencies or courts.


                                 6	comments	       PERFORMANCE HIGHLIGHTS
                     Target
                                  and	briefs       In	FY	2010,	the	FTC	filed	advocacy	comments	on	a	range	
                                                   of	competition	issues,	including	gas	pricing,	electricity	
     2010                                          competition	issues,	and	competition	in	medical,	dentistry,	
                                 17	comments	      and	veterinary	services.	The	FTC	also	filed amicus briefs	on	
                     Actual        and	briefs		    pay-for-delay	settlements	and	patent	issues,	among	others.
                                      ✔

    2009             Actual           N/A


    2008             Actual           N/A




                                              FISCAL YEAR 2010                                                           15
                                     Objective 2.4: Protect American consumers in the global marketplace by providing
                                     sound policy recommendations and technical advice to foreign governments and
                                     international organizations to promote sound competition policy
                                     Key Measure 2.4.1 Policy advice provided to foreign competition agencies, directly and through
                                     international organizations, through substantive consultations, written submissions, or comments.


                                                       Target      40	policy	inputs
                                                                                          PERFORMANCE HIGHLIGHTS
                                                                                          The	FTC’s	staff	and	officials	work	bilaterally	with	other	
                                                                                          agencies	and	through	multilateral	fora	to	provide	policy	
Management’s Discussion & Analysis



                                         2010                                             advice	in	an	effort	to	promote	convergence	based	on	sound	
                                                                   76	policy	inputs	
                                                       Actual                             competition	law	policy.	The	agency	continues	to	devote	
                                                                          ✔               significant	resources	to	working	with	China	and	India	on	the	
                                                                                          implementation	of	their	new	laws	and	with	sister	agencies	
                                                                                          in	key	jurisdictions	including	the	European	Union,	Canada,	
                                                                                          Japan,	Korea,	and	Mexico.	The	FTC	also	actively	participated	
                                        2009           Actual            N/A
                                                                                          in	several	multilateral	organizations	addressing	competition	
                                                                                          policy	and	enforcement	issues,	often	providing	written	
                                                                                          submissions,	which	the	FTC	makes	available	on	its	website.
                                        2008           Actual            N/A




                                     STRATEGIC GOAL 3: ADVANCE PERFORMANCE

                                     Objective 3.1: Provide effective human resources management
                                     Key Measure 3.1.2 The extent employees think the organization has the talent necessary to achieve
                                     organizational goals.


                                                                      Exceed	the	          PERFORMANCE HIGHLIGHTS
                                                                  government-wide	         The	government-wide	results	were	60	percent	and	the	
                                                                results	on	the	Federal	    FTC	received	72	percent.	The	FTC	took	second	place	in	
                                                      Target                               Talent	Management	and	fourth	place	in	Job	Satisfaction.	
                                                                   Human	Capital	
                                                                   Survey’s	Talent	        In	addition,	the	FTC	is	listed	as	one	of	the	agencies	with	
                                        2010                     Management	Index          the	highest	increases	since	2008	for	three	of	these	four	
                                                                                           indexes.	Of	the	78	items	on	the	survey,	the	FTC	had	
                                                                                           55	items	with	high	positive	ratings	that	are	considered	
                                                                      Exceeded	            strengths;	zero	items	with	negative	ratings	that	would	
                                                      Actual                               be	considered	weaknesses;	and	six	items	had	a	neutral	
                                                                         ✔                 rating.	Additionally,	64	items	were	five	percentage	points	
                                                                                           or	more	above	the	governmentwide	average	and	zero	
                                                                                           items	were	five	percentage	points	or	more	below	the	
                                        2009          Actual             N/A               governmentwide	average.



                                        2008          Actual             N/A




       16                                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
Objective 3.2: Provide effective infrastructure and security management
Key Measure 3.2.1 A favorable Continuity of Operations (COOP) rating.

                                                   PERFORMANCE HIGHLIGHTS
                 Target        75.0%	rating        The	agency’s	COOP	efforts	established	a	viable,	tested	
                                                   infrastructure	that	can	provide	continuation	of	the	FTC’s	
   2010                                            mission	along	with	a	safe	and	secure	environment	for	all	
                               85.0%	rating	       staff	in	the	event	of	an	emergency.	During	FY	2010,	the	
                 Actual                            FTC	received	a	grade	of	85	percent	on	“Eagle	Horizon”	
                                    ✔              exercises,	establishing	the	agency	as	a	leader	among	all	




                                                                                                                      Management’s Discussion & Analysis
                                                   federal	agencies	in	the	program.	At	the	time	of	the	exercise,	
                                                   the	agency	did	not	excel	in	the	delegation	of	authority	
   2009          Actual            N/A             portion.	However,	the	agency	has	since	resolved	this	
                                                   shortcoming	by	establishing	delegation	of	authority	policy.


   2008          Actual            N/A


Key Measure 3.2.2 Availability of information technology systems.


                                                   PERFORMANCE HIGHLIGHTS
                              98.00%	system	
                 Target                            Measuring	and	improving	service	delivery	to	bring	about	a	
                                availability
                                                   positive	business	experience	and	outcome	for	the	FTC	is	a	
   2010                                            key	imperative.	To	this	end,	the	agency	tracks	unplanned,	
                              99.86%	system	       unscheduled	service	outage	periods	to	monitor	the	
                                availability       reliability	and	availability	(commonly	referred	to	as	
                 Actual                            “uptime”)	of	almost	30	critical	information	technology	
                                    ✔              services	such	as	the	network,	email,	BlackBerry	servers,	
                                                   Internet/Intranet,	telecommunications,	Wide	Area	Network	
                                                   connectivity,	the	agency’s	citizen-centric	website	(www.
   2009          Actual            N/A             ftc.gov),	and	enterprise-wide	client	applications.	The	high	
                                                   availability	rate	in	FY	2010	for	this	pool	of	critical	services	
                                                   helped	ensure	that	the	agency	had	optimal	informational	
                                                   technology	infrastructure	operations	and	performance,	
   2008          Actual            N/A             which	is	key	to	meeting	the	agency’s	strategic	goals.




                                               FISCAL YEAR 2010                                                             17
                                      Objective 3.3: Provide effective information resources management
                                      Key Measure 3.3.1 The percentage of Commission-approved documents in ongoing and newly initiated FTC
                                      proceedings available via the Internet within 15 days of becoming part of the public record.


                                                        Target         75.0%	rating        PERFORMANCE HIGHLIGHTS
                                                                                           Making	public	documents	easily	available	in	a	timely	
                                          2010                                             manner	increases	public	awareness	of	Commission	
                                                                       93.8%	rating	
                                                        Actual                             activities.	During	FY	2010,	the	FTC	developed	a	new	
                                                                            ✔              web-based	“e-filing”	system	that	enables	parties	in	FTC	
Management’s Discussion & Analysis



                                                                                           administrative	litigation	to	file	public	documents	online,	
                                                                                           making	the	posting	of	public	documents	to	the	Internet	
                                         2009           Actual             N/A             faster	and	more	efficient.	


                                         2008           Actual             N/A




                                      Objective 3.4: Provide effective financial and acquisition management
                                      Key Measure 3.4.2 The percentage of Bureaus/Offices that establish and maintain an effective, risk-based
                                      internal control environment.


                                                        Target            100.0%           PERFORMANCE HIGHLIGHTS
                                                                                           In	FY	2010	the	FTC	developed	an	Internal	Control	Review	
                                          2010                                             Plan	to	conduct	internal	control	reviews	of	agency	bureaus	
                                                                          100.0%	          and	offices	at	least	once	every	three	years.	The	objective	
                                                        Actual                             of	the	reviews	is	to	assist	management	in	identifying	high	
                                                                            ✔              risk	areas	and	implement	appropriate	risk	management	
                                                                                           strategies	where	necessary.
                                         2009           Actual             N/A


                                         2008           Actual             N/A




                                     Performance Measures Summary
                                     The Performance Measure Summary Table in the            measure does not have available data until FY 2011.
                                     Performance section of this report shows actual         Based on these results, the FTC has made significant
                                     results for all performance measures and shows unit     progress toward reaching its objectives, as fully
                                     of measure. Of the 40 total performance measures,       described in the Performance Section.
                                     29 were exceeded, 7 were met, 3 were not met, and 1




       18                                              FEDERAL TRADE COMMISSION | Performance and Accountability Report
AGENCY MISSION CHALLENGES
The FTC stands prepared to face the challenges of            PROTECTING CONSUMERS IN A
today’s marketplace as a champion for consumers and          TROUBLED ECONOMY:
competition. As a small law enforcement agency with
                                                             As more consumers face financial challenges, fraud
a broad mandate, many of the FTC’s challenges are
                                                             operators have seized upon new schemes to take
defined by the conditions of the marketplace, and thus
                                                             advantage of those most affected by the economic
are ever changing. For example, as consumers and
                                                             downturn. The FTC targets illegal practices in the
businesses encounter difficulties with all aspects of a




                                                                                                                         Management’s Discussion & Analysis
                                                             financial services arena, especially schemes directed
mortgage transaction, from advertising, to servicing,
                                                             at financially distressed consumers, including: unfair,
to loan modification or foreclosure rescue services,
                                                             deceptive, or otherwise unlawful mortgage advertising;
financial scams, deceptive or fraudulent advertising,
                                                             unlawful practices in servicing mortgages; foreclosure
online privacy and data security, and anticompetitive
                                                             “rescue” and loan modification scams; bogus debt
business practices in the technology, health care and
                                                             relief and credit “repair” services; and unlawful
other industries, the FTC steps forward to protect
                                                             debt collection. These practices can have severe
consumers and maintain competition. Agency
                                                             consequences for consumers, including unanticipated
management has identified significant mission challenges
                                                             high-cost mortgages and fees and ruined credit histories.
in Strategic Goal 1 (Protect Consumers) and Strategic
                                                             The FTC also works to protect vulnerable consumers
Goal 2 (Maintain Competition). Management’s
                                                             from deceptive work-at-home and get-rich-quick
identification was performed separately from the
                                                             schemes, including promises of non-existent jobs and
Inspector General’s (IG) assessment of management and
                                                             promotion of bogus get-rich-quick plans and phony
performance challenges (see the Other Accompanying
                                                             government grants. The FTC will continue to respond
Information Section). However, because management
                                                             to growing challenges in these arenas. (Objectives 1.1,
concurs with the IG assessment, certain aspects of the
                                                             1.2, 1.3, and 1.4)
challenges described below are also addressed by the IG.
                                                             PROTECTING CONSUMER PRIVACY:
Agency mission challenges are presented below as they
relate to the agency’s strategic goals. A reference to the   The FTC will continue to take a leading role in efforts
most applicable strategic objectives is also provided        to protect consumers from unfair, deceptive, or other
so that readers may refer to descriptions of related         illegal practices related to their privacy. The agency
performance targets and actual results listed by objective   will continue to bring law enforcement actions against
within the Performance Section.                              companies that have misrepresented their policies about
                                                             the use of personal information they collect from
Strategic Goal 1: Protect                                    consumers or failed to take appropriate steps to protect
Consumers: Prevent Fraud,                                    the security of personal information. In addition to its
Deception, and Unfair Business                               enforcement efforts, the FTC will address the complex
                                                             privacy and data security issues that may be associated
Practices in the Marketplace
                                                             with the use of online behavioral advertising and other
Under the Protect Consumers goal, the FTC will               media through workshops, testimony, reports, and
continue to give priority to addressing the following        consumer and business education.
challenges: protecting consumers in a troubled
economy, protecting consumer privacy, stopping abuses        The National Do Not Call (DNC) Registry puts
of technology and new media, stopping health fraud,          consumers in charge of the telemarketing calls they
addressing deceptive “green” marketing claims, and           receive at home. The federal government created
addressing issues related to marketing to children.          the Registry to make it easier and more efficient for




                                                    FISCAL YEAR 2010                                                           19
                                                                                                  however, new vehicles for fraudulent, deceptive, and
                                     consumers to stop unwanted telemarketing calls.              unfair practices in the marketplace. If consumers are
                                     The Registry now includes more than 200 million              not adequately protected, not only can they suffer
                                     telephone numbers. The FTC’s challenge is to ensure          economic injury, but they can lose confidence in these
                                     that consumers who register their numbers are                new technologies and e-commerce. For this reason,
                                     protected from receiving unwanted telemarketing calls        the FTC will study technological developments and
                                     by continuing to enforce the DNC provisions of the           continue to bring cases against those who abuse
                                     Telemarketing Sales Rule, including recent amendments        technology. As new media open new avenues for
                                     relating to prerecorded calls (“robocalls”). Though most     companies to communicate with consumers, the FTC
Management’s Discussion & Analysis




                                     entities covered by the DNC Rule comply, the FTC             will focus on the privacy, security, and other risks of
                                     received more than 1.6 million consumer DNC Registry         consumer harm associated with these technologies,
                                     complaints in FY 2010. (Objectives 1.1, 1.2, 1.3, and 1.4)   including the explosive growth of mobile devices,
                                                                                                  electronic payment systems, and social networking.
                                     STOPPING ABUSES OF TECHNOLOGY                                (Objectives 1.1, 1.2, 1.3, and 1.4)
                                     AND NEW MEDIA:
                                                                                                  STOPPING HEALTH FRAUD:
                                     Technology provides countless benefits to consumers,
                                     including choice, convenience, and increased access          Consumers are being bombarded with unprecedented
                                     to goods, services, and information. It also enables,        levels of advertising for products to prevent and




                                                                                    “OPERATION STOLEN HOPE”
                                                                                    The FTC Leads Efforts to Stop Mortgage Relief
                                                                                    Scams and Help Troubled Homeowners
                                                                                    In November 2009, the FTC announced “Operation Stolen
                                                                                    Hope” as part of a continuing federal-state crackdown on
                                                                                    mortgage foreclosure rescue and loan modification scams.
                                                                                    The operation involved 118 actions by 26 federal and state
                                                                                    agencies. The FTC announced six lawsuits, bringing to
                                                                                    28 the number of mortgage relief cases the Commission
                                                                                    has brought since the housing crisis began. Twenty-five
                                                                                    state attorneys general and other state and local agencies
                                                                                    announced 112 similar actions.

                                                                               In the FTC’s announced actions, the defendants falsely
                                                                               claimed that they would obtain mortgage modifications
                                          that would make consumers’ monthly mortgage payments substantially more affordable. After
                                          charging large up-front fees, they often did little or nothing to help homeowners renegotiate
                                          their mortgages. According to the FTC’s complaints, some of the defendants falsely claimed
                                          a high success rate and promised to give consumers refunds if they failed to modify their
                                          mortgages, and others misrepresented that they were affiliated with the federal government or
                                          consumers’ mortgage lenders or servicers. For more information, visit 	
                                          www.ftc.gov/opa/2009/11/stolenhope.shtm.




       20                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
                                                            The study will show any changes in industry practices
treat diseases and improve health and, each year, they      and report on industry adoption and implementation
spend billions of dollars purchasing health products.       of the FTC’s 2008 recommendations. In addition,
Consumers can fall prey to fraudulent health marketing      in response to a Congressional directive, the FTC is
when they are desperate for help. The FTC will              coordinating an interagency working group with the
continue to respond to this challenge by scrutinizing       Food and Drug Administration, Centers for Disease
the marketing of health care products, particularly         Control, and the U.S. Department of Agriculture
claims about serious diseases or weight loss, advertised    to develop voluntary nutrition standards for food
through television, Internet, and other forms of mass       marketing to children. (Objectives 1.1, 1.3, and 1.4)
media marketing, and taking action against companies




                                                                                                                         Management’s Discussion & Analysis
making deceptive representations. In addition to            Strategic Goal 2: Maintain
traditional law enforcement actions, the FTC creates        Competition: Prevent
education materials to help companies develop adequate
substantiation and information to help consumers spot
                                                            Anticompetitive Mergers and
deceptive claims. (Objectives 1.1, 1.2, 1.3, and 1.4)       Other Anticompetitive Business
                                                            Practices in the Marketplace
ADDRESSING DECEPTIVE “GREEN”
                                                            Under the Maintain Competition goal, the FTC will
MARKETING CLAIMS:
                                                            continue to give priority to the challenges of promoting
“Green” claims, such as claims for carbon reduction,        competition and preventing anticompetitive activity
landfill reduction, and sustainable materials and           in the health care and pharmaceutical industries, high
packaging, can be extremely useful for consumers;           technology sectors, and energy industries. The agency will
however, the complexity of the issues involved creates      also work on promoting sound competition policy at the
the potential for confusing, misleading, and fraudulent     international level and advocating for competition before
claims. Given this potential, the FTC issued for public     the U.S. courts, legislatures, and government agencies.
comment proposed revisions to the “FTC Guides for
the Use of Environmental Marketing Claims.” The             PROMOTING COMPETITION AND
proposed changes are designed to update the Guides          PREVENTING ANTICOMPETITIVE
and make them easier for marketers to understand and        ACTIVITY IN THE HEALTH CARE AND
use. The agency is also developing a consumer and           PHARMACEUTICAL INDUSTRIES:
business education campaign and pursuing appropriate
enforcement action involving deceptive claims in this       The rapidly rising cost of health care, which continues
area. (Objectives 1.1, 1.2, 1.3, and 1.4)                   to account for an increasingly significant share of the
                                                            gross domestic product, is a matter of concern for
ADDRESSING ISSUES RELATED TO                                consumers, employers, insurers, and the nation as a
                                                            whole. To ensure that consumers receive the benefits of
MARKETING TO CHILDREN:
                                                            competition in health care, the FTC has made antitrust
To combat the challenges of childhood obesity,              enforcement in this area a priority. Pay-for-delay patent
underage drinking, and children’s exposure to violent       settlement agreements between brand and generic
media content, the FTC engages in research and policy       drug manufacturers to delay generic competition are
work pertaining to marketing of food, alcohol, and          causing consumers significant harm because they
violent entertainment to children. The FTC monitors         deprive consumers access to lower cost generic drugs.
self-regulation in the food, alcohol, movie, video game,    According to FTC economists, these anticompetitive
and music recording industries. In 2010, the FTC            deals, unless stopped, will cost consumers $35 billion
initiated a follow-up study to its 2008 report “Marketing   over ten years. When appropriate, the FTC investigates
Food to Children and Adolescents: A Review of               and challenges patent settlements between brand
Industry Expenditures, Activities, and Self-Regulation.”    and generic companies and supports legislation to




                                                   FISCAL YEAR 2010                                                            21
                                     eliminate this problem. The agency also addresses rising   PROMOTING COMPETITION AND
                                     prescription drug prices by monitoring pharmaceutical      PREVENTING ANTICOMPETITIVE
                                     and medical device company mergers. In addition, the       BUSINESS PRACTICES IN HIGH
                                     FTC stops anticompetitive agreements between physicians    TECHNOLOGY SECTORS:
                                     and hospital service organizations and monitors hospital
                                     and other mergers that may raise the cost of health        The continuing importance of technology is a crucial
                                     care. The agency engages in efforts to educate health      marketplace challenge that is placing greater demands
                                     care providers about antitrust law to prevent groups of    on antitrust enforcement. The FTC’s antitrust
                                     providers from creating and exercising market power,       investigations increasingly involve high-technology
                                     which undermines efforts to improve quality and control    sectors of the economy. In enforcing the antitrust laws,
Management’s Discussion & Analysis




                                     costs. The FTC focuses these education efforts so that     the FTC analyzes mergers and acquisitions filed under
                                     misunderstandings about the law do not deter potentially   the Hart-Scott-Rodino (HSR) Act, and also monitors
                                     beneficial collaborations among health care competitors.   the industry for non-reportable transactions that might
                                     (Objectives 2.1, 2.2, and 2.3)                             raise antitrust concerns. The FTC endeavors to take
                                                                                                action against those mergers that are likely to reduce
                                                                                                or eliminate competition in the high technology sector.
                                                                                                The FTC is particularly vigilant where a firm may be
                                                                                                illegally using a dominant market position to stifle
                                                                                                competition and strengthen an existing monopoly in




                                                                                THE FTC RESTORES
                                                                                COMPETITION IN THE
                                                                                CPU AND GRAPHICS
                                                                                PROCESSING MARKETS
                                                                                (Intel Settlement)
                                                                             In December of 2009, the Commission sued Intel Corp.,
                                                                             the world’s leading computer chip maker, charging that the
                                                                             company had illegally used its dominant market position
                                                                             for a decade to stifle competition and strengthen its
                                                                             monopoly. In its complaint, the FTC alleged that Intel had
                                                                             waged a systematic campaign to shut out rivals’ competing
                                                                             microchips by cutting off their access to the marketplace.
                                                                             In the process, Intel deprived consumers of choice and
                                         innovation in the microchips that comprise the computers’ central processing unit, or CPU.
                                         These chips are critical components that often are referred to as the “brains” of a computer.
                                         According to the FTC complaint, Intel’s anticompetitive tactics were designed to put the brakes
                                         on superior competitive products that threatened Intel’s monopoly in the CPU microchip
                                         market. In August of 2010, Intel agreed to a settlement with provisions that will open the door
                                         to renewed competition and prevent Intel from suppressing competition in the future. To learn
                                         more, visit www.ftc.gov/os/adjpro/d9341/index.shtm.




       22                                               FEDERAL TRADE COMMISSION | Performance and Accountability Report
order to raise prices, reduce the quality or choice of        ADVOCACY AND COMPETITION POLICY:
goods and services, or reduce innovation. Furthermore,
issues in antitrust matters increasingly intersect with       As part of its mission, the FTC promotes sound
intellectual property concerns, raising difficult questions   competition policy through advocacy and policy
about how to harmonize these two bodies of law.               initiatives. Last year, the FTC and the Department
(Objective 2.1)                                               of Justice, after holding workshops, issued revised
                                                              horizontal merger guidelines to help the public,
PROMOTING COMPETITION AND                                     practitioners, and the courts understand how the
                                                              agencies analyze these transactions. The agency
PREVENTING ANTICOMPETITIVE
                                                              is currently working on reports about intellectual
ACTIVITY IN ENERGY INDUSTRIES:




                                                                                                                          Management’s Discussion & Analysis
                                                              property law and competition policy and about the
The price of gasoline and other energy sources                future of journalism. In addition, the FTC advises
continues to be a great concern for consumers,                other government agencies on competition policy.
businesses, and governments. The agency meets this            For example, the FTC has submitted comments to
challenge by closely monitoring gasoline markets and          oppose legislation that would deprive children of
moving quickly to address any anticompetitive merger          dental care in Louisiana, increase the cost of buying
or nonmerger activity. Through its review of HSR              a home by limiting competition between full service
merger filings and investigation of non-reportable            and discount real estate brokers, raise the price of wine
transactions, the FTC protects consumers in these             by prohibiting direct shipment of wine to consumers,
markets. The FTC also continuously examines price             and increase health care costs by requiring new
movements and other activity through its Gasoline and         hospitals to obtain a certificate of need. Finally, the
Diesel Price Monitoring Project to identify any conduct       FTC promotes convergence toward sound consumer
that may not reflect purely competitive decisions based       welfare based competition enforcement and policy
on the forces of supply and demand. In August 2009,           internationally, both through multilateral organizations
exercising the authority provided by Congress under           such as the International Competition Network and
the Energy Independence and Security Act of 2007, the         the Organization for Economic Cooperation and
Commission issued a final rule, which became effective        Development and through bilateral engagement with its
in November 2009, that prohibits market manipulation          enforcement counterparts. (Objectives 2.2, 2.3, and 2.4)
in the petroleum industry. The rule proscribes fraud or
deceit in wholesale petroleum markets, and omissions
of material information that are likely to distort
petroleum markets. The FTC also uses its enforcement
role to search for anticompetitive nonmerger activity
such as illegal agreements among competitors,
agreements between manufacturers and product dealers,
monopolization, and other anticompetitive activities.
To prepare and support agency staff in meeting this
challenge, the FTC devotes considerable resources to
monitoring and studying energy markets—often in
response to congressionally mandated requirements—
thus developing the professional expertise and body
of knowledge needed to address emerging concerns.
(Objectives 2.1 and 2.3)




                                                     FISCAL YEAR 2010                                                           23
                                     MANAGEMENT                                                   During FY 2010, the SAT updated guidance for
                                                                                                  program managers to use in completing self-
                                     ASSURANCES                                                   assessments of the processes and controls within their
                                                                                                  areas of responsibility. Senior managers throughout the
                                     (On Internal Controls, Financial                             agency completed self-assessments that disclosed no
                                     Systems, and Compliance with                                 significant control weaknesses. The SAT evaluated the
                                     Laws and Regulations)                                        results of the managers’ assessments and concurred
                                                                                                  that no material weaknesses or nonconformances were
Management’s Discussion & Analysis




                                                                                                  identified. The results of these evaluations and other
                                     IMPLEMENTATION OF THE FEDERAL                                information—such as independent audits or reviews
                                     MANAGERS’ FINANCIAL INTEGRITY ACT                            performed by the Office of Inspector General (OIG)
                                     (FMFIA) AT THE FTC                                           and the Government Accountability Office (GAO)
                                                                                                  (e.g., Federal Information Security Management Act
                                     The FTC considers internal controls to be an integral        [FISMA] review), independent audits of service
                                     part of all systems and processes that the agency utilizes   providers’ operations and financial systems (e.g.,
                                     in managing its operations and carrying out activities       reviews conducted in accordance with Statement on
                                     toward achieving strategic goals and objectives. The FTC     Auditing Standards [SAS] 70), internal analyses, and
                                     holds agency managers accountable for efficiently and        other relevant evaluations and control assessments—
                                     effectively performing their duties in compliance with       were considered by the SAT and the agency head in
                                     applicable laws and regulations and for maintaining the      determining whether there are any management control
                                     integrity of their activities through the use of controls.   deficiencies or nonconformances that must be disclosed
                                                                                                  in the annual assurance statement.
                                     The FTC’s Senior Assessment Team (SAT) provides
                                     strategic direction and oversight over the agency’s          In FY 2010 the FTC established an Internal Control
                                     internal control program, to promote and facilitate          Review Plan to conduct internal control reviews
                                     compliance with applicable guidance (e.g., Office of         of agency bureaus and offices at least once every
                                     Management and Budget [OMB] Circular A-123,                  three years. The objective of the reviews is to assist
                                     “Management’s Responsibility for Internal Control”),         management in identifying high risk areas and
                                     and communicates the results of reviews to senior            implement appropriate risk management strategies
                                     management and the head of the agency.                       where necessary. The first two reviews where conducted
                                                                                                  this year. The Chairman’s assurance statement that
                                     Some of the functions of the SAT are developing              follows is supported by the processes and reviews
                                     and documenting an internal control review plan,             described above, which were carried out in FY 2010.
                                     identifying key processes and related control activities     Management assurances tables appear in the Other
                                     and performing a preliminary risk assessment of              Accompanying Information Section.
                                     such processes, reviewing and assessing the overall
                                     control environment, helping to ensure the timely
                                     implementation of any corrective actions needed to
                                     address identified weaknesses, and establishing guidance
                                     for program managers in monitoring and assessing
                                     management controls within their areas of responsibility.




       24                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
CHAIRMAN’S FMFIA STATEMENT OF ASSURANCE




                                                 Management’s Discussion & Analysis




                              FISCAL YEAR 2010         25
                                                                                                     effect on the FTC because the agency operates with
                                     SUMMARY OF MATERIAL WEAKNESSES                                  minimal delinquent debt, all debts more than 180 days
                                                                                                     old have been transferred to the U.S. Department of
                                     AND NONCONFORMANCES
                                                                                                     the Treasury for cross-servicing. In addition, recurring
                                     As noted in the Chairman’s FMFIA Statement of                   payments were processed by electronic funds transfer
                                     Assurance, the FTC has no material weaknesses or                (EFT) in accordance with the EFT provisions of the Debt
                                     nonconformances to report for FY 2010. No new                   Collection Improvement Act.
                                     material weaknesses or significant nonconformances
                                     were identified for the past five years, nor were there any     PROMPT PAYMENT ACT
                                     existing unresolved weaknesses requiring corrective action.
                                                                                                     The Prompt Payment Act requires federal agencies to
                                                                                                     make timely payments to vendors, including any interest
                                     FEDERAL INFORMATION SECURITY
Management’s Discussion & Analysis




                                                                                                     penalties for late invoice payments. In FY 2010, the FTC
                                     MANAGEMENT ACT (FISMA)
                                                                                                     processed 11,481 invoices totaling nearly $81 million that
                                     The FISMA requires all federal agencies to develop and          were subject to prompt payment. Of the 11,481 invoices
                                     implement an agencywide information security program            processed, 98 percent were paid on-time. Also, during FY
                                     provides the framework to protect the government’s              2010, the FTC paid a total of $6,176 in interest penalties,
                                     information, operations, and assets. The FTC places a           or .01 percent of the total dollar amount invoiced.
                                     strong emphasis on information security and annually
                                     reviews the program through its internal audit function.        AGENCY FINANCIAL MANAGEMENT
                                     As part of this review (see the FTC Management                  SYSTEMS STRATEGY
                                     Challenges memo in the Other Accompanying
                                     Information Section), the IG identified issues related to       The FTC’s overall strategy for its financial management
                                     the processes used by the Information and Technology            systems framework is driven by the objectives of
                                     Management Office (ITMO) and its contractors to install         operational effectiveness and efficiency, reliability and
                                     a secure and viable information technology system. As           timeliness of data and support of requirements of the
                                     reported, the agency took immediate action and has              agency’s strategic goals. The agency continues to work
                                     established repeatable processes for testing, deployment,       with its shared service provider in enhancing its core
                                     maintenance, and decommissioning information assets             financial system (CFS) and the related feeder systems and
                                     that accord with OMB and National Institute of                  business processes. In FY 2010, the FTC examined its
                                     Standards and Technology (NIST) guidance.                       purchase card system procedures to implement improved
                                                                                                     internal accounting processes.
                                     Additionally, to meet or exceed the requirements of
                                     FISMA, 100 percent of agency major applications and             The FTC has current plans to replace its legacy
                                     general support systems are certified and accredited, and       procurement system in a phased approach, initially
                                     the FTC’s certification and accreditation policy conforms to    upgrading the operational functionality and secondly
                                     NIST standards. Furthermore, the ITMO and the Privacy           implementing its strategy to interface with its CFS. This
                                     Steering Committee continue to strengthen privacy and data      ultimately will improve the timeliness of data for fund
                                     security policies and will raise the level of awareness among   manager decision-making.
                                     staff regarding these issues so that data protection remains
                                     a critical consideration for all FTC employees.
                                                                                                     Future financial management system plans include
                                                                                                     upgrading its Oracle-based CFS to Release 12, which will
                                     DEBT COLLECTION IMPROVEMENT ACT
                                                                                                     provide operational efficiencies through a new centralized
                                     The Debt Collection Improvement Act of 1996                     rules-based accounting engine. A longer-term agency-wide
                                     prescribes standards for the administrative collection,         strategy is to develop a mission-centric data warehouse that
                                     compromise, suspension, and termination of federal              will provide the benefits of accessing mission-critical data
                                     agency collection actions and referrals to the proper           from financial management systems, program systems and
                                     agency for litigation. Although the Act has no material         personnel systems from a central repository.




       26                                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
FINANCIAL HIGHLIGHTS
Introduction
The financial highlights presented below are an analysis               Accepted Accounting Principles (GAAP). GAAP
of the information that appears in the FTC’s FY 2010                   for federal agencies are the standards prescribed by
financial statements. The agency’s financial statements,               the Federal Accounting Standards Advisory Board
which appear in the Financial Section of this report, are              (FASAB). For the 14th straight year, the FTC is proud




                                                                                                                                  Management’s Discussion & Analysis
audited by an independent accounting firm. The FTC                     to have received an unqualified (clean) opinion on our
management is responsible for the fair presentation                    audited financial statements. The chart below presents a
of information contained in the principal financial                    snapshot of the changes in key financial statement line
statements. The financial statements and financial data                items that occurred during FY 2010 and is followed by
presented below have been prepared from the agency’s                   an explanation of the more significant fluctuations in
accounting records in accordance with Generally                        each of FTC’s financial statements.


Differences between amounts presented in this section and the financial statements are due to rounding.

                                                                                                                     Percentage
 CONDENSED BALANCE SHEET (Dollars shown in thousands)                                     FY 2010         FY 2009
                                                                                                                        Change
   Fund Balance with Treasury                                                            $ 109,486        $ 81,307         35%
   Cash and Other Monetary Assets                                                            21,473         18,141         18%
   Investments                                                                              199,105        94,848         110%
   Accounts Receivable, Net                                                                 48,260          55,705        -13%
   General Property & Equipment, Net                                                         18,060         15,473         17%

   Total Assets                                                                           $396,384        $265,474         49%

   Accrued Redress Receivables Due to Claimants                                            $38,170         $55,496        -31%
   Redress Collected not yet Disbursed                                                     180,526          69,746        159%
   Divestiture Fund Due                                                                      45,523         45,542          0%
   Accounts Payable and Other                                                                44,515         34,299         30%
   Total Liabilities                                                                      $308,734        $205,083         51%
   Cumulative Results of Operations-Other Funds                                              87,650         60,391         45%
   Total Net Position                                                                     $ 87,650        $ 60,391         45%


   Total Liabilities and Net Position                                                     $396,384        $265,474         49%

                                                                                                                     Percentage
 COST SUMMARY                                                                                 2010           2009
                                                                                                                        Change
   Gross Cost                                                                             $275,100        $256,950          7%
   Less: Earned Revenue                                                                     -87,980        -58,256         51%
   Net Cost of operations                                                                 $ 187,120       $198,694         -6%




                                                             FISCAL YEAR 2010                                                           27
                                     Financial Analysis

                                     ASSETS.
                                     The FTC’s Balance Sheet shows total assets of $396              The increase in Investments is due primarily to the
                                     million at the end of FY 2010, an increase of $131 million      collection of the $108 million in the one redress case.
                                     or 49 percent compared to total assets of $265 million in
                                     FY 2009. The overall increase is primarily attributable to a    Accounts Receivable, Net decreased by $7 million due
                                     collection of $108 million on one significant redress case      to increased collections and write-offs that reduced net
                                     near the latter part of the fiscal year that has not yet been   redress accounts receivable by $17 million, offset by an
Management’s Discussion & Analysis




                                     disbursed. This amount is currently invested until such         increase in net new civil penalty accounts receivable of
                                     time that it will be distributed.                               $10 million.

                                     A major contributing factor to the $28 million increase         General Property & Equipment, Net increased due to the
                                     in the FY 2010 Fund Balance with Treasury are the               outfitting of the 1800 M Street interim space location and
                                     funds that were obligated but not yet paid in FY 2010           the FTC’s data center.
                                     to GSA for new space requirements that replace in 2012
                                     the current locations of 1800 M Street and 601 New
                                     Jersey Avenue.


                                                                                             FTC’S WORKFORCE COMPOSITION


                                          ASSETS BY TYPE (Dollars shown in millions)



                                                                                                           Accounts Receivable, Net,
                                                                                                           $48 (12%)

                                                                                                                           Cash and Other Monetary
                                                                                                                           Assets, $21 (5%)

                                                                                                                             General Property and
                                                                                                                             Equipment, Net, $18 (5%)
                                         Fund Balance with
                                         Treasury, $110 (28%)




                                                      Investments, $199
                                                      (50%)




       28                                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
LIABILITIES.
The FTC’s total liabilities at the end of FY 2010 were         Redress Collected not yet Disbursed is the liability offset
$309 million, an increase of $104 million or 51 percent,       to collections made on redress cases. The one redress
from FY 2009 total liabilities of $205 million. The            case of $108 million in collections primarily accounts
increase in total liabilities is primarily the result of the   for the increase in this liability in FY 2010.
liability that is established for the future distribution of
the $108 million collection of the one redress case.           Accounts Payable and Other increased by $10 million in




                                                                                                                                Management’s Discussion & Analysis
                                                               FY 2010. This reflects the liability offset to the $10 million
Accrued Redress Receivables Due to Claimants is the            increase in net new civil penalty accounts receivable.
liability offset to net redress accounts receivable and
reflects a similar decrease of $17 million in FY 2010.




    LIABILITIES BY TYPE (Dollars shown in millions)


                            Divestiture Fund




FPO
                            Due, $46 (15%)


                                                                                         Redress Collected not
                                                                                         yet Disbursed, $181 (59%)
       Accrued Redress
       Receivables Due to
       Claimants, $38 (12%)

LIABILITIES CHART

       Accounts Payable
       and Other, $44 (14%)




                                                       FISCAL YEAR 2010                                                               29
                                     NET POSITION.                                              RESULTS OF OPERATIONS.
                                     Net Position represents the FTC’s Cumulative Results       Total gross costs were $275 and $257 million for FYs
                                     of Operations. At the end of FY 2010, the FTC’s Net        2010 and 2009, respectively, representing an increase
                                     Position is $88 million, increasing by $28 million or      of seven percent. The primary factors contributing
                                     45 percent over the FY 2009 ending Net Position of         to this increase are the rise in personnel costs and the
                                     $60 million.                                               interim space rental costs related to the 1800 M Street
                                                                                                location. Gross costs are inclusive of all costs involved
                                     Financing sources from appropriations used during the      in FTC’s ongoing operations. Fees collected under the
                                     year were $205 million and imputed financing sources       DNC Registry (related to the FTC’s protect consumers
                                                                                                strategic goal) and under the HSR Act (related to the
Management’s Discussion & Analysis



                                     totaled $10 million for a total of $215 million. The
                                     imputed financing sources consisted of $4 million          FTC’s maintain competition strategic goal) of $88 and
                                     in future retirement benefits and $6 million in future     $58 million in FYs 2010 and FY 2009, respectively,
                                     health and life insurance benefits accrued in FY 2010,     offset the gross costs in determining net costs.
                                     which will be paid by entities other than the FTC.
                                                                                                FY 2010 net costs of $187 million decreased by $12
                                     The financing sources of $215 million exceed the net       million over the FY 2009 level of $199 million primarily
                                     cost of operations totaling $187 million (gross costs of   due to the increase in premerger activity and the
                                     $275 million less revenues from fees of $88 million),      resulting increase in HSR fees collected.
                                     resulting in the $28 million increase in net position.




                                     FY 2010 NET COSTS BY STRATEGIC GOAL
                                     (Dollars shown in thousands)



                                                                                            Strategic Goal 1          Strategic Goal 2
                                                                                         Protect Consumers       Maintain Competition               Total

                                       Gross Costs                                                 $158,458                     $116,642        $275,100
                                       Less: Earned Revenue                                         (14,426)                     (73,554)         (87,980)
                                       Total Assets                                                $144,032                      $43,088         187,120




       30                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
BUDGETARY RESOURCES.                                       appropriations totaled $205 million, comprising 30 and
The Statement of Budgetary Resources (SBR) provides        70 percent of new budget authority, respectively. This
information on budgetary resources made available to       compares to offsetting collections of $58 million and
the agency and the status of these resources at the end    general fund appropriations of $201 million, comprising
of the fiscal year.                                        22 and 78 percent of new budget authority, respectively,
                                                           in FY 2009.
New budgetary authority (total budgetary resources
excluding unobligated balances brought forward, prior      The SBR includes distributed offsetting receipts, which
year recoveries, and amounts previously unavailable) was   are the non-entity and non-budgetary funds recorded
$293 million in FY 2010, an increase of $34 million or     in the FTC’s Miscellaneous Receipt account. These




                                                                                                                      Management’s Discussion & Analysis
13 percent over the $259 million in FY 2009. Additional    receipts are composed of disgorgements to the Treasury
staff and new space requirements to replace the 1800 M     from undistributed funds from the redress program
Street and 601 New Jersey Avenue locations contributed     and court-appointed receivers. Distributed Offsetting
to the additional funding needs in FY 2010.                Receipts were $7 million in FY 2010, compared to $15
                                                           million in FY 2009.
In FY 2010, spending authority derived from offsetting
collections totaled $88 million ($73 million for HSR
fees, $14 million for DNC Registry and $1 million
from reimbursable agreements) and general fund




    NEW BUDGET AUTHORITY FOR FY 2010 (Dollars shown in millions)




                                                                                General Fund Appropriations,
                                                                                $205 (70%)

      Spending Authority
      from Offsetting
      Collections, $88 (30%)




                                                  FISCAL YEAR 2010                                                          31
                                     Limitations of Financial                                    the same books and records. These statements should
                                     Statements                                                  be read with the understanding that they are for a
                                                                                                 component of the U.S. government, a sovereign entity.
                                     FTC management has prepared its FY 2010 financial           One implication is that unfunded liabilities cannot be
                                     statements from the books and records of the agency         liquidated without legislation that provides resources to
                                     in accordance with the requirements of OMB Circular         do so.
                                     A-136, Financial Reporting Requirements, as amended.
                                     The financial statements represent the financial position   Financial Management Indicators
                                     and results of operations of the agency pursuant to
                                                                                                 The following table shows standard indicators
                                     the requirements of Chapter 31 of the U.S. Code
Management’s Discussion & Analysis




                                                                                                 developed by the Chief Financial Officers Council
                                     Section 3515(b). While these statements have been
                                                                                                 and used by the OMB to monitor agencies’ financial
                                     prepared from the agency’s books in accordance with
                                                                                                 management practices.
                                     the formats prescribed by the OMB, the statements are
                                     in addition to the financial reports used to monitor and
                                     control budgetary resources, which are prepared from



                                        FINANCIAL MANAGEMENT INDICATORS FOR FY 2010

                                       DEBT MANAGEMENT

                                       Debt	Transferred	to	Treasury                              100%



                                       FUNDS MANAGEMENT

                                       Fund	Balance	with	Treasury	(identifies	the	difference	    100%	reconciled
                                       between	the	fund	balance	reported	in	Treasury	reports	
                                       and	the	agency	fund	balance	with	Treasury	recorded	
                                       in	its	general	ledger	on	a	net	basis)


                                       PAYMENT MANAGEMENT

                                      Percentage	Invoices	Paid	on	Time	(per	Prompt	              98%
                                      Payment	Act)

                                      Percentage	Interest	Penalties	Paid	to	Total	Dollars	       0.01%
                                      Invoiced

                                      Percentage	of	total	dollars	outstanding	in	current	        100%
                                      status*	(good	standing)	for	Individually	Billed	Travel	
                                      Account	holders

                                      Percentage	of	total	dollars	outstanding	in	current	        100%
                                      status*	(good	standing)	for	Centrally	Billed	Travel	
                                      accounts

                                      Percentage	of	total	dollars	outstanding	in	current	        100%
                                      status*	(good	standing)	for	Purchase	Cards


                                     *The OMB threshold for delinquency is 61 days.




       32                                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
                           Performance Section
P E R F O R M A N C E
      SECTION




        FISCAL YEAR 2010      33
                      INTRODUCTION TO PERFORMANCE
                      The Performance Section presents, by goals and                Relationship of Outputs
                      objectives, detailed information on the performance           to Outcomes
                      results of the Federal Trade Commission’s (FTC)
                      programs. This section also includes: a discussion of         The FTC continuously reviews its performance
                      strategies and factors affecting performance, a summary       framework and focuses on tracking and reporting the
                      of methods used to verify and validate performance            most appropriate and meaningful outcome measures to
                      data, trend data, performance targets, and resources          show effectiveness, efficiency, and results. For example,
Performance Section




                      utilized data for Goal 1 and Goal 2. Since Goal 3 applies     outcome-based Performance Measures 2.1.2 and 2.1.5
                      to overall performance across the agency, the resources       estimate the millions of dollars in consumer savings
                      utilized for Goal 3 are distributed to Goal 1 and Goal        that result from merger and nonmerger actions taken to
                      2. Generally, this section would also contain the results     maintain competition.
                      of program evaluations; however, the agency did not
                      undergo any significant program evaluations in FY             The FTC, however, has not developed outcome
                      2010. For a summary of the agency’s mission summary           measures in all cases, and uses input and output
                      and a description of the organizational structure, see        measures that either support outcomes, lead to
                      the Management’s Discussion and Analysis Section.             outcomes, or otherwise provide valuable indicators
                                                                                    of how the FTC is progressing toward achieving its
                      The goals, objectives, and performance measures               strategic goals and objectives. Under the consumer
                      reported in this PAR are based on the agency’s strategic      protection goal, for example, Performance Measure
                      plan, which was updated last year. Revisions and re-          1.1.1 counts consumer complaints and inquiries added
                      sequencing became effective at the start of FY 2010.          to the FTC’s database, and Performance Measure 1.1.2
                      A primary aim of the update was to identify additional        indicates the percentage of the agency’s consumer
                      outcome-oriented performance measures that describe           protection law enforcement actions that targeted the
                      the intended result of carrying out programs and              subject of consumer complaints. While these measures
                      activities. For example, Key Measure 1.2.1 was added          are not outcome-oriented, they bring the FTC closer
                      to track the percentage of all cases filed by the FTC         to determining its role in the ultimate desired outcome
                      that were successfully resolved through litigation, a         of a marketplace free of unfair practices that cause
                      settlement, or issuance of a default judgment. Other          consumer injury and free of fraud and deception. In the
                      changes resulting from the update include adding              future, the agency will begin efforts to identify or test
                      two new objectives with supporting performance                new practices where performance data collected shows
                      measures to capture the agency’s international work           an improvement in our performance outcomes.
                      and establishing a new third goal to capture the
                      agency’s mission support functions. In total, 26 new          Verification and Validation of
                      performance measures were added. Since FY 2010 is             Performance Data
                      the first year actuals are collected and reported for these
                                                                                    The financial data and performance results described
                      new measures, prior year data is not available. This is
                                                                                    in this report enable the FTC to administer its
                      indicated as N/A in the performance tables that follow.
                                                                                    programs, gauge their success, and make adjustments
                      The new measures support the new framework and
                                                                                    necessary to improve program quality for the public.
                      provide a better gauge of the agency’s effectiveness.
                                                                                    The Message from the Chairman on p. IV provides
                      The performance measures that were replaced are listed
                                                                                    that the FTC’s financial and performance data
                      in Appendix B.
                                                                                    presented in this report are complete, reliable, and
                                                                                    accurate. The following steps outline how the agency
                                                                                    ensured the performance information it reports is
                                                                                    complete, accurate, and consistent:


    34                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
 •	 Completed an independent review of the             Agency program managers also monitor and maintain
    internal controls over the data collection and     automated systems and databases that collect, track,
    reporting of performance measures to ensure        and store performance data, with support provided by
    reporting entities had documented adequate         the FTC’s Information and Technology Management
    procedures and checks and balances in the          Office. In addition to the general controls in place over
    reporting process.                                 the network that ensure only authorized staff can access
                                                       key systems, each application (system)—such as the
 •	 Developed policy and documented the
                                                       Consumer Sentinel Network—incorporates internal
    procedures used to ensure timely reporting of
                                                       validation edits to ensure the accuracy of data contained
    complete, accurate, and reliable actual results
                                                       therein. These application edits include checks for
    relative to the key performance measures.




                                                                                                                    Performance Section
                                                       reasonableness, consistency, and accuracy. Crosschecks
 •	 Held program managers accountable to set           between other internal automated systems also provide
    meaningful and realistic targets that also         assurances of data reasonableness and consistency.
    challenge the agency to leverage its resources.    In addition to internal monitoring of each system,
    This includes ensuring ongoing monitoring          experts outside of the business units (e.g., the Bureaus
    of performance targets so they are updated         of Consumer Protection and Competition) routinely
    to reflect changes in key factors that impact      monitor the data collection. For example, senior
    the agency’s ability to achieve such results.      economists from the Bureau of Economics review
    Further, when appropriate, program managers        statistical data used by the Bureau of Competition to
    are required to explain how they will improve      calculate performance results. Finally, in addition to the
    performance when targets are not met.              items described above, with the update of its Strategic
 •	 Subjected performance measurement results to       Plan, which became effective FY 2010, the FTC
    periodic senior management and Commission          reassessed, and will monitor, the validation procedures
    review throughout the fiscal year. This process    to ensure that changes to or addition of performance
    includes substantiating that actual results        measures are properly recorded and accurately reported.
    reported are indeed correct whenever those
    results reveal significant discrepancies or        The Financial Management Office is responsible
    variances from the target.                         for providing direction and support on data
                                                       collection methodology and analysis, ensuring that
                                                       data quality checks are in place, and accurately
                                                       reporting performance management data. Within the
                                                       Performance Section, the FTC has identified the data
                                                       sources for each performance measure.




LEGEND FOR UPCOMING PERFORMANCE SECTION TABLES

✔	   Signifies that the target is met or exceeded


✖	   Signifies that the target is not met




                                                FISCAL YEAR 2010                                                       35
                      Performance Measure Summary Tables
                      The tables that follow capture FY 2010 targeted performance compared to actual results and units of measure.


                      STRATEGIC GOAL 1: PROTECT CONSUMERS

                       Objective 1.1 Identify fraud, deception, and unfair practices that cause the greatest
                       consumer injury
Performance Section




                                                                                      Target         2.5	million	complaints	and	inquiries
                        Performance Measure 1.1.1	Complaints	and	inquiries	
                        collected	and	entered	into	the	Consumer	Sentinel	
                                                                                                            3.1	million	complaints		
                        Network	database.
                                                                                      Actual                     and	inquiries	
                                                                                                                     ✔

                                                                                      Target                  65.0%	of	actions
                        													Key Measure 1.1.2	The	percentage	of	the	FTC’s	
                        consumer	protection	law	enforcement	actions	that	
                        target	the	subject	of	consumer	complaints	to	the	FTC.
                                                                                      Actual                 95.9%	of	actions	✔


                                                                                      Target               See	(A)	and	(B)	below

                        Performance Measure 1.1.3	The	rate	of	customer	
                        satisfaction	with	the	FTC’s	Consumer	Response	Center.
                                                                                                              (A)	Exceeded	✔
                                                                                      Actual
                                                                                                                 (B)	Met	✔


                        Target: (A) For the website, exceed average citizen satisfaction rate as published in the American Customer
                        Satisfaction Index E-Government Satisfaction Index
                        (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
                        Interagency Committee




    36                                     FEDERAL TRADE COMMISSION | Performance and Accountability Report
Objective 1.2: Stop fraud, deception, unfairness, and other unlawful practices through
law enforcement


                                                              Target            75.0–85.0%	of	cases
													Key Measure 1.2.1	The	percentage	of	all	cases	
filed	by	the	FTC	that	were	successfully	resolved	
through	litigation,	a	settlement,	or	issuance	of	a	default	
                                                                                   99.2%	of	cases
judgment.                                                     Actual
                                                                                          ✔




                                                                                                                    Performance Section
                                                                       Statistically	significant	decrease	in	the	
Performance Measure 1.2.2	The	FTC’s	effectiveness	in	         Target
                                                                             prevalence	of	the	practice.
stopping	prohibited	business	practices	in	three	high	
priority	areas	over	the	next	five	years.
                                                              Actual                     N/A


                                                              Target               90.0%	of	cases
Performance Measure 1.2.3	The	percentage	of	redress	
cases	in	which	the	FTC	distributes	redress	dollars	
designated	for	distribution	to	consumers	within	six	                               96.0%	of	cases	
months.	                                                      Actual
                                                                                          ✔

Performance Measure 1.2.4	Investigations	or	cases	            Target         30	investigations	or	cases
in	which	the	FTC	obtains	foreign-based	evidence	or	
engages	in	mutual	assistance	that	contributes	to	FTC	
law	enforcement	actions,	or	in	which	we	cooperate	with	                      39	investigations	or	cases	
foreign	agencies	and/or	multilateral	organizations.           Actual
                                                                                          ✔

Objective 1.3: Prevent consumer injury through education


                                                              Target            50	million	messages
Performance Measure 1.3.1	Consumer	protection	
messages	accessed	online	or	in	print.
                                                                               43.9	million	messages	
                                                              Actual
                                                                                          ✖
                                                                       Exceed	average	citizen	satisfaction	rate	
                                                                       as	published	in	the	American	Customer	
                                                              Target
                                                                          Satisfaction	Index	E-Government	
													Key Measure 1.3.2 Customer	satisfaction	rate	                        Satisfaction	Index
with	an	FTC	consumer	education	website	or	microsite.
                                                                                      Exceeded	
                                                              Actual
                                                                                          ✔

                                                              Target            11,000	organizations
Performance Measure 1.3.3	Organizations	requesting	
consumer	education	publications.	                                               15,372	organizations	
                                                              Actual
                                                                                          	✔




                                                    FISCAL YEAR 2010                                                   37
                      Objective 1.4: Enhance consumer protection through research, reports, rulemaking,
                      and advocacy


                                                                                      Target     6	workshops	and	conferences
                      Performance Measure 1.4.1	Workshops	and	conferences	
                      convened	or	cosponsored	that	address	consumer	
                      protection	problems.                                                       11	workshops	and	conferences
                                                                                      Actual
                                                                                                               ✔
Performance Section




                      Performance Measure 1.4.2	Advocacy	comments	and	                Target         6	comments	and	briefs
                      amicus	briefs	on	consumer	protection	issues	filed	with	
                      entities	including	federal	and	state	legislatures,	agencies,	
                      or	courts.                                                                     6	comments	and	briefs
                                                                                      Actual
                                                                                                               ✔

                                                                                      Target         50.0%	of	respondents
                      Performance Measure 1.4.3	The	percentage	of	
                      respondents	finding	the	FTC’s	advocacy	comments	and	
                      amicus	briefs	“useful.”                                                        100.0%	of	respondents	
                                                                                      Actual
                                                                                                               ✔

                      													Key Measure 1.4.4	The	percentage	of	proposed	      Target          75.0%	of	rulemakings
                      Administrative	Procedure	Act	(APA)	rulemakings,	
                      conducted	solely	by	the	FTC,	completed	within	nine	
                      months	of	receipt	of	final	comments	in	the	Final	Notice	                       100.0%	of	rulemakings	
                      of	Proposed	Rulemaking.                                         Actual
                                                                                                               ✔



                      Objective 1.5: Protect American consumers in the global marketplace by providing
                      sound policy and technical input to foreign governments and international
                      organizations to promote sound consumer policy


                               Key Measure 1.5.1 Policy	advice	provided	to	           Target            40	policy	inputs
                      foreign	consumer	protection	and	privacy	agencies,	
                      directly	and	through	international	organizations,	
                      through	substantive	consultations,	written	submissions,	                          64	policy	inputs
                                                                                      Actual
                      or	comments.                                                                             ✔

                                                                                               8	technical	assistance	missions	or	
                                                                                      Target
                                                                                                  international	Fellows	hosted	
                      Performance Measure 1.5.2	Technical	assistance	to	
                      foreign	consumer	protection	and	privacy	authorities.                     23	technical	assistance	missions	or	
                                                                                      Actual      international	Fellows	hosted			
                                                                                                               ✔




    38                                  FEDERAL TRADE COMMISSION | Performance and Accountability Report
STRATEGIC GOAL 2: MAINTAIN COMPETITION

Objective 2.1: Take action against anticompetitive mergers and practices that may
cause significant consumer injury

          Key Measure 2.1.1 Actions	to	maintain	               Target   40.0–60.0%	of	substantial	investigations
 competition,	including	litigated	victories,	consent	
 orders,	abandoned	transaction	remedies,	restructured	
 transaction	remedies,	or	fix-it-first	transaction	remedies	              39.0%	of	substantial	investigations
 in	a	significant	percentage	of	substantial	merger	and	        Actual




                                                                                                                   Performance Section
 nonmerger	investigations.                                                                 ✖

                                                               Target               $500.0	million
 Performance Measure 2.1.2 Consumer	savings	of	at	
 least	$500	million	through	merger	actions	to	maintain	
                                                                                     $586.0	million
 competition.                                                  Actual
                                                                                           ✔

                                                               Target                $25.0	billion
 Performance Measure 2.1.3 Actions	against	mergers	
 likely	to	harm	competition	in	markets	with	a	total	of	at	
                                                                                      $22.5	billion		
 least	$25	billion	in	sales.                                   Actual
                                                                                           ✖
                                                               Target                   600.0%
 Performance Measure 2.1.4	Consumer	savings	of	at	
 least	six	times	the	amount	of	FTC	resources	allocated	to	
                                                                                       1,670.0%	
 merger	program.	(Efficiency	Measure)                          Actual
                                                                                           ✔
                                                               Target                $80.0	million
 Performance Measure 2.1.5	Consumer	savings	of	at	
 least	$80	million	through	nonmerger	actions	taken	to	
                                                                                    $508.0	million
 maintain	competition.                                         Actual
                                                                                           ✔
                                                               Target                 $8.0	billion
 Performance Measure 2.1.6	Actions	against	
 anticompetitive	conduct	in	markets	with	a	total	of	at	
                                                                                      $11.7	billion
 least	$8	billion	in	annual	sales.                             Actual
                                                                                           ✔

 Performance Measure 2.1.7	Consumer	savings	of	at	least	       Target                   400.0%
 four	times	the	amount	of	FTC	resources	allocated	to	
 nonmerger	program	over	a	five-year	period.	(Efficiency	                               2,418.0%
 Measure)                                                      Actual
                                                                                           ✔

 Performance Measure 2.1.8	The	percentage	of	cases	            Target               90.0%	of	cases
 in	which	the	FTC	had	at	least	one	substantive	contact	
 with	a	foreign	antitrust	authority	in	which	the	agencies	
 followed	consistent	analytical	approaches	and	reached	                                 100.0%
 compatible	outcomes.                                          Actual
                                                                                           ✔




                                                     FISCAL YEAR 2010                                                 39
                      Objective 2.2: Prevent consumer injury through education

                                                                                 Target               10.0	million	hits
                             Key Measure 2.2.1 Competition	resources	
                      accessed	via	the	FTC’s	website.
                                                                                                      21.5	million	hits	
                                                                                 Actual
                                                                                                             ✔
Performance Section




                      Objective 2.3: Enhance consumer benefit through research, reports, and advocacy

                                                                                          4	workshops,	seminars,	conferences,	and	
                                                                                 Target
                                                                                                         hearings
                              Key Measure 2.3.1 Workshops,	seminars,	
                      conferences,	and	hearings	convened	or	cosponsored	
                                                                                            6	workshops,	seminars,	conferences,		
                      that	involve	significant	competition-related	issues.
                                                                                 Actual               and	hearings	
                                                                                                             ✔

                                                                                 Target            8	reports	and	studies
                              Key Measure 2.3.2 Reports	and	studies	issued	
                      on	key	competition-related	topics.                                           9	reports	and	studies
                                                                                 Actual
                                                                                                             ✔

                              Key Measure 2.3.3 Advocacy	comments	and	           Target           6	comments	and	briefs
                      amicus briefs on	competition	issues	filed	with	entities	
                      including	federal	and	state	legislatures,	agencies	or	                      17	comments	and	briefs	
                      courts.                                                    Actual
                                                                                                             ✔

                                                                                 Target            50.0%	of	respondents
                      Performance Measure 2.3.4 The	percentage	of	
                      respondents	finding	the	FTC’s	advocacy	comments	and	
                      amicus	briefs	“useful.”                                                     100.0%	of	respondents	
                                                                                 Actual
                                                                                                             ✔

                                                                                 Target                1.7	million	hits
                      Performance Measure 2.3.5	The	volume	of	traffic	on	
                      www.ftc.gov	relating	to	competition	research,	reports,	
                                                                                                      2.2	million	hits
                      and	advocacy.                                              Actual
                                                                                                             ✔




    40                                  FEDERAL TRADE COMMISSION | Performance and Accountability Report
Objective 2.4: Protect American consumers in the global marketplace by providing
sound policy recommendations and technical advice to foreign governments and
international organizations to promote sound competition policy


         Key Measure 2.4.1 Policy	advice	provided	to	       Target               40	policy	inputs
 foreign	competition	agencies,	directly	and	through	
 international	organizations,	through	substantive	
                                                                                 76	policy	inputs
 consultations,	written	submissions,	or	comments.           Actual
                                                                                        ✔




                                                                                                               Performance Section
                                                                        10	technical	assistance	missions	or	
                                                            Target
                                                                            international	Fellows	hosted
 Performance Measure 2.4.2	Technical	assistance	
 provided	to	foreign	competition	authorities.                          60	technical	assistance	missions	or	
                                                            Actual        international	Fellows	hosted		
                                                                                        ✔




STRATEGIC GOAL 3: ADVANCE PERFORMANCE

Objective 3.1: Provide effective human resources management

                                                                         Exceed	the	government-wide		
                                                                         results	on	the	Federal	Human		
 Performance Measure 3.1.1 The	extent	employees	believe	    Target
                                                                        Capital	Survey’s	Results-Oriented	
 their	organizational	culture	promotes	improvement	in	                    Performance	Culture	Index
 processes,	products	and	services,	and	organizational	
 outcomes.
                                                                                    Exceeded
                                                            Actual
                                                                                        ✔
                                                                       Exceed	the	government-wide	results	
                                                            Target    on	the	Federal	Human	Capital	Survey’s	
         Key Measure 3.1.2 The	extent	employees	think	                      Talent	Management	Index
 the	organization	has	the	talent	necessary	to	achieve	
 organizational	goals.
                                                                                    Exceeded		
                                                            Actual
                                                                                        ✔




                                                   FISCAL YEAR 2010                                               41
                      Objective 3.2: Provide effective infrastructure and security management

                                                                                Target               75.0%	rating
                             Key Measure 3.2.1 A	favorable	Continuity	of	
                      Operations	(COOP)	rating.                                                      85.0%	rating	
                                                                                Actual
                                                                                                          ✔

                                                                                Target        98.00%	system	availability
                             Key Measure 3.2.2	Availability	of	information	
Performance Section




                      technology	systems.
                                                                                              99.86%	system	availability
                                                                                Actual
                                                                                                          ✔



                      Objective 3.3: Provide effective information resources management

                                                                                Target           75.0%	of	documents
                               Key Measure 3.3.1 The	percentage	of	
                      Commission-approved	documents	in	ongoing	and	newly	
                      initiated	FTC	proceedings	available	via	the	Internet	
                                                                                                 93.8%	of	documents	
                      within	15	days	of	becoming	part	of	the	public	record.     Actual
                                                                                                          ✔



                      Objective 3.4: Provide effective financial and acquisition management

                                                                                          Unqualified	opinion	on	the	financial	
                                                                                Target
                                                                                                      statements
                      Performance Measure 3.4.1	Independent	auditor’s	
                      financial	statement	audit	results.
                                                                                                  Unqualified	opinion	
                                                                                Actual
                                                                                                          ✔

                                                                                Target        100.0%	of	Bureaus/Offices
                              Key Measure 3.4.2 The	percentage	of	Bureaus/
                      Offices	that	establish	and	maintain	an	effective,	risk-
                      based	internal	control	environment.                                     100.0%	of	Bureaus/Offices	
                                                                                Actual
                                                                                                          ✔
                                                                                         23.0%	of	total	small	business	eligible	
                                                                                Target
                                                                                                        dollars	
                      Performance Measure 3.4.3 Performance	against	the	
                      Small	Business	Administration’s	government-wide	small	
                                                                                             58.9%	of	total	small	business		
                      business	procurement	goals.
                                                                                Actual             eligible	dollars	
                                                                                                          	✔




    42                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
STRATEGIC
GOAL 1: PROTECT                                           OBJECTIVE 1.4: ENHANCE CONSUMER
                                                          PROTECTION THROUGH RESEARCH,
CONSUMERS                                                 REPORTS, RULEMAKING, AND ADVOCACY.

Prevent fraud, deception, and unfair business practices   The FTC complements its law enforcement and
in the marketplace.                                       education efforts by gathering, analyzing, and making
                                                          public certain information concerning the nature of
I. Strategic View                                         business practices in the marketplace.

As the nation’s premier consumer protection agency,       OBJECTIVE 1.5: PROTECT AMERICAN




                                                                                                                          Performance Section
the FTC strives to protect consumers by preventing        CONSUMERS IN THE GLOBAL MARKETPLACE
fraud, deception, and unfair business practices in the    BY PROVIDING SOUND POLICY AND
marketplace. The agency applies five related objectives   TECHNICAL INPUT TO FOREIGN
to achieve this over a wide range of consumer             GOVERNMENTS AND INTERNATIONAL
protection issues.                                        ORGANIZATIONS TO PROMOTE SOUND
OBJECTIVE 1.1: IDENTIFY FRAUD, DECEPTION,                 CONSUMER POLICY.
AND UNFAIR PRACTICES THAT CAUSE THE                       The FTC works around the globe to address new and
GREATEST CONSUMER INJURY.                                 emerging consumer protection and privacy challenges and
The FTC identifies practices that cause consumer injury   concerns with a broad-based international program that
by analyzing the consumer complaint data collected in     strives to develop a consumer-friendly global marketplace.
its Consumer Sentinel Network database, holding public
discussions, and monitoring the marketplace.
                                                          II. Strategic Analysis
Objective 1.2: Stop fraud, deception, unfairness, and     OBJECTIVE 1.1: IDENTIFY FRAUD, DECEPTION,
other unlawful practices through law enforcement.         AND UNFAIR PRACTICES THAT CAUSE THE
The FTC uses information gathered under Objective         GREATEST CONSUMER INJURY.
1.1 to target its law enforcement efforts. Its law
                                                          Identifying the practices that cause the greatest consumer
enforcement program aims to stop and deter fraud
                                                          injury is the first step in preventing fraud, deception, and
and deception, protect consumers’ privacy, increase
                                                          unfair business practices in the marketplace.
compliance with its consumer protection statutes and
rules, and return funds to harmed consumers.
                                                          Our Strategy
OBJECTIVE 1.2: STOP FRAUD, DECEPTION,
                                                          To fulfill its consumer protection goal, the FTC must
UNFAIRNESS, AND OTHER UNLAWFUL                            identify consumer protection problems and trends in the
PRACTICES THROUGH LAW ENFORCEMENT.                        fast-changing, increasingly global marketplace. The agency
The FTC uses information gathered under Objective         strives to understand the issues affecting consumers,
1.1 to target its law enforcement efforts. Its law        including any newly emerging methods of fraud or deceit,
enforcement program aims to stop and deter fraud          so that it can target its enforcement, education, and
and deception, protect consumers’ privacy, increase       advocacy to those areas where consumers suffer the most
compliance with its consumer protection statutes and      harm. The FTC reports this information to other law
rules, and return funds to harmed consumers.              enforcement authorities and encourages those authorities
                                                          to assist in its efforts, either independently or jointly. In
OBJECTIVE 1.3: PREVENT CONSUMER INJURY
                                                          this way, the FTC can leverage its resources by ensuring
THROUGH EDUCATION.
                                                          multiple “cops on the beat.”
The FTC targets its education efforts to give
consumers the information they need to protect            To fulfill this objective, the FTC is using new
themselves from injury and to explain to businesses       technologies creatively and building on its broad base
how to comply with applicable laws.                       of private and public sector partners. The agency


                                                   FISCAL YEAR 2010                                                          43
                                                         TOP CONSUMER COMPLAINTS
                                                         IN CALENDAR YEAR 2009
                                                         For the 10th year in a row, identity theft is the number
                                                         one consumer complaint category, accounting for 21
                                                         percent of the total number of complaints received
Performance Section




                                                         between January and December 2009.




                                                                                                         PERCENT
                      RANK                               CATEGORY                                        OF TOTAL
                                                                                                        COMPLAINTS

                       1                                Identity Theft                                        21%

                       2                   Third Party and Creditor Debt Collection                           9%

                       3                               Internet Services                                      6%


                       4                       Shop-at-Home and Catalog Sales                                 6%


                       5              Foreign Money Offers and Counterfeit Check Scams                        5%

                       6                               Internet Auction                                       4%

                       7                                 Credit Cards                                         3%

                       8                       Prizes, Sweepstakes and Lotteries                              3%

                       9               Advance-Fee Loans and Credit Protection/Repair                         3%

                       10                             Banks and Lenders                                       2%

                       11           Credit Bureaus, Information Furnishers and Report Users                   2%

                       12                       Television and Electronic Media                               2%

                       13                                Health Care                                          2%

                       14    Business Opportunities, Employment Agencies and Work-at-Home Plans               2%

                       15                     Computer Equipment and Software                                 2%




    44                          FEDERAL TRADE COMMISSION | Performance and Accountability Report
continues to collect consumer complaint information
                                                            collected by the FTC via spam@uce.gov. The agency
directly through four principal sources: (1) a toll-free
                                                            augments identification of targets from its databases
helpline (1-877-FTC-HELP); (2) an identity theft
                                                            with other strategies for generating enforcement leads,
hotline (1-877-ID-THEFT); (3) the National Do Not
                                                            such as ad monitoring, Internet surfs (monitoring the
Call Registry (1-888-382-1222); and (4) the online
                                                            Internet for potentially false or deceptive advertising for
consumer complaint forms that support each of these
                                                            a targeted product or service), and direct referrals from
efforts, as well as online forms dedicated to complaints
                                                            government and private sector partners.
from members of the U.S. Armed Forces and to
cross-border fraud complaints. In addition, the FTC
                                                            Performance Results
continues to gather consumer complaint information
from other sources, including other law enforcement         The first performance measure ensures that the agency




                                                                                                                          Performance Section
agencies, Better Business Bureaus, and private entities.    assimilates a large number of consumer complaints,
The agency makes this and other information accessible      including complaints about DNC violations. The agency
through the secure website of the Consumer Sentinel         receives these complaints from a variety of sources,
Network (CSN). The more than 13.6 million consumer          including direct consumer complaints to the FTC and
fraud, identity theft, financial, and Do Not Call (DNC)     complaints received by the FTC’s partners. In this
complaints the agency has collected since September         manner, the FTC collects robust information to inform
2005 are accessible to more than 1,900 law enforcement      its law enforcement efforts. The second measure ensures
partner agencies worldwide. In FY 2010, the FTC             that FTC law enforcement actions target the subject of
significantly enhanced the CSN by adding its spam           concerns identified by consumers. The third measure
database. FTC staff and law enforcement partners now        ensures that the agency’s Consumer Response Center is
have the ability to search 300 million spam records         providing satisfactory service responding to consumers.

PERFORMANCE MEASURE 1.1.1
COMPLAINTS AND INQUIRIES COLLECTED AND ENTERED INTO THE CONSUMER SENTINEL
NETWORK DATABASE. (NUMBERS SHOWN IN MILLIONS.)


     2012           Target          2.7
                                               TARGET EXCEEDED.
     2011           Target          2.6        In	FY	2010,	the	FTC	added	3.1	million	entries	into	its	database,	123%	
                                               of	the	target	of	2.5	million.
                   Target           2.5        Since	FY	2008,	the	total	has	included	consumer	complaints	alleging	
    2010                                       DNC	violations.	Due	to	the	extent	by	which	the	FTC	exceeded	this	
                   Actual           3.1        target	in	FYs	2008	and	2009,	the	agency	reevaluated	the	target	in	
                                               the	2009	update	of	the	FTC	Strategic	Plan,	significantly	increasing	
                                               the	target	for	FY	2010	and	further	increasing	it	for	each	of	the	next	
                   Target           1.8        four	years.
    2009
                   Actual           3.3        Data Source: The FTC’s Consumer Sentinel Network database.

                   Target           1.8
    2008
                   Actual           3.1


                   Target           1.0
    2007
                   Actual           1.1


                   Target           1.0
    2006
                   Actual           1.0


                                                   FISCAL YEAR 2010                                                          45
                           KEY MEASURE 1.1.2

                      THE PERCENTAGE OF THE FTC’S CONSUMER PROTECTION LAW ENFORCEMENT ACTIONS
                      THAT TARGET THE SUBJECT OF CONSUMER COMPLAINTS TO THE FTC.

                         2012     Target        65%
                                                          TARGET EXCEEDED.
                         2011     Target        65%       In	FY	2010,	95.9%,	or	47	of	49,	of	the	agency’s	actions	targeted	the	
                                                          subject	of	consumer	complaints	to	the	FTC.	Because	the	agency	
                                                          augments	identification	of	targets	from	its	databases	with	other	
                                  Target       65.0%
Performance Section



                                                          strategies	for	generating	enforcement	leads—such	as	ad	monitoring,	
                         2010                             Internet	surfs,	and	direct	referrals	from	government	and	private	
                                  Actual       95.9%      sector	partners—the	agency	has	not	increased	the	target	for	this	
                                                          measure.
                                  Target       65.0%
                                                          Data Source: The FTC’s Consumer Sentinel Network database.
                        2009
                                  Actual       79.0%


                                  Target       65.0%
                        2008
                                  Actual       71.0%


                                  Target       50.0%
                        2007
                                  Actual       76.0%


                                  Target        N/A
                        2006
                                  Actual        N/A




    46                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 1.1.3

THE RATE OF CUSTOMER SATISFACTION WITH THE FTC’S CONSUMER RESPONSE CENTER.

    2012           Target       See (A) and (B)
                                                    TARGET MET.
    2011           Target       See (A) and (B)     In	FY	2010,	the	average	citizen	satisfaction	score	for	
                                                    participating	federal	government	websites	was	74,	and	the	
                                                    score	for	the	FTC’s	website	was	75.	The	standard	for	call	
                   Target      See (A) and (B)
                                                    centers	was	76,	and	the	FTC’s	score	was	76.




                                                                                                                 Performance Section
   2010
                               (A) Exceeded         Data Source: Reports from the U.S. Department of the
                   Actual
                               (B) Met              Interior’s Federal Consulting Group, the executive agent
                                                    for the American Customer Satisfaction Index, which is
                   Target             N/A           produced by the University of Michigan in partnership with
                                                    the American Society for Quality, ForeSee Results and the
   2009                                             CFI Group.
                   Actual             N/A


                   Target             N/A
   2008
                   Actual             N/A


                   Target             N/A
   2007
                   Actual             N/A


                   Target             N/A
   2006
                   Actual             N/A


 Target: (A) For the website, exceed average citizen satisfaction rate as published in the American Customer
 Satisfaction Index E-Government Satisfaction Index
 (B) For the call center, meet or exceed standards for call centers developed by the Citizen Service Levels
 Interagency Committee




                                                   FISCAL YEAR 2010                                                 47
                      OBJECTIVE 1.2: STOP FRAUD, DECEPTION,                           Performance Results
                      UNFAIRNESS, AND OTHER UNLAWFUL
                                                                                      The first measure ensures that the FTC successfully
                      PRACTICES THROUGH LAW ENFORCEMENT.
                                                                                      resolves cases, though it aims to file large, precedent
                      Once fraud, deception, and unfair business practices            setting cases when appropriate, including cases that raise
                      are identified in the marketplace, the FTC focuses its          challenging legal and factual issues. The second measure
                      law enforcement efforts on areas where it can have the          ensures the agency’s success in changing business
                      greatest impact for consumers.                                  practices within priority areas and demonstrates the
                                                                                      change through research methods. The third measure
                      Our Strategy                                                    ensures that the FTC returns redress dollars to
Performance Section




                      The FTC protects consumers by enforcing Section 5               consumers as quickly as possible. Dollars are considered
                      of the FTC Act, which prohibits unfair or deceptive             “designated for distribution” when the FTC is in receipt
                      acts or practices in or affecting commerce, as well as by       of all funds, legal issues are resolved, and a usable
                      enforcing an increasing number of statutes and rules            claimant list is ready. The last measure helps gauge law
                      proscribing specific unlawful practices. The agency             enforcement efforts from an international perspective,
                      initiates civil cases, primarily by filing actions in federal   including continuing to use and further develop new
                      court, which allege that defendants have violated these         powers authorized under the “Undertaking Spam,
                      laws and rules and seek injunctions and other relief. The       Spyware, And Fraud Enforcement With Enforcers
                      Commission also conducts administrative proceedings.            beyond Borders Act of 2006” (U.S. SAFE WEB Act) to
                                                                                      achieve the objective.
                              KEY MEASURE 1.2.1

                      THE PERCENTAGE OF ALL CASES FILED BY THE FTC THAT WERE SUCCESSFULLY RESOLVED
                      THROUGH LITIGATION, A SETTLEMENT, OR ISSUANCE OF A DEFAULT JUDGMENT.

                           2012            Target       75.0-85.0%
                                                                         TARGET EXCEEDED.
                           2011            Target       75.0-85.0%       Of	the	130	cases	resolved	in	FY	2010,	129	were	successfully	resolved	
                                                                         and	one	case	was	dismissed.		At	the	end	of	FY	2010,	an	additional	
                                                                         78	cases	had	not	been	resolved,	and	remained	in	litigation.	While	
                                           Target       75.0-85.0%
                                                                         the	agency	significantly	exceeded	the	target,	the	target	will	not	
                           2010                                          be	increased.	Setting	the	target	too	high	could	have	the	effect	of	
                                           Actual          99.2%         discouraging	the	filing	of	large,	difficult,	or	precedent-setting	cases	
                                                                         when	appropriate,	including	cases	that	raise	challenging	legal	and	
                                           Target           N/A          factual	issues.

                          2009                                           Data Source: LexisNexis CourtLink, the Public Access to Court
                                           Actual           N/A          Electronic Records service, the FTC website, and agency,
                                                                         bureau, division, and regional office reports.
                                           Target           N/A
                          2008
                                           Actual           N/A


                                           Target           N/A
                          2007
                                           Actual           N/A


                                           Target           N/A
                          2006
                                           Actual           N/A




    48                                     FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 1.2.2

THE FTC’S EFFECTIVENESS IN STOPPING PROHIBITED BUSINESS PRACTICES IN THREE HIGH
PRIORITY AREAS OVER THE NEXT FIVE YEARS.

                      Statistically significant decrease in
   2012      Target
                        the prevalence of the practice.       NOT AVAILABLE.
                                                              Stopping	deceptive	“green”	marketing	claims	
                      Statistically significant decrease in   is	one	of	the	FTC’s	highest	priorities,	and	the	
   2011      Target
                        the prevalence of the practice.       first	study,	addressing	bamboo	textiles	claims,	
                                                              is	currently	underway.	In	order	to	establish	a	




                                                                                                                 Performance Section
                      Statistically significant decrease in   baseline,	the	FTC	identified	more	than	500	
            Target                                            websites	marketing	bamboo	textiles,	and	from	
                        the prevalence of the practice.
   2010                                                       that	group	developed	a	representative	sample	
                                                              of	70	websites.	After	charging	four	sellers	
            Actual                    N/A
                                                              of	clothing	and	other	textile	products	with	
                                                              making	false	claims,	the	agency	re-captured	
            Target                    N/A                     the	sample	and	analyzed	the	marketing	claims.	
   2009                                                       The	FTC	then	sent	78	publically	announced	
            Actual                    N/A                     letters	to	companies	nationwide,	warning	that	
                                                              they	may	be	breaking	the	law.	The	sample	was	
                                                              then	captured	a	third	time,	and	it	is	currently	
            Target                    N/A                     being	analyzed.	The	final	results	of	the	study	
   2008                                                       will	be	collected	and	reported	in	FY	2011.
            Actual                    N/A
                                                              Data Source: Evaluations of the prevalence
                                                              of prohibited business practices in the
            Target                    N/A
                                                              targeted areas.
   2007
            Actual                    N/A


            Target                    N/A
   2006
            Actual                    N/A




                                      TELEPHONE NUMBERS ON
                                      THE NATIONAL DO NOT CALL
                                      REGISTRY EXCEED 200 MILLION
                                      The FTC manages the Registry, which continues to
                                      protect consumers from receiving unwanted commercial
                                      telemarketing calls. It’s fast and free to register a number,
                                      and registrations never expire. The Do Not Call Registry
                                      empowers consumers to take charge of the commercial
                                      telemarketing calls they receive. Consumers can register
                                      online at www.donotcall.gov, or call toll-free 888-382-1222
                                      (TTY 866-290-4236) from the number they wish to register.




                                            FISCAL YEAR 2010                                                        49
                                                                         2012      Target     90.0%
                                                                                                        TARGET EXCEEDED.
                                                                         2011      Target     90.0%     In	FY	2010,	in	24	of	25	
                      PERFORMANCE                                                                       cases,	or	96%,	the	FTC	
                                                                                                        distributed	redress	dollars	
                      MEASURE 1.2.3                                                Target     90.0%
                                                                                                        designated	for	distribution	
                                                                        2010                            to	consumers	within	six	
                      THE PERCENTAGE OF REDRESS CASES                              Actual     96.0%     months.

                      IN WHICH THE FTC DISTRIBUTES                                                      Data Source: Bureau
                                                                                   Target      N/A
                      REDRESS DOLLARS DESIGNATED                                                        open redress case status
                                                                        2009
                      FOR DISTRIBUTION TO CONSUMERS                                                     reports.
                                                                                   Actual      N/A
Performance Section




                      WITHIN SIX MONTHS.
                                                                                   Target      N/A
                                                                        2008
                                                                                   Actual      N/A


                                                                                   Target      N/A
                                                                        2007
                                                                                   Actual      N/A


                                                                                   Target      N/A
                                                                        2006
                                                                                   Actual      N/A




                                                                “OPERATION BOTTOM DOLLAR”
                                                                The FTC Cracks Down on Con Artists Who
                                                                Target Jobless Americans
                                                                In February 2010, the FTC announced “Operation Bottom
                                                                Dollar,” a multi-agency crackdown on con artists preying on
                                                                unemployed Americans with job-placement and work-at-
                                                                home scams, promoting empty promises that they can help
                                                                people get jobs in the federal government, as movie extras,
                                                                or as mystery shoppers; or make money working from their
                                                                homes stuffing envelopes or assembling ornaments.

                        With the U.S. unemployment rate just under 10 percent, the FTC redoubled its efforts to put a stop
                        to these schemes, which make life even more difficult for hundreds of thousands of Americans
                        already wrestling with the economic downturn. As part of the law enforcement sweep, the FTC
                        filed seven cases against the operators of deceptive and illegal job and money-making scams and
                        announced developments in four previously filed job scam cases.

                        In addition, the sweep resulted in 43 criminal actions by the Department of Justice, many involving
                        the substantial assistance of the U.S. Postal Inspection Service, as well as one additional civil action
                        by the Postal Inspection Service and 18 actions by state attorneys general. For more information,
                        visit www.ftc.gov/opa/2010/02/bottomdollar.shtm.




    50                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
                                                  2012      Target      30
                                                                                TARGET EXCEEDED.
                                                   2011     Target      30      The	agency	will	continue	
PERFORMANCE                                                                     to	monitor	the	target	of	
                                                                                this	new	measure	and	will	
MEASURE 1.2.4                                               Target      30
                                                                                reassess	it	after	additional	
                                                  2010                          performance	cycles.
INVESTIGATIONS OR CASES IN WHICH                            Actual      39
                                                                                Data Source: Information
THE FTC OBTAINS FOREIGN-BASED                                                   on the international
                                                            Target      N/A
EVIDENCE OR ENGAGES IN MUTUAL                                                   activities of the FTC
                                                  2009
ASSISTANCE THAT CONTRIBUTES TO                                                  is produced by the
                                                            Actual      N/A




                                                                                                                Performance Section
                                                                                agency’s Office of
FTC LAW ENFORCEMENT ACTIONS                                                     International Affairs.
OR IN WHICH WE COOPERATE                                    Target      N/A

WITH FOREIGN AGENCIES AND/OR                      2008
                                                            Actual      N/A
MULTILATERAL ORGANIZATIONS.
                                                            Target      N/A
                                                  2007
                                                            Actual      N/A


                                                            Target      N/A
                                                  2006
                                                            Actual      N/A




                                                “OPERATION HEALTHCARE
                                                HUSTLE”
                                                The FTC and Partners Crack Down
                                                on Bogus “Medical Discount Plans”
                                                Peddled to the Uninsured, Uninsurable,
                                                and Unemployed
                                                Operators charged with scamming people who
                                                did not have health insurance—the uninsured,
                                                unemployed, and uninsurable—were targeted by a
   federal-state coalition of law enforcement agencies for fraudulently marketing “medical discount
   plans” as health insurance. The FTC and law enforcers in 24 states filed a total of 54 lawsuits and
   regulatory actions to stop the deceptive practices.

   “With so many Americans struggling to deal with the costs of health care, these medical
   discount benefit plans sound appealing because they masquerade as health insurance,”
   said David Vladeck, Director of the FTC’s Bureau of Consumer Protection. “But they are not
   insurance. They don’t offer the benefits of health insurance, and victims don’t know they’ve been
   ripped off until after they’ve tried to use the service and paid their bill.”

   The FTC filed three cases charging companies with deceptively marketing medical discount
   plans. For more information, visit www.ftc.gov/opa/2010/08/hustle1.shtm.



                                             FISCAL YEAR 2010                                                      51
                      OBJECTIVE 1.3: PREVENT CONSUMER INJURY                     to raise awareness of new or emerging marketplace
                      THROUGH EDUCATION.                                         issues that have the potential to cause harm. The agency
                                                                                 creatively uses new technologies and private and public
                      An educated consumer and business community is a
                                                                                 partnerships to reach new and under-served audiences,
                      first line of defense against fraud and deception.
                                                                                 particularly those who may not seek information
                                                                                 directly from the FTC. The FTC will continue to
                      Our Strategy
                                                                                 publicize its consumer complaint and identity theft
                      Consumer and business education serves as the first        website addresses and toll-free numbers in an ongoing
                      line of defense against fraud, deception, and unfair       effort to increase public awareness of its activities and
                      practices. Most of the FTC’s law enforcement initiatives   inform the public of the ways to contact the FTC to
Performance Section




                      include a consumer and/or business education               obtain information or file a complaint.
                      component aimed at preventing consumer injury and
                      unlawful business practices, and mitigating financial
                      losses. From time to time, the agency conducts pre-
                      emptive consumer and business education campaigns



                          DEBT COLLECTION CONSUMER RIGHTS
                                                                        If you are behind in paying your bills, you can expect to
                                                                        hear from a debt collector. A debt collector is someone,
                                                                        other than the creditor, who regularly collects debts
                                                                        owed to someone else. Lawyers who collect debts on a
                                                                        regular basis are considered debt collectors, too.

                                                                    What you need to know: You have rights. Federal law
                                                                    requires that collectors treat you fairly. In short, that
                                                                    means: A debt collector may contact you in person, by
                                                                    mail, telephone, telegram, or fax, but may not contact
                                                                    you at inconvenient times or places—for example,
                          before 8 a.m. or after 9 p.m.—unless you agree. A debt collector may not contact you at work if
                          the collector is aware that your employer prohibits it. If an attorney is representing you about the
                          debt, the debt collector must contact the attorney, rather than you. If you don’t have an attorney,
                          a collector may contact other people only to find out your address, your phone number, and
                          where you work. A debt collector may not harass, oppress, or abuse you or any third parties they
                          contact about you. A debt collector may not lie or mislead anyone when collecting a debt.

                          The FTC receives more complaints about the debt collection industry than any other specific
                          industry. (The FTC does not count any identity theft or Do Not Call Registry complaints that
                          may involve debt collection in determining the total number of debt collection complaints.) In its
                          lawsuits challenging illegal debt collection practices, the Commission has obtained tough relief
                          against collectors, including banning some of them from the business and requiring them to pay
                          millions of dollars in penalties. For more information, visit 	
                          www.ftc.gov/bcp/edu/microsites/moneymatters/dealing-with-debt-collection.shtml.




    52                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
Performance Results                                        are aimed at new trends and at particularly vulnerable
                                                           populations. The second measure ensures that the
Consumer and business education are crucial tools in       agency’s consumer education websites are effective
preventing and reducing consumer harm efficiently          and helpful for consumers. The third measure ensures
and effectively. The first performance measure ensures     that the FTC is publicizing its activities in the best
that the agency is engaging in a sufficient amount of      way possible and that the agency has a wide array of
educational activity and that the educational materials    partners to leverage resources.

PERFORMANCE MEASURE 1.3.1




                                                                                                                          Performance Section
CONSUMER PROTECTION MESSAGES ACCESSED ONLINE OR IN PRINT.
(NUMBERS SHOWN IN MILLIONS.)

   2012         Target           50.0
                                              TARGET NOT MET.
    2011        Target           50.0         In	FY	2010,	the	FTC	accomplished	roughly	88%	of	its	target	of	50	
                                              million	messages.	Of	the	more	than	43.9	million	consumer	protection	
                                              messages	accessed,	more	than	26.4	million	were	accessed	online	and	
                Target           50.0
                                              nearly	17.5	million	were	print	publications	distributed	by	the	FTC.
   2010
                Actual           43.9         While	the	number	of	print	publications	distributed	remained	
                                              relatively	static	over	the	last	decade,	as	more	consumers	and	
                                              businesses	went	online,	the	number	of	publications	accessed	through	
                Target           55.0         the	Internet	soared	before	leveling	off	within	the	past	few	years.	Also,	
  2009                                        the	results	underestimate	the	FTC’s	impact.	The	agency’s	partners	
                Actual           43.1         are	increasingly	opting	to	post	the	FTC’s	information	on	their	own	
                                              websites,	and	the	agency	has	also	increasingly	taken	advantage	of	
                                              the	outreach	potential	of	the	“blogosphere.”	The	FTC	is	unable	to	
                Target           50.0
                                              measure	the	number	of	its	consumer	protection	messages	accessed	
   2008                                       on	partner	websites	or	blogs.	
                Actual           49.2
                                              Data Source: The agency’s web statistics software (for messages
                Target           45.0         accessed online) and the FTC publication inventory (for
                                              messages accessed in print).
   2007
                Actual           47.0


                Target           25.0
  2006
                Actual           53.0




                                        HISPANIC OUTREACH
                                        The FTC targeted outreach to Spanish speakers began in 2002,
                                        and has led to partnerships with national and community
                                        groups, as well as countless media interviews. A quarterly
                                        bilingual newsletter is distributed to more than 1,500 local and
                                        national Hispanic organizations. www.ftc.gov/espanol mirrors
                                        www.ftc.gov, and signature websites like OnGuardOnline; Deter,
                                        Detect, Defend: Avoid Identity Theft; and Money Matters are
                                        also available in Spanish.



                                                   FISCAL YEAR 2010                                                          53
                           KEY MEASURE 1.3.2

                      CUSTOMER SATISFACTION RATE WITH AN FTC CONSUMER EDUCATION WEBSITE OR MICROSITE.


                                            Exceed average citizen satisfaction
                                             rate as published in the American    TARGET MET.
                         2012     Target
                                                Customer Satisfaction Index
                                             E-Government Satisfaction Index      In	FY	2010,	the	FTC	evaluated	OnGuardOnline.
                                                                                  gov,	a	joint	effort	of	the	federal	government	
                                                                                  and	the	technology	industry,	created,	
                                            Exceed average citizen satisfaction   maintained,	and	marketed	by	the	FTC	to	help	
Performance Section



                                             rate as published in the American    computer	users	guard	against	Internet	fraud,	
                         2011     Target
                                                Customer Satisfaction Index       secure	their	computers,	and	protect	their	
                                             E-Government Satisfaction Index      personal	information.	The	average	citizen	
                                                                                  satisfaction	score	for	participating	federal	
                                           Exceed average citizen satisfaction    government	websites	was	74,	and	the	score	for	
                                            rate as published in the American     OnGuardOnline.gov	was	77.
                                  Target
                                               Customer Satisfaction Index
                         2010               E-Government Satisfaction Index       Data Source: Reports from the U.S.
                                                                                  Department of the Interior’s Federal
                                  Actual                Exceeded                  Consulting Group, the executive agent for
                                                                                  the American Customer Satisfaction Index,
                                                                                  which is produced by the University of
                                  Target                   N/A                    Michigan in partnership with the American
                         2009                                                     Society for Quality, ForeSee Results and the
                                  Actual                   N/A                    CFI Group.

                                  Target                   N/A
                         2008
                                  Actual                   N/A


                                  Target                   N/A
                         2007
                                  Actual                   N/A


                                  Target                   N/A
                         2006
                                  Actual                   N/A




    54                             FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 1.3.3

ORGANIZATIONS REQUESTING CONSUMER EDUCATION PUBLICATIONS.


  2012          Target               11,600
                                                      TARGET EXCEEDED.
  2011          Target               11,300           In	FY	2010,	the	FTC	accomplished	almost	140%	of	
                                                      its	target	of	11,000	organizations.	While	the	target	
                                                      increases	over	the	next	four	years,	the	agency	will	
                Target              11,000
                                                      continue	to	monitor	performance	and	reassess	targets	
  2010




                                                                                                              Performance Section
                                                      as	needed.
                Actual              15,372
                                                      Data Source: The agency’s online order system
                Target               N/A              database.
  2009
                Actual               N/A


                Target               N/A
  2008
                Actual               N/A


                Target               N/A
  2007
                Actual               N/A


                Target               N/A
  2006
                Actual               N/A




                                              CHILDREN’S INTERNET
                                              SAFETY
                                             In October 2009, the FTC released Net Cetera, a new
                                             guide to help parents talk to their children about Internet
                                             safety. The guide, part of the federal government’s
                                             OnGuardOnline program, is designed to help parents
                                             address three areas related to their children’s online
                                             activities: inappropriate conduct, inappropriate contact,
  and inappropriate content. Since its publication, the guide has been accessed nearly 5.24
  million times online and in print. It has been distributed to consumers, school districts and other
  organizations, and a variety of organizations are featuring Net Cetera on their websites or helping
  promote it, including Sprint, Facebook, MySpace, Ning, the national Better Business Bureaus,
  Boys and Girls Clubs of America, and the National Association of Independent Schools. For more
  information, visit www.ftc.gov/bcp/edu/pubs/consumer/tech/tec04.pdf.




                                               FISCAL YEAR 2010                                                  55
                      OBJECTIVE 1.4: ENHANCE CONSUMER                           Performance Results
                      PROTECTION THROUGH RESEARCH,
                                                                                Public policy that enhances consumer protection
                      REPORTS, RULEMAKING, AND ADVOCACY.
                                                                                is based on a thorough understanding of complex
                      Research, reports, advocacy, rulemaking and advocacy      issues, which arises from dialogue, study, and empirical
                      complement law enforcement and education to enhance       research. Such policy also appreciates that stakeholders
                      the welfare of consumers.                                 other than government, such as industry associations or
                                                                                private standard-setting organizations, are at times better
                      Our Strategy                                              placed to address certain consumer protection issues.
                      The FTC uses a variety of strategies in addition to       The four performance measures that the agency uses
Performance Section




                      law enforcement and education to enhance consumer         to gauge success of this objective help ensure that the
                      protection. The agency convenes and co-sponsors           agency augments its enforcement and education efforts
                      conferences and workshops through which experts and       by encouraging discussions among all interested parties,
                      other experienced and knowledgeable parties identify      through careful study of and empirical research on novel
                      novel or challenging consumer protection issues           or challenging consumer protection problems, by urging
                      and discuss ways to address those issues. The FTC         adoption of policies and legal principles that promote
                      also issues reports that analyze consumer protection      consumers’ interest, and by conducting rulemaking
                      problems and provide recommendations to address           as appropriate. These activities help guide the FTC’s
                      them. Further, the FTC files comments with federal        consumer protection policy decisions, as well as those of
                      and state government bodies advocating policies that      other state, federal, and international policymakers.
                      promote the interests of consumers and highlight
                      the role of consumer and empirical research in their
                      decision making. The agency testifies before Congress
                      on consumer protection issues. The FTC also files
                      amicus briefs to aid courts’ considerations of consumer
                      protection issues.




                                                                         ADVERTISING LITERACY
                                                                        With American youth exposed to more advertising
                                                                        than ever before, the FTC kicked off a new advertising
                                                                        literacy campaign in April 2010 to help older children
                                                                        understand the ads they see and become smarter
                                                                        consumers. The campaign is targeted to “tweens,”
                                                                        aged eight to twelve, and includes a game-based
                                                                        website at www.admongo.gov, a curriculum tied to
                                                                        national standards of learning in language arts and
                                                                        social studies that teachers can use to “ad-ucate”
                          students, a library of fictional ads that be used as teaching tools, and activities for parents and
                          kids to do together. All these materials are free and in the public domain.




    56                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE                  2012        Target         6
MEASURE 1.4.1                                                TARGET EXCEEDED.
                             2011        Target         6    In	FY	2010,	the	FTC	exceeded	
WORKSHOPS AND                                                its	target	and	convened	or	
                                                             cosponsored	11	workshops	and	
CONFERENCES CONVENED OR                  Target         6
                                                             conferences	that	address	consumer	
COSPONSORED THAT ADDRESS     2010                            protection	problems.	Due	to	the	
                                         Actual        11    extent	by	which	the	FTC	exceeded	
CONSUMER PROTECTION                                          this	target	in	FY	2010	and	prior	
PROBLEMS.                                Target         6    years,	the	agency	reevaluated	the	
                                                             target	and	plans	to	update	the	
                             2009




                                                                                                      Performance Section
                                                             performance	plan,	significantly	
                                         Actual         9    increasing	the	target	for	FY	2011	
                                                             and	the	following	three	years.
                                         Target         6
                             2008                            Data Source: The FTC website
                                                             and agency, bureau, division, and
                                         Actual        16
                                                             regional office reports.

                                         Target         6
                             2007
                                         Actual        10


                                         Target        N/A
                             2006
                                         Actual        N/A




PERFORMANCE                  2012        Target         6
MEASURE 1.4.2                                                TARGET MET
                             2011        Target         6    In	FY	2010,	the	FTC	filed	
                                                             advocacy	comments	on	
ADVOCACY COMMENTS AND                                        consumer	protection	issues	
                                         Target         6
AMICUS BRIEFS ON CONSUMER                                    such	as	cyber	security,	privacy	
                             2010                            and	innovation	in	the	Internet	
PROTECTION ISSUES FILED                  Actual         6    economy,	the	empowerment	
WITH ENTITIES INCLUDING                                      of	parents	and	protection	of	
FEDERAL AND STATE                        Target        N/A   children	on	the	Internet,	reverse	
                                                             mortgage	products,	disclosure	for	
LEGISLATURES, AGENCIES, OR   2009                            communication	services,	and	the	
COURTS.                                  Actual        N/A   Medicare	Advantage	and	Medicare	
                                                             prescription	drug	benefit	programs.	
                                         Target        N/A   The	agency	will	continue	to	monitor	
                                                             the	target	of	this	new	measure	
                             2008
                                                             and	will	reassess	it	after	additional	
                                         Actual        N/A
                                                             performance	cycles.

                                         Target        N/A   Data Source: Internal matter
                             2007                            records of advocacy comments
                                         Actual        N/A   and amicus briefs filed.


                                         Target        N/A
                             2006
                                         Actual        N/A




                                    FISCAL YEAR 2010                                                     57
                      PERFORMANCE                         2012      Target     50.0%
                      MEASURE 1.4.3                                                      TARGET EXCEEDED.
                                                          2011      Target     50.0%    The	FTC	mails	advocacy	recipients	
                      THE PERCENTAGE OF                                                 a	survey	designed	to	gauge	the	
                                                                                        usefulness	of	agency	advocacy	
                      RESPONDENTS FINDING THE                       Target     50.0%
                                                                                        comments	and	amicus	briefs.	
                      FTC’S ADVOCACY COMMENTS            2010                           “Usefulness”	is	assessed	by	the	
                                                                    Actual    100.0%    recipient.	The	target	percentage	
                      AND AMICUS BRIEFS “USEFUL.”                                       recognizes	that	comments	
                                                                    Target      N/A     critiquing	a	recipient’s	proposed	
                                                                                        action	may	not	be	assessed	
                                                         2009
Performance Section



                                                                                        positively.	In	FY	2010,	2	of	2	
                                                                    Actual      N/A     survey	responses	classified	the	
                                                                                        FTC’s	submissions	as	useful.	The	
                                                                    Target      N/A     agency	will	continue	to	monitor	
                                                                                        the	target	of	this	new	measure	
                                                         2008
                                                                                        and	will	reassess	it	after	additional	
                                                                    Actual      N/A
                                                                                        performance	cycles.

                                                                    Target      N/A     Data Source: A formal written
                                                         2007                           survey distributed to advocacy
                                                                    Actual      N/A     recipients.


                                                                    Target      N/A
                                                         2006
                                                                    Actual      N/A




                                                          2012      Target     75.0%
                      KEY MEASURE 1.4.4                                                  TARGET EXCEEDED.
                                                          2011      Target     75.0%    Of	the	three	rulemakings	
                                                                                        completed	in	FY	2010,	all	were	
                      THE PERCENTAGE OF                                                 completed	within	nine	months	
                                                                    Target     75.0%
                      PROPOSED ADMINISTRATIVE                                           of	receipt	of	final	comments	in	
                                                         2010                           the	Final	Notice	of	Proposed	
                      PROCEDURE ACT (APA)                           Actual    100.0%    Rulemaking.	Rulemakings	are	
                      RULEMAKINGS, CONDUCTED                                            considered	completed	on	the	
                      SOLELY BY THE FTC,                            Target      N/A     dates	the	Commission	votes	on	
                                                                                        the	rules.	The	agency	will	continue	
                      COMPLETED WITHIN NINE              2009                           to	monitor	the	target	of	this	new	
                                                                    Actual      N/A
                      MONTHS OF RECEIPT OF                                              measure	and	will	reassess	it	after	
                                                                                        additional	performance	cycles.
                      FINAL COMMENTS IN THE
                                                                    Target      N/A
                      FINAL NOTICE OF PROPOSED           2008                           Data Source: The Federal
                      RULEMAKING.                                                       Register and the FTC website.
                                                                    Actual      N/A


                                                                    Target      N/A
                                                         2007
                                                                    Actual      N/A


                                                                    Target      N/A
                                                         2006
                                                                    Actual      N/A




    58                             FEDERAL TRADE COMMISSION | Performance and Accountability Report
OBJECTIVE 1.5: PROTECT AMERICAN
CONSUMERS IN THE GLOBAL MARKETPLACE                          maximizing economic benefit and consumer choice.
BY PROVIDING SOUND POLICY AND                                The agency also focuses on understanding cutting-edge
TECHNICAL INPUT TO FOREIGN
                                                             issues in technology and globalization that present
                                                             challenges to American consumer interests. The agency
GOVERNMENTS AND INTERNATIONAL
                                                             influences policy development and implementation by
ORGANIZATIONS TO PROMOTE SOUND
                                                             advising multilateral organizations, regional entities,
CONSUMER POLICY.
                                                             and foreign government agencies through substantive
A myriad of issues—spam, phishing, spyware,                  consultations and written comments. And finally, the
telemarketing fraud, identity theft, data security,          FTC provides technical assistance to newer consumer




                                                                                                                          Performance Section
and privacy—cross national borders. The resulting            protection agencies to enhance their ability to apply
challenges require the FTC to cooperate with                 sound consumer protection policies.
counterparts in foreign agencies and international
organizations.                                               Performance Results
Our Strategy                                                 The FTC uses two measures to assess the performance
                                                             of this objective. Key Measure 1.5.1 and Performance
To achieve this objective, the FTC pursues the               Measure 1.5.2 address the scope of agency contact with
development of an international consumer protection          international counterparts and help determine if agency
model that focuses on protecting consumers while             efforts are sufficiently broad-based.




                                              2012         Target        40
KEY MEASURE 1.5.1                                                                TARGET EXCEEDED.
                                              2011         Target        40      In	FY	2010,	the	FTC	provided	
                                                                                 policy	advice	in	64	instances,	
POLICY ADVICE PROVIDED                                                           through	consultations,	written	
                                                          Target         40
TO FOREIGN CONSUMER                                                              submissions,	or	comments.	
                                             2010                                Enhanced	engagement	with	new	
PROTECTION AND PRIVACY                                    Actual         64      and	developing	foreign	consumer	
AGENCIES, DIRECTLY AND                                                           protection	and	privacy	agencies,	as	
THROUGH INTERNATIONAL                                     Target       N/A       well	as	participation	in	additional	
                                                                                 international	organizations	that	
ORGANIZATIONS, THROUGH                       2009                                are	now	working	on	consumer	
                                                          Actual       N/A
SUBSTANTIVE CONSULTATIONS,                                                       protection	and	privacy	issues,	has	
                                                                                 resulted	in	an	increased	demand	
WRITTEN SUBMISSIONS, OR                                                          for	the	FTC’s	policy	advice.	The	
                                                          Target       N/A
COMMENTS.                                    2008                                agency	will	continue	to	monitor	
                                                                                 the	target	of	this	new	measure	
                                                          Actual       N/A
                                                                                 and	will	reassess	it	after	additional	
                                                                                 performance	cycles.
                                                          Target       N/A
                                             2007                                Data Source: Information on the
                                                          Actual       N/A       international activities of the
                                                                                 FTC is produced by the agency’s
                                                                                 Office of International Affairs.
                                                          Target       N/A
                                             2006
                                                          Actual       N/A




                                                      FISCAL YEAR 2010                                                       59
                      PERFORMANCE                                 2012     Target       8
                      MEASURE 1.5.2                                                                TARGET EXCEEDED.
                                                                  2011     Target       8          In	FY	2010,	the	FTC	conducted	
                      TECHNICAL ASSISTANCE                                                         21	technical	assistance	missions	
                                                                                                   and	hosted	2	international	fellows.	
                      TO FOREIGN CONSUMER                                 Target        8
                                                                                                   The	FTC	received	funding	from	
                      PROTECTION AND PRIVACY
                                                                  2010                             the	U.S.	Agency	for	International	
                                                                          Actual        23         Development	to	conduct	consumer	
                      AUTHORITIES.                                                                 protection	technical	assistance	
Performance Section




                                                                          Target       N/A         missions	in	Central	America,	the	
                                                                                                   Dominican	Republic,	Peru,	and	
                                                                  2009                             Colombia.	Fifteen	of	the	technical	
                                                                          Actual       N/A         assistance	missions	and	one	
                                                                                                   international	fellow	were	funded	by	
                                                                          Target       N/A         the	U.S.	Agency	for	International	
                                                                                                   Development.	The	agency	will	
                                                                  2008
                                                                                                   continue	to	monitor	the	target	of	
                                                                          Actual       N/A
                                                                                                   this	new	measure	and	will	reassess	
                                                                                                   it	after	additional	performance	
                                                                          Target       N/A         cycles.
                                                                  2007
                                                                          Actual       N/A         Data Source: Office of
                                                                                                   International Affairs technical
                                                                                                   assistance calendar.
                                                                          Target       N/A
                                                                  2006
                                                                          Actual       N/A




                      RESOURCES UTILIZED—STRATEGIC GOAL 1
                      (DOLLARS SHOWN IN MILLIONS.)

                                                          2006            2007           2008               2009             2010

                       Full-Time	Equivalents               548             570               591            		597             621


                       Obligations                         $116           $126              $140             $152            $168


                       Net	Cost                            $98            $105              $124             $131            $144


                      Note: Differences between these obligations and net costs and the financial statements are due to rounding.




    60                                  FEDERAL TRADE COMMISSION | Performance and Accountability Report
STRATEGIC                                                 OBJECTIVE 2.1: TAKE ACTION AGAINST
                                                          ANTICOMPETITIVE MERGERS AND

GOAL 2: MAINTAIN                                          PRACTICES THAT MAY CAUSE SIGNIFICANT
                                                          CONSUMER INJURY.
COMPETITION                                               The FTC takes action against mergers and business
Prevent anticompetitive mergers and other                 practices that have resulted in or are likely to result in
anticompetitive business practices in the marketplace.    anticompetitive effects. Agency staff conducts thorough
                                                          factual investigations and apply legal and economic
I. Strategic View                                         analysis to distinguish between actions that threaten the




                                                                                                                       Performance Section
                                                          operation of free markets and those actions that are
A key function of the FTC is to protect and strengthen    benign or procompetitive.
the free and open markets that are the cornerstone of a
                                                          OBJECTIVE 2.2: PREVENT CONSUMER INJURY
vibrant economy. Aggressive competition among sellers
in an open marketplace gives consumers the benefit        THROUGH EDUCATION.
of lower prices, higher quality products and services,    The FTC seeks to prevent anticompetitive activity by
maximum choice, and innovation leading to beneficial      educating businesses and consumers about the antitrust
new products and services. The FTC seeks to promote       laws and the FTC’s efforts to ensure competitive
vigorous competition by using the antitrust laws to       markets.
prevent anticompetitive mergers and to stop business
                                                          OBJECTIVE 2.3: ENHANCE CONSUMER
practices that diminish competition, such as agreements
                                                          BENEFIT THROUGH RESEARCH, REPORTS,
among competitors about prices or other aspects of
                                                          AND ADVOCACY.
competition (referred to as nonmerger enforcement).
The agency applies four related objectives to achieve     The FTC seeks to advance its mission to maintain
this broad-reaching goal.                                 competition and enhance consumer welfare by
                                                          gathering, analyzing, and making public certain
                                                          information concerning the nature of competition as it
                                                          affects U.S. commerce.




                                            WHAT IS ANTITRUST?
                                            The word “antitrust” dates from the late 1800s, when
                                            powerful companies dominated industries, working
                                            together as “trusts” to stifle competition. Thus, laws aimed
                                            at protecting competition have long been labeled “antitrust
                                            laws.” Fast forward to the 21st century: You hear “antitrust”
                                            in news stories about competitors merging or companies
                                            conspiring to reduce competition. The FTC enforces antitrust
                                            laws by challenging business practices that could hurt
                                            consumers by resulting in higher prices, lower quality, or
                                            fewer goods or services.




                                                   FISCAL YEAR 2010                                                       61
                      OBJECTIVE 2.4: PROTECT AMERICAN
                      CONSUMERS IN THE GLOBAL MARKETPLACE
                                                                              Our Strategy
                      BY PROVIDING SOUND POLICY                               The FTC seeks to identify and take action against
                      RECOMMENDATIONS AND TECHNICAL                           anticompetitive mergers and practices with as much
                      ADVICE TO FOREIGN GOVERNMENTS AND                       accuracy as possible. While certain business conduct
                      INTERNATIONAL ORGANIZATIONS TO                          (such as price fixing among competitors) is clearly
                      PROMOTE SOUND COMPETITION POLICY.                       anticompetitive, mergers and many other forms of
                                                                              business conduct can benefit, harm, or have no effect
                      The FTC continues to build cooperative relationships
                                                                              on consumers. Consequently, both under- and over-
                      with foreign antitrust agencies to ensure close
                                                                              enforcement can harm consumers’ interests. The agency
Performance Section




                      collaboration on cross-border cases and convergence
                                                                              seeks to take enforcement action against transactions or
                      toward sound competition policies.
                                                                              conduct that harm, or are likely to harm, consumers. At
                                                                              the same time, the agency seeks to avoid taking actions
                      II. Strategic Analysis
                                                                              that prevent businesses from completing transactions
                                                                              or engaging in practices that fundamentally benefit
                      OBJECTIVE 2.1: TAKE ACTION AGAINST
                                                                              consumers or have no competitive effect. The FTC also
                      ANTICOMPETITIVE MERGERS AND
                                                                              tries to identify enforcement targets as efficiently as
                      PRACTICES THAT MAY CAUSE SIGNIFICANT
                                                                              possible so that it can devote the bulk of its resources
                      CONSUMER INJURY.                                        to further investigation of, and possible challenge to,
                      Taking action against anticompetitive mergers and       the most problematic mergers and practices. A related,
                      anticompetitive business conduct is the first step in   but important, consideration is to conduct each inquiry
                      effective antitrust enforcement.                        in a way that minimizes the cost or inconvenience to



                                                                    THE FTC CHALLENGES TEETH-
                                                                    WHITENING CONSPIRACY
                                                                    (Part 3 Complaint in 0810137 / D09343 North
                                                                    Carolina Dental Board)

                                                             The FTC issued an administrative complaint in July of 2010
                                                             alleging that the state dental board in North Carolina is
                                                             harming competition by blocking non-dentists from providing
                                                             teeth-whitening services in the state. The FTC charged that
                                                             by ordering non-dentists to stop providing teeth-whitening
                                                             services, the North Carolina Board of Dental Examiners, has
                                                             made it harder to obtain these services and more expensive
                                                             for North Carolina consumers. According to the FTC, teeth-
                                                             whitening services are much less expensive when performed
                                                             by non-dentists than when performed by dentists. A non-
                          dentist typically charges between $100 and $150 per whitening session, while a dentist typically
                          charges between $300 and $700, with some dental procedures costing as much as $1,000. An
                          administrative hearing on the complaint will begin in February 2011 at the FTC. To learn more, visit
                          www.ftc.gov/os/adjpro/d9343/index.shtm.




    62                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
businesses, while still enabling the agency to gather       to determine whether it poses a threat to competition.
sufficient information to support each enforcement          In most cases, a reasonable judgment can be made
decision. Given the agency’s limited resources, the         about whether the merger has the potential to be
FTC directs much of its attention and resources to          anticompetitive based on the materials filed with the
certain segments of the economy that are particularly       HSR Act notification. In other cases, a formal request
important to consumers and in which it has particular       for additional information may be issued by the FTC.
expertise. These include health care, pharmaceuticals,      This is referred to as a “second request.” Because the
energy, real estate, and technology.                        parties may consummate a transaction after substantially
                                                            complying with the second request and waiting for a




                                                                                                                        Performance Section
                                                            short time period (usually 30 days), a second request
MERGER ACTIVITIES.
                                                            investigation typically requires a significant investment
The premerger notification requirements of the              of resources by the FTC. The agency must act quickly
Hart-Scott-Rodino (HSR) Act provide the FTC with            to gather and review information to make a decision on
an effective starting point for identifying potentially     whether to pursue enforcement action to block a merger
anticompetitive mergers, acquisitions, and joint ventures   within the timeframe set out by the HSR Act and rules.
(collectively referred to as mergers) before they are
consummated. The HSR Act requires companies                 To stop potentially anticompetitive mergers and
to report certain proposed mergers to the FTC and           practices through law enforcement, the FTC seeks
DOJ, which jointly enforce the HSR Act, and wait            legal remedies under the antitrust laws through federal
for a specified period (usually 30 days) to allow for       court action, administrative proceedings, or negotiated
antitrust review. FTC staff examines each transaction       settlements. For mergers, the most effective and cost




                                             COMPANY SHUFFLES BOARD
                                             OF DIRECTORS DUE TO THE
                                             FTC’S CHALLENGE
                                         The FTC monitors business relationships between
                                         competing firms. As a part of its focus on protecting
                                         competition in technology markets, the agency became
                                         aware of two instances in which the same person served
                                         as a director or officer of two technology companies’
                                         boards. Section 8 of the Clayton Act prohibits, with certain
                                         exceptions, such overlaps for competing companies. After
                                         an FTC investigation raised concerns about two individuals
                                         serving on the boards of both Apple and Google, these
                                         individuals stepped down from the boards of one of the
                                         companies in order to resolve the FTC’s concerns without
                                         the need for litigation. On October 12, 2009, Google
    announced that Arthur D. Levinson, the former Chief Executive Officer of Genentech and a
    member of the corporate boards of both Google and Apple, was stepping down from Google’s
    board. Earlier in the year, Apple announced that Eric E. Schmidt, CEO of Google, who had also
    been a director of both firms, was stepping down from the Apple board. To learn more, visit
    www.ftc.gov/opa/2009/10/google.shtm.



                                                   FISCAL YEAR 2010                                                        63
                      efficient strategy has been to prevent anticompetitive       of legality for mergers. Whereas the vast majority
                      mergers before they occur. The agency has implemented        of potentially problematic mergers continue to be
                      this strategy primarily through its authority to seek        subject to the revised HSR filing requirements, smaller
                      federal court injunctions preventing these transactions.     merger transactions may still be anticompetitive.
                      In many cases, the merging parties elect not to              Consequently, the FTC continues to devote attention to
                      defend a court challenge and instead agree to resolve        the identification of unreported, usually consummated,
                      competitive concerns through a consent agreement.            mergers that could harm consumers. In FY 2010 the
                      This approach is suitable when the competitive problem       agency successfully challenged four such transactions.
                      relates to only a portion of the transaction, such that      This effort involves monitoring trade press, industry
                      a divestiture of assets will be sufficient to preserve or    sources, and the internet to stay informed of industry
Performance Section




                      restore competition while allowing other competitively       developments; following up on case leads from
                      neutral or beneficial aspects of the merger to go            congressional offices, other Executive Branch agencies,
                      forward. In other instances, the parties may abandon         and state and local governments; and encouraging
                      a transaction after assessing the likely outcome of          consumers, businesses, and attorneys to notify the FTC
                      an FTC court challenge. When a merger already                of possible anticompetitive mergers.
                      has been consummated, the FTC generally relies on
                      administrative litigation to restore competition lost as a   NONMERGER ACTIVITIES.
                      result of the merger.
                                                                                   In the nonmerger area, agency staff reviews complaints
                      While the major HSR Act amendments in 2001                   received from consumers, businesses, congressional
                      reduced the number of mergers subject to the advance         offices, and elsewhere to identify potentially
                      reporting requirement, they did not change the standard      anticompetitive nonmerger business practices. In
                                                                                   addition, the FTC has pursued a “positive agenda”




                                                                                   THE FTC PREVENTS
                                                                                   MLS OPERATORS
                                                                                   FROM RESTRAINING
                                                                                   COMPETITION

                                                                              In November of 2009, the Commission ruled
                                                                              that certain policies of a Multiple Listing
                                                                              Service unfairly kept non-traditional and
                                                                              discount brokers off publicly available websites
                          listing homes for sale. The FTC found that Realcomp II, a Detroit-area Multiple Listing Service
                          whose members are predominately traditional, full-service realtors, restricted consumers’ access
                          to information about homes listed by non-traditional discount brokers—ones who offered lower
                          commission rates or less than a full range of professional real estate services. The FTC found that
                          Realcomp’s policies impeded competition from discount brokers and restricted consumer choice.
                          The Commission’s ruling has been appealed to the Court of Appeals for the Sixth Circuit. To learn
                          more, visit www.ftc.gov/os/adjpro/d9320/index.shtm.




    64                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
of planned initiatives; that is, the agency has taken a        This is not to say that the FTC, or any law enforcement
systematic and proactive approach to identify specific         agency, should win every case. The Commission issues
conduct likely to pose the greatest threat to consumer         complaints when, based on the findings of staff
welfare. The focus continues to be on the types of             investigations, it has “reason to believe” a merger or
practices, such as agreements among competitors, which         conduct is anticompetitive. Some cases involve very
are most likely to harm consumers.                             close issues, on which reasonable minds can and
                                                               do differ. Other cases may be very difficult from a
In deploying its scarce enforcement resources, the             litigation standpoint, but are still worth pursuing. The
agency focuses on sectors of the economy, such as              FTC’s antitrust challenges are defended by highly
health care, energy, real estate, or high technology, that     competent and well-financed counsel. In addition, the




                                                                                                                              Performance Section
have a significant impact on consumers’ daily lives. Also,     FTC’s responsibilities include taking action to help
the agency considers the deterrent effects of antitrust        shape the development of the antitrust laws. To fulfill
enforcement on businesses and whether the FTC has              this duty, the agency inevitably must bring cases that
enforcement experience in an area that will enable the         pose litigation risks, especially where there is no clear
agency to make an impact quickly and efficiently. Finally,     precedent and the FTC is seeking to establish a new
consideration is given to whether the matter presents an       legal principle. The FTC also helps consumers and
opportunity to contribute positively to the development        businesses by bringing cases to clarify, or improve upon,
of antitrust law.                                              existing precedent.

In nonmerger matters, the FTC seeks to take action
against ongoing activity that harms competition. The           Performance Results
Commission may initiate administrative proceedings
                                                               The key performance measure under this objective
before an Administrative Law Judge to adjudicate the
                                                               relates to actions taken in a significant percentage of
issues and establish a basis for an order that the parties
                                                               substantial merger and nonmerger investigations. This
“cease and desist” from anticompetitive conduct. The
                                                               translates into obtaining a positive result (i.e., litigated
FTC also has the authority to seek relief in federal courts,
                                                               victories, consent orders, or abandoned transactions)
although it historically has used this option sparingly
                                                               in 40 to 60 percent of investigations that involved a
in nonmerger matters. Again, the agency is often able
                                                               second request or compulsory process, in the case of
to negotiate a consent agreement with the parties that
                                                               merger investigations, or which involved at least 150
remedies the problem without need for litigation.
                                                               hours of investigative effort, in the case of nonmerger
                                                               investigations.
In both merger and nonmerger matters, thorough
investigation and sophisticated legal and economic
                                                               Success on this key outcome measure indicates that
analysis are of critical importance to ensure accurate
                                                               the FTC is effectively screening HSR reported mergers
assessment of the potential for competitive harm
                                                               and nonmerger investigations to identify those that
resulting from the transaction or conduct in question
                                                               raise significant antitrust issues and warrant further
and, if necessary, demonstrate the likelihood of harm
                                                               investigation and possible enforcement action, while
before an adjudicative body. When the FTC concludes
                                                               at the same time permitting deals or conduct that
that the likelihood of such harm indicates a law
                                                               are neutral or beneficial to consumers to proceed
violation, and no settlement is possible, the Commission
                                                               unimpeded. This measure evaluates appropriate
authorizes its staff to litigate the matter. The frequency
                                                               investigation, case selection, and resolution, as well as
with which the agency prevails in litigation or secures
                                                               the crafting of sufficient and effective remedies.
a consent order to restore competition is an important
indicator of its success in producing tangible benefits
for consumers.




                                                      FISCAL YEAR 2010                                                           65
                      The target range of 40 to 60 percent set for key             For both merger and nonmerger actions, the FTC
                      Performance Measure 2.1.1 reflects the reality that          measures the volume of commerce and estimates
                      the FTC conducts substantial merger and nonmerger            consumer savings in markets in which it obtains a
                      investigations when it believes that a merger or             positive result as an indicator of the scope of the FTC’s
                      conduct may be anticompetitive, but that not all such        antitrust enforcement activities. External factors, such
                      investigations should lead to an enforcement action or a     as level of merger activity, and internal ones, such as
                      positive result. Indeed, the existence of a minimum and      the duration of nonmerger investigations, may cause
                      maximum value recognizes the possibility that the FTC        these results to fluctuate significantly from year to year.
                      may find itself under- or over-enforcing the competition     Consequently, the two volume-of-commerce targets
Performance Section




                      laws, while the magnitude of the spread between these        (Performance Measures 2.1.3 and 2.1.6) and the two
                      two values serves to identify a band within which the        consumer savings targets (Performance Measures 2.1.2
                      agency’s performance can be reasonably expected to           and 2.1.5) are assessed each year by calculating the
                      vary. From this perspective, setting the range at too        average of current year plus the previous four years.
                      high a level could be detrimental if the effect were to      In addition to measuring consumer savings in absolute
                      deter the agency from bringing important, but risky,         terms, the agency uses efficiency measures that state
                      cases, while setting the range at too low a level could be   the FTC will try to save consumers more than the
                      detrimental as well, if the effect were to incentivize the   amount of agency resources allocated to the merger
                      agency to bring marginal cases.                              and nonmerger programs (Performance Measures 2.1.4
                                                                                   and 2.1.7).
                      Of the remaining measures under this objective, six
                      relate directly to Performance Measure 2.1.1 in that         The final measure under this objective addresses
                      they measure the impact of the agency’s actions, in          the international dimension of the agency’s law
                      terms of the magnitude of the affected markets and the       enforcement efforts by tracking the percentage of cases
                      associated consumer benefits, as well as the efficiency      in which the FTC had at least one substantive contact
                      with which these same actions were undertaken.               with a foreign antitrust authority in which the agencies
                      Whereas the consumer savings measures are designed           followed consistent analytical approaches and reached
                      to assess the ultimate outcome, or impact, of the            compatible outcomes.
                      FTC’s actions in protecting consumers and promoting
                      vigorous competition, by quantifying the impact of the
                      FTC’s enforcement actions on consumer welfare, the
                      volume of commerce measures are intended to give an
                      indication of the economic significance of the relevant
                      product markets.




    66                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
     KEY MEASURE 2.1.1

ACTIONS TO MAINTAIN COMPETITION, INCLUDING LITIGATED VICTORIES, CONSENT ORDERS,
ABANDONED TRANSACTION REMEDIES, RESTRUCTURED TRANSACTION REMEDIES, OR FIX-IT-
FIRST TRANSACTION REMEDIES IN A SIGNIFICANT PERCENTAGE OF SUBSTANTIAL MERGER AND
NONMERGER INVESTIGATIONS.



  2012    Target   40.0–60.0%




                                                                                                            Performance Section
                                TARGET NOT MET.
                                The	agency	took	action	to	maintain	competition	in	22	of	the	57	
                                substantial	merger	and	nonmerger	investigations	that	were	closed	
  2011    Target   40.0–60.0%
                                in	FY	2010.	These	22	actions	consist	of	17	consents,	three	merger	
                                transactions	that	were	withdrawn	as	a	consequence	of	the	antitrust	
                                concerns	raised	during	the	investigation,	and	two	additional	consents	
                                that	were	successfully	negotiated	after	the	Commission	issued	an	
          Target   40.0–60.0%   administrative	complaint.	This	corresponds	to	16	merger	matters	and	
                                six	nonmerger	matters.	Of	the	35	substantial	investigations	that	were	
  2010                          closed	without	an	action,	22	involved	a	nonmerger	matter	and	13	a	
                                merger	matter.
          Actual     39.0%
                                Though	the	agency	did	not	meet	the	target	in	FY	2010,	it	should	be	
                                noted	that	the	result	obtained	was	within	one	percentage	point	of	the	
                                target	and	that,	in	addition	to	the	actions	listed	above,	the	Commission	
          Target      N/A
                                also	obtained	a	consent	in	five	merger	investigations	that	are	excluded	
  2009                          from	this	measure	since	they	did	not	involve	the	use	of	compulsory	
          Actual      N/A       process.
                                Furthermore,	during	FY	2010,	the	Commission	issued	an	administrative	
          Target      N/A       complaint	to	challenge	allegedly	harmful	conduct	by	a	state	
  2008                          dental	board.	However,	since	this	matter	is	still	pending	before	the	
          Actual      N/A       Administrative	Law	Judge	and	has	not	reached	a	resolution	it	is	
                                excluded	from	this	measure,	even	though	it	represents	a	significant	
                                investment	of	agency	resources.	
          Target      N/A
  2007                          Data Source: Information to identify “actions to maintain
          Actual      N/A       competition” is obtained from press releases, various agency and
                                Bureau databases, and internal communications. Press releases
                                are the source of information for public actions, such as consent
                                orders and the results of judicial review, while internal databases
          Target      N/A       are used to identify those matters that were closed without an
                                action being taken and to determine if an investigation meets
                                the substantiality criteria (i.e., if a second request was issued
  2006                          or whether compulsory process was authorized for merger
                                investigations, and the number of hours that staff logged to a
                                particular investigation for nonmerger investigations).
          Actual      N/A




                                      FISCAL YEAR 2010                                                         67
                      PERFORMANCE MEASURE 2.1.2

                      CONSUMER SAVINGS OF AT LEAST $500 MILLION THROUGH MERGER ACTIONS TO MAINTAIN
                      COMPETITION. (NUMBERS SHOWN IN MILLIONS.)

                          2012        Target          $500.0
                                                                   TARGET EXCEEDED.
                          2011        Target          $500.0       In	FY	2010,	the	FTC	exceeded	the	target,	saving	consumers	
                                                                   an	estimated	$586	million,	as	calculated	using	the	average	
                                                                   consumer	savings	for	the	current	fiscal	year	and	the	
                                      Target          $500.0
Performance Section



                                                                   previous	three	years.	This	result	is	in	large	part	determined	
                         2010                                      by	the	presence	of	several	enforcement	actions	over	the	
                                      Actual          $586.0       last	three	years	in	the	pharmaceutical	industry,	which	
                                                                   involved	significantly	sized	relevant	product	markets.	
                                      Target          $500.0       The	FTC	will	continue	to	monitor	and	reassess	the	target	
                                                                   moving	forward.	
                         2009
                                      Actual          $791.0       Data Source: Estimates of consumer savings associated
                                                                   with merger actions are prepared by the lead attorney
                                      Target          $500.0       responsible for an individual investigation, and
                         2008                                      subsequently subject to review by staff economists. In
                                      Actual          $360.0       the absence of case specific information (such as price
                                                                   and sales data), the estimate is generated using the
                                                                   volume of commerce in the affected markets as a basis
                                      Target          $500.0       for the calculation.
                         2007
                                      Actual          $805.0


                                      Target           N/A
                         2006
                                      Actual           N/A




    68                             FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 2.1.3

ACTIONS AGAINST MERGERS LIKELY TO HARM COMPETITION IN MARKETS WITH A TOTAL OF AT
LEAST $25 BILLION IN SALES. (NUMBERS SHOWN IN BILLIONS.)

  2012    Target     $25.0
                              TARGET NOT MET.
                              The	FTC’s	positive	merger	results	affected	markets	in	which	the	total	
                              estimated	volume	of	commerce	was	approximately	$22.5	billion,	or	
  2011    Target     $25.0
                              90%	of	the	annual	target,	as	calculated	using	the	average	of	the	current	




                                                                                                            Performance Section
                              fiscal	volume	of	commerce	year	and	the	previous	four	years.	During	FY	
                              2010,	the	FTC	obtained	positive	results	in	16	merger	matters,	resulting	
                              in	13	consent	agreements,	one	of	which	was	negotiated	after	the	
          Target    $25.0     Commission	issued	an	administrative	complaint,	and	three	transactions	
                              that	were	abandoned	based	on	the	antitrust	concerns	raised	by	
  2010                        staff	during	the	course	of	the	investigation.	In	the	case	of	consent	
                              agreements,	the	actions	taken	by	the	FTC	consist	primarily	of	structural	
          Actual     $22.5    remedies,	accompanied	in	some	cases	by	conditions	restricting	the	
                              future	conduct	of	the	merged	entity.	In	all	13	consent	agreements	
                              stipulated	in	FY	2010,	the	parties	agreed	to	divest	certain	crucial	assets	
          Target    $25.0     to	resolve	the	competitive	concerns	raised	by	the	Commission.
  2009                        Although	the	agency	did	not	meet	the	target	in	FY	2010,	as	in	the	case	
          Actual     $22.3    of	Performance	Measure	2.1.1,	it	should	be	noted	that	there	were	five	
                              additional	merger	investigations,	which	were	resolved	with	a	consent,	
          Target    $25.0     but	are	excluded	from	this	measure	because	they	did	not	involve	the	
                              use	of	compulsory	process.
  2008
          Actual     $14.9    Data Source: Estimates of the volume of commerce associated
                              with merger actions are prepared by the lead attorney responsible
          Target    $25.0     for an individual investigation, and subsequently subject to review
  2007                        by staff economists. The estimate is generated using the volume
                              of commerce for the affected markets using public sources and
          Actual    $42.6
                              confidential data submitted by the parties during the course of the
                              investigations.


          Target    $40.0


  2006

          Actual     $13.4




                                     FISCAL YEAR 2010                                                          69
                      PERFORMANCE                 2012     Target    600.0%
                      MEASURE 2.1.4                                              TARGET EXCEEDED.
                                                  2011     Target    600.0%     During FY 2010, the agency saved
                      CONSUMER SAVINGS                                          consumers approximately 16 times the
                                                                                amount of resources devoted to the
                      OF AT LEAST SIX TIMES                Target    600.0%
                                                                                merger program, as calculated using the
                      THE AMOUNT OF FTC          2010                           average consumer savings obtained under
                                                           Actual    1,670.0%   Performance Measure 2.1.2 ($586 million)
                      RESOURCES ALLOCATED                                       divided into the amount of resources used in
                      TO MERGER PROGRAM.                   Target    600.0%     the current fiscal year. This result is in large
                                                                                part determined by the presence of several
                      (EFFICIENCY MEASURE)       2009                           enforcement actions over the last three
Performance Section



                                                           Actual    2,132.0%   years in the pharmaceutical industry, which
                                                                                involved significantly sized relevant product
                                                           Target    600.0%     markets. The FTC will continue to monitor
                                                                                and reassess the target moving forward.
                                                 2008
                                                           Actual    1,121.0%
                                                                                Data Source: The ratio of consumer
                                                                                savings in merger actions to the amount
                                                           Target    600.0%     of resources allocated to the merger
                                                 2007                           program is calculated using data on
                                                           Actual   2,500.0%    consumer savings obtained under
                                                                                Performance Measure 2.1.2, divided
                                                                                into the amount of monetary resources
                                                           Target      N/A
                                                                                expended on the merger program
                                                 2006                           as reported by the FTC’s Financial
                                                           Actual               Management Office.



                      PERFORMANCE                 2012     Target     $80.0
                      MEASURE 2.1.5                                              TARGET EXCEEDED.
                                                  2011     Target     $80.0     In	FY	2010,	the	FTC	obtained	estimated	
                      CONSUMER SAVINGS OF                                       savings	to	consumers	of	approximately	
                                                                                $508	million,	as	calculated	using	the	average	
                      AT LEAST $80 MILLION                 Target     $80.0
                                                                                consumer	savings	of	the	current	fiscal	year	
                                                 2010                           and	the	previous	three	years.
                      THROUGH NONMERGER
                                                           Actual    $508.0
                      ACTIONS TAKEN TO                                          The	reason	that	the	agency	has	exceeded	
                                                                                the	target	by	such	a	margin	is	in	large	part	
                      MAINTAIN COMPETITION.                Target     $80.0     attributable	to	one	particular	case,	which	
                      (NUMBERS SHOWN IN          2009                           involved	Intel	Corporation*,	the	world’s	
                                                           Actual     $188.0    leading	computer	chip	maker,	who	was	
                      MILLIONS.)
                                                                                charged	with	illegally	using	its	dominant	
                                                                                market	position	for	a	decade	to	stifle	
                                                           Target     $80.0
                                                                                competition	and	strengthen	its	monopoly.
                                                 2008
                                                           Actual     $28.0     Data Source: Estimates of consumer
                                                                                savings associated with nonmerger
                                                           Target     $80.0     actions are prepared by the lead attorney
                                                                                responsible for an individual investigation,
                                                 2007                           and subsequently subject to review by
                                                           Actual     $75.0
                                                                                staff economists. In the absence of case
                                                                                specific information (such as price and
                                                           Target      N/A      sales data), the estimate is generated
                                                                                using the volume of commerce in the
                                                 2006                           affected markets as a basis for the
                                                           Actual      N/A
                                                                                calculation.

                                                                                *Commissioner Kovacic was recused
                                                                                 on the Intel case.


    70                             FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 2.1.6

ACTIONS AGAINST ANTICOMPETITIVE CONDUCT IN MARKETS WITH A TOTAL OF AT LEAST $8
BILLION IN ANNUAL SALES. (NUMBERS SHOWN IN BILLIONS.)


    2012        Target       $8.0
                                        TARGET EXCEEDED.
                                        The	FTC’s	positive	nonmerger	results	affected	markets	
    2011        Target       $8.0       in	which	the	total	estimated	volume	of	commerce	was	
                                        approximately	$11.7	billion,	almost	1.5	times	the	targeted	




                                                                                                       Performance Section
                                        amount,	as	calculated	using	the	volume	of	commerce	of	
                Target       $8.0       the	current	fiscal	year	and	the	previous	four	years.	During	
                                        FY	2010,	the	FTC	obtained	positive	results	in	six	nonmerger	
   2010                                 matters,	resulting	in	the	same	number	of	consents,	one	
                Actual       $11.7      of	which	was	negotiated	after	the	Commission	issued	an	
                                        administrative	compliant.
                                        As	mentioned	under	Performance	Measure	2.1.5,	the	reason	
                Target       $8.0
                                        that	the	agency	has	exceeded	the	target	by	such	a	margin	
   2009                                 is	in	large	part	attributable	to	one	particular	case,	which	
                                        involved	Intel	Corporation,	the	world’s	leading	computer	
                Actual      $14.6       chip	maker,	who	was	charged	with	illegally	using	its	
                                        dominant	market	position	for	a	decade	to	stifle	competition	
                                        and	strengthen	its	monopoly.
                Target       $8.0

   2008                                 Data Source: Estimates of the volume of commerce
                                        associated with nonmerger actions are prepared
                Actual       $0.4       by the lead attorney responsible for an individual
                                        investigation, and subsequently subject to review by
                                        staff economists. The estimate is generated using the
                Target       $8.0       volume of commerce for the affected markets using
   2007                                 public sources and confidential data submitted by the
                                        parties during the course of the investigations.
                Actual       $2.6


                Target      $20.0

   2006
                Actual       $1.4




                                     FISCAL YEAR 2010                                                     71
                      PERFORMANCE                    2012     Target    400.0%
                      MEASURE 2.1.7                                                TARGET EXCEEDED.
                                                     2011     Target    400.0%     During	FY	2010	the	agency	saved	
                      CONSUMER SAVINGS OF                                          consumers	approximately	24	times	the	
                                                                                   amount	of	resources	it	devoted	to	the	
                      AT LEAST FOUR TIMES                     Target    400.0%
                                                                                   nonmerger	enforcement	program.	This	is	
                      THE AMOUNT OF FTC             2010                           largely	attributable	to	consumer	savings	
                                                              Actual    2,418.0%   that	exceeded	target	due	to	one	particular	
                      RESOURCES ALLOCATED
                                                                                   case	involving	Intel	Corporation.	The	FTC	will	
                      TO NONMERGER PROGRAM                    Target    400.0%     continue	to	monitor	and	reassess	the	target	
                      OVER A FIVE-YEAR PERIOD.                                     moving	forward.
                                                    2009
Performance Section




                      (EFFICIENCY MEASURE)                    Actual    1,035.0%   Data Source: The ratio of consumer
                                                                                   savings in nonmerger enforcement
                                                              Target    400.0%     actions to the amount of resources
                                                    2008                           allocated to the merger program is
                                                              Actual     164.0%    calculated using data on consumer
                                                                                   savings obtained under Performance
                                                                                   Measure 2.1.5, divided into the amount
                                                              Target    400.0%     of monetary resources expended on the
                                                    2007                           nonmerger program as reported by the
                                                              Actual    424.0%     FTC’s Financial Management Office.

                                                              Target      N/A
                                                    2006
                                                              Actual      N/A



                      PERFORMANCE                    2012     Target     90.0%
                      MEASURE 2.1.8                                                TARGET EXCEEDED.
                                                     2011     Target     90.0%     In	FY	2010,	the	agency	cooperated	on	
                      THE PERCENTAGE OF CASES                                      over	25	cases	with	jurisdictions	such	as	the	
                                                                                   European	Union,	Canada,	Mexico,	Japan,	
                      IN WHICH THE FTC HAD AT                 Target     90.0%
                                                                                   Australia,	and	the	United	Kingdom	and	
                      LEAST ONE SUBSTANTIVE         2010                           obtained	compatible	outcomes	in	each	
                                                              Actual    100.0%     case.	While	the	agency	will	continue	to	
                      CONTACT WITH A FOREIGN
                                                                                   strive	for	100%	success,	the	target	reflects	
                      ANTITRUST AUTHORITY                     Target      N/A      the	possibility	of	inconsistent	outcomes,	
                      IN WHICH THE AGENCIES                                        particularly	as	new	antitrust	agencies	
                                                    2009                           come	on	line.	However,	at	this	time	the	FTC	
                      FOLLOWED CONSISTENT                     Actual      N/A      believes	that	the	target	remains	appropriate.
                      ANALYTICAL APPROACHES
                                                              Target      N/A      Data Source: Information on the
                      AND REACHED COMPATIBLE
                                                    2008                           international activities of the FTC is
                      OUTCOMES.                                                    produced by the agency’s Office of
                                                              Actual      N/A
                                                                                   International Affairs.

                                                              Target      N/A
                                                    2007
                                                              Actual      N/A


                                                              Target      N/A
                                                    2006
                                                              Actual      N/A




    72                              FEDERAL TRADE COMMISSION | Performance and Accountability Report
OBJECTIVE 2.2: PREVENT CONSUMER INJURY
                                                             competitive markets. The FTC has a long and
THROUGH EDUCATION.                                           distinguished history in this area. The FTC advocates
In addition to its law enforcement activity, the FTC         market-based solutions through the publication of
provides substantial information to the business             studies and reports, and participation in state and federal
community and consumers about the role of the antitrust      legislative and regulatory fora.
laws and businesses’ obligations under those laws.
                                                             The agency also participates as an amicus curiae (friend
Our Strategy                                                 of the court) in judicial proceedings when substantial
                                                             questions of antitrust law or competition policy
The FTC uses education and outreach to increase
                                                             are involved, especially when the FTC may add a




                                                                                                                           Performance Section
business compliance, which helps prevent consumer
                                                             different perspective to the deliberations because of its
injury, and augment its law enforcement efforts. The
                                                             specialized knowledge or experience.
agency pursues this strategy through guidance to the
business community; outreach efforts to federal, state,
                                                             Finally, in an effort to continue educating consumers
and local agencies, business groups, and consumers;
                                                             and businesses on the important role of competition in
development and publication of antitrust guidelines,
                                                             providing the most valuable and efficient mix of price,
policy statements, and reports; and speeches and
                                                             choice, and innovation, the FTC continues to publish
testimony. By using these mechanisms to signal its
                                                             reference and case-related documents. Another way
enforcement policies and priorities, the FTC seeks to
                                                             the FTC achieves this goal is to improve how topical
deter would-be violators of the antitrust laws.
                                                             information, case materials, and reference documents
In its complaints, “analyses to aid public comment,”
                                                             are organized—in an effort to aid visitors in searching
and press releases, the agency explains the relevant
                                                             and finding relevant information—and to continuously
facts and issues of cases in which it files complaints or
                                                             update the growing body of reference material.
obtains consent orders, so the nature of the competitive
problems is clear. Each successful enforcement action
                                                             Performance Results
not only promotes competition in one or more relevant
markets, but also serves to communicate to the business      The FTC uses one measure to assess its performance in
and legal communities that the FTC can and will take         preventing consumer injury through education. The key
action to challenge similar transactions or conduct in       measure (Performance Measure 2.2.1) tracks the volume
the future. This information greatly facilitates antitrust   of traffic on the FTC website on antitrust-related
lawyers’ counseling of their clients and prevents many       pages that are relevant to policymakers, the business
anticompetitive mergers from being proposed or               and legal communities, and the public at large. This
anticompetitive practices from being implemented.            performance measure is an indicator of the flow of
In addition, the FTC educates the public through             information provided to the public. Successful outreach
guidelines, congressional or other types of testimony,       and education efforts, as reflected by this measure,
conferences, speeches, hearings, and workshops (such         will help consumers, because increased knowledge and
as the series of workshops on the horizontal merger          understanding of the antitrust laws will help businesses
guidelines and intellectual property rights); advisory       stay in compliance. This measure also will help ensure
opinions (addressing, for example, the licensing             that the agency engages in consumer, business, and
requirements for limited service health care clinics); and   international education that advances the culture
reports (such as the reports on the ethanol market and       of competition, which enhances consumer welfare.
on the savings lost to consumers through pay-for-delay       The results of this measure would seem to indicate a
agreements). As a complement to the FTC enforcement          significant continued public interest in the FTC and its
activity, the agency also advises, when asked, other         Maintain Competition strategic goal. In addition, the
federal and state government officials about the possible    broad and increasing distribution of educational and
effects that various regulatory and legislative proposals    policy materials through electronic channels represents
may have in creating, maintaining, or forestalling           important leveraging of the agency’s resources.




                                                    FISCAL YEAR 2010                                                          73
                             KEY MEASURE 2.2.1

                      COMPETITION RESOURCES ACCESSED VIA THE FTC’S WEBSITE.
                      (Numbers shown in millions)


                           2012            Target          10.0
                                                                       TARGET EXCEEDED.
                            2011           Target          10.0        During	FY	2010,	the	agency	estimates	that	the	hits	on	
                                                                       the	FTC	web	site’s	competition	resources	number	21.5	
                                           Target          10.0        million,	which	exceeds	the	established	target	by	over	
Performance Section




                                                                       100%.	The	target	of	10	million	was	set	by	the	agency	in	its	
                           2010                                        last	Strategic	Plan,	taking	into	account	the	new	tracking	
                                           Actual          21.5        software	that	the	FTC	uses	to	monitor	web	traffic	on	its	
                                                                       web	site	and	by	extrapolating	from	information	on	traffic	
                                           Target          15.0        flows	in	recent	years.

                           2009                                        Notwithstanding	that	the	agency	set	the	target	at	what	
                                           Actual           11.9       it	considered	to	be	a	reasonable	level,	the	amount	of	
                                                                       traffic	registered	in	FY	2010	has	climbed	to	an	extent	
                                                                       that	was	not	expected.	This	result	may	be	attributable	
                                           Target          15.0        to	recent	developments	in	the	technology	of	information	
                           2008                                        dissemination	and	retrieval	by	web	search	agents	and/or	by	
                                           Actual          12.5        unanticipated	growth	in	the	volume	of	overall	web	traffic.	
                                                                       The	agency	will	continue	to	monitor	web	traffic	patterns	to	
                                                                       determine	if	the	current	web	metric	tools	allow	for	a	more	
                                           Target          15.0        discerning	analysis	and	filtering	of	the	raw	traffic	data	and	
                           2007                                        eventually	to	determine	if	the	target	should	be	adjusted.
                                           Actual           15.7
                                                                       Data Source: The agency’s web statistics software.
                                           Target          10.0
                           2006
                                           Actual          10.6




    74                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
OBJECTIVE 2.3: ENHANCE CONSUMER                           strategy to enhance consumer welfare. The agency
BENEFIT THROUGH RESEARCH, REPORTS,                        uses the information it develops internally to refine
AND ADVOCACY.                                             the theoretical framework for analyzing competition
                                                          issues and the empirical understanding of industry
As a complement to its activities aimed at preventing
                                                          practices, which contributes substantially to an effective
consumer injury through education, the FTC
                                                          response to changing marketplace conditions. The
provides substantial information to the business
                                                          information gained through this authority, combined
community, policymakers, and consumers about the
                                                          with the agency’s professional expertise on competition
role of the antitrust laws and businesses’ obligations
                                                          issues, also contributes to a better understanding of
under those laws.
                                                          business practices and their competitive and economic




                                                                                                                       Performance Section
                                                          implications by various entities, including the business
Our Strategy                                              sector, the legal community, other enforcement
The FTC has unique jurisdiction to gather, analyze, and   authorities, the judiciary, foreign competition agencies,
make public certain information concerning the nature     and governmental decision makers and policymakers
of competition as it affects U.S. commerce. The FTC       at the federal, state, and local levels. And finally, the
uses that authority to hold public hearings, convene      FTC files comments with federal and state government
conferences and workshops, conduct economic               bodies advocating policies that promote the interests
studies on competition issues of significant public       of consumers and highlight the role of consumer and
importance, and issue reports of its findings. This       empirical research in their decision making. The FTC
authority advances the competition goal in numerous       also files amicus briefs to aid courts’ considerations of
ways and is a fundamental component in the FTC’s          consumer protection issues.




                                                    WILL JOURNALISM SURVIVE
                                                    THE INTERNET AGE?
                                                    (Journalism in the Internet Age
                                                    Workshop)
                                                     The FTC held a series of workshops from December
                                                     2009 to June 2010 to explore how the Internet
                                                     has affected journalism. The workshop assembled
                                                     representatives from print, online, broadcast and
                                                     cable news organizations, academics, consumer
    advocates, bloggers, and other new media representatives. Panelists discussed how journalism
    is evolving in light of the significant transition in which traditional business models are rendered
    obsolete, innovative new forms of journalism are emerging, and consumer news habits are
    changing rapidly. The workshops considered a wide range of issues, including: the economics of
    journalism and how those economics are playing out on the Internet and in print; the wide variety
    of new business and non-profit models for journalism online; factors relevant to the new economic
    realities for news organizations, such as behavioral and other targeted online advertising, online
    news aggregators, and bloggers; and the variety of governmental policies—including antitrust,
    copyright, and tax policy—that have been raised as possible means of finding new ways for
    journalism to thrive. To learn more, visit www.ftc.gov/opp/workshops/news/index.shtml.




                                                  FISCAL YEAR 2010                                                        75
                      Performance Results
                      The key measures used to gauge the FTC’s success           These measures, in conjunction with Performance
                      under this objective are the ones relating to conducting   Measures 2.3.4, and 2.3.5, help to ensure that the agency
                      public hearings, conferences, and workshops                is engaging in appropriate types and sufficient levels of
                      (Performance Measure 2.3.1), issuing reports and           research, reports, and advocacy and that they are relevant
                      studies on competition related issues (Performance         to consumers, policymakers, businesses, and the legal
                      Measure 2.3.2), and making advocacy filings                community. The target for these measures sets a minimum
                                                                                 level of activity that the agency is expected to achieve.
Performance Section




                      (Performance Measure 2.3.3).




                                                                         THE FTC FILES AMICUS
                                                                         BRIEF IN AMERICAN
                                                                         NEEDLE V. NFL
                                                                      The FTC and the DOJ filed an amicus brief in the U.S.
                                                                      Supreme Court in the matter of American Needle, Inc.
                                                                      v. National Football League, a case involving allegations
                                                                      that the NFL’s exclusive licensing agreement restrained
                                                                      trade and unlawfully monopolized trade. American
                                                                      Needle, Inc., a headwear manufacturer, sued the NFL,
                                                                      claiming the league violated antitrust law because all
                                                                      32 teams worked together to freeze American Needle
                                                                      out of the NFL-licensed hat-making business and gave
                                                                      Reebok an exclusive 10-year license. The amicus brief
                                                                      urged the Supreme Court to vacate the judgment of
                                                                      the lower courts and hold instead that the NFL and its
                                                                      separately owned teams do not function as a “single
                         entity” when licensing and marketing their logos and trademarks under an exclusive licensing
                         agreement with Reebok. The U.S. Supreme Court heard the case in June of 2009, and in May of
                         2010, issued an opinion in which it held that although NFL teams have common interests such as
                         promoting the NFL brand, they are still separate, profit-maximizing entities, and their interests in
                         licensing team trademarks are not necessarily aligned, thus creating the potential for American
                         Needle and others to compete with Reebok in manufacturing NFL caps and other headwear. To
                         learn more, visit www.ftc.gov/opa/2009/05/nflwf.shtm.




    76                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
                       2012     Target     4
KEY MEASURE 2.3.1                                TARGET EXCEEDED.
                       2011     Target     4     During	FY	2010,	the	FTC	held	six	
                                                 conferences	on	competition-related	
WORKSHOPS, SEMINARS,
                                Target     4     topics,	including	energy,	merger	
CONFERENCES, AND                                 guidelines,	the	intersection	of	patent	
                       2010                      policy	and	competition	policy,	and	
HEARINGS CONVENED
                                Actual     6     journalism	in	the	Internet	age.
OR COSPONSORED THAT
INVOLVE SIGNIFICANT             Target     4     Data Source: Information on
                                                 conferences involving significant
COMPETITION-RELATED    2009




                                                                                               Performance Section
                                                 competition related issues is taken
ISSUES.                         Actual     8     from the FTC website
                                                 (www.ftc.gov/ftc/workshops.shtm).
                                Target     4
                       2008
                                Actual     5


                                Target     4
                       2007
                                Actual     7


                                Target    N/A
                       2006
                                Actual    N/A



                       2012     Target     8
KEY MEASURE 2.3.2                                TARGET EXCEEDED.
                       2011     Target     8     In	FY	2010,	the	FTC	issued	a	total	of	nine	
                                                 reports	on	competition-related	matters,	
REPORTS AND STUDIES
                                Target     8     thus	exceeding	the	annual	target.	The	
ISSUED ON KEY                                    reports	addressed	topics	such	as	pay-
                       2010                      for-delay	agreements,	ethanol	market	
COMPETITION-RELATED
                                Actual     9     concentration,	and	oil	and	gas	activities.
TOPICS.
                                Target     8     Data Source: Information on
                                                 studies and reports on significant
                       2009                      competition-related issues is taken
                                Actual    20     from the FTC website
                                                 (www.ftc.gov/be/research.shtm and
                                Target     8     www.ftc.gov/reports/index.shtm).
                       2008
                                Actual     7


                                Target     8
                       2007
                                Actual     18


                                Target    N/A
                       2006
                                Actual    N/A




                              FISCAL YEAR 2010                                                    77
                                                          2012       Target      6
                      KEY MEASURE 2.3.3                                                TARGET EXCEEDED.
                                                          2011       Target      6     In	FY	2010,	the	FTC	filed	advocacy	
                                                                                       comments	on	a	range	of	competition	
                      ADVOCACY COMMENTS
                                                                     Target      6     issues,	including	gas	pricing,	electricity	
                      AND AMICUS BRIEFS ON                                             competition	issues,	and	competition	
                                                          2010                         in	medical,	dentistry,	and	veterinary	
                      COMPETITION ISSUES FILED
                                                                     Actual     17     services.	The	FTC	also	filed	amicus	briefs	
                      WITH ENTITIES INCLUDING                                          on	pay-for-delay	settlements	and	patent	
                      FEDERAL AND STATE                              Target     N/A    issues,	among	others.

                      LEGISLATURES, AGENCIES             2009                          Data Source: Internal matter records
Performance Section




                      OR COURTS.                                     Actual     N/A    of advocacy comments and amicus
                                                                                       briefs filed.
                                                                     Target     N/A
                                                         2008
                                                                     Actual     N/A


                                                                     Target     N/A
                                                         2007
                                                                     Actual     N/A


                                                                     Target     N/A
                                                         2006
                                                                     Actual     N/A




                                                                    THE FTC ISSUES REPORT
                                                                    ON PAY-FOR-DELAY
                                                                    PHARMACEUTICALS
                                                                    SETTLEMENTS
                                                                       The Commission issued a new study, entitled “Pay-
                                                                       for-Delay: How Drug Company Pay-Offs Cost
                                                                       Consumers Billions,” that summarizes the savings
                                                                       lost to U.S. consumers during the past six years
                         through pay-for-delay deals in the drug industry, and found that the number of agreements
                         with payment and delay has increased from zero in 2004 to a record 19 agreements in FY 2009.
                         “Pay-for-delay” deals, in which brand-name drug makers pay their generic competitors to keep
                         cheaper alternatives off the market, cost consumers an estimated $3.5 billion per year—or $35
                         billion over 10 years. The study also found that settlement deals featuring payments by branded
                         drug firms to a generic competitor kept generics off the market for an average of 17 months
                         longer than agreements that did not include a payment. To learn more, visit 	
                         www.ftc.gov/os/2010/01/100112payfordelayrpt.pdf.




    78                                FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE                         2012      Target     50.0%
MEASURE 2.3.4                                                      TARGET EXCEEDED.
                                     2011     Target     50.0%    The	FTC	mails	advocacy	recipients	a	
THE PERCENTAGE OF                                                 survey	designed	to	gauge	the	usefulness	
                                              Target     50.0%    of	agency	advocacy	comments	and	
RESPONDENTS FINDING                                               amicus	briefs.	“Usefulness”	is	assessed	
THE FTC’S ADVOCACY                  2010                          by	the	recipient.	The	target	percentage	
                                              Actual    100.0%    recognizes	that	comments	critiquing	
COMMENTS AND AMICUS
                                                                  a	recipient’s	proposed	action	may	not	
BRIEFS “USEFUL.”                              Target      N/A     be	assessed	positively.	In	FY	2010,	8	of	
                                                                  8	survey	responses	classified	the	FTC’s	
                                    2009




                                                                                                              Performance Section
                                                                  submissions	as	useful.
                                              Actual      N/A
                                                                  Data Source: A formal survey
                                              Target      N/A     distributed to advocacy recipients.
                                    2008
                                              Actual      N/A


                                              Target      N/A
                                    2007
                                              Actual      N/A


                                              Target      N/A
                                    2006
                                              Actual      N/A




                                   MARKET MANIPULATION RULE:
                                   THE FTC ISSUES BUSINESS
                                   COMPLIANCE GUIDE
                                     The Commission added another tool to combat higher prices
                                     for wholesale petroleum products. Pursuant to its authority
                                     under the Energy Independence and Security Act of 2007,
                                     the Commission issued its Petroleum Market Manipulation
                                     Rule, which became effective in November of 2009. In a
                                     rulemaking proceeding that generated over 150 comments
                                     from consumers and businesses, the Commission crafted a
                                     Rule that prohibits fraud or deceit in wholesale petroleum
                                     markets, including omission of material information, that is
  likely to distort petroleum markets. The Commission staff prepared a compliance guide for
  businesses, which sets out examples of Rule violations, such as false public announcements of
  planned pricing or output decisions, false statistical or data reporting, and wash sales intended
  to disguise the actual liquidity of a market or the price of a particular product. See 	
  www.ftc.gov/ftc/oilgas/rules.htm for more information.




                                            FISCAL YEAR 2010                                                     79
                      PERFORMANCE                     2012      Target      1.7
                      MEASURE 2.3.5                                                 TARGET EXCEEDED.
                                                       2011     Target      1.7     This	performance	measure	relates	
                      THE VOLUME OF TRAFFIC ON                                      to	the	volume	of	traffic	on	the	FTC’s	
                                                                Target      1.7     web	pages	that	relate	to	competition	
                      WWW.FTC.GOV RELATING TO                                       research,	reports,	and	advocacy.	In	FY	
                      COMPETITION RESEARCH,           2010                          2010,	there	were	approximately	2.2	
                                                                Actual      2.2     million	visits,	which	met	the	criteria	set	
                      REPORTS, AND ADVOCACY.
                                                                                    by	this	measure.
                      (NUMBERS SHOWN
Performance Section




                                                                Target      1.1
                      IN MILLIONS.)                                                 Data Source: The agency’s web
                                                      2009                          statistics software.
                                                                Actual      1.6


                                                                Target      1.1
                                                      2008
                                                                Actual      1.2


                                                                Target      1.1
                                                      2007
                                                                Actual      1.1


                                                                Target     N/A
                                                      2006
                                                                Actual     N/A




    80                             FEDERAL TRADE COMMISSION | Performance and Accountability Report
OBJECTIVE 2.4: PROTECT AMERICAN                           officials to share insights on law enforcement and policy
CONSUMERS IN THE GLOBAL MARKETPLACE                       initiatives. The FTC also pursues the development of
BY PROVIDING SOUND POLICY                                 an international market-based competition model that
RECOMMENDATIONS AND TECHNICAL
                                                          focuses on the maximization of consumer benefit.
                                                          The agency influences policy development and
ADVICE TO FOREIGN GOVERNMENTS AND
                                                          implementation by advising multilateral organizations,
INTERNATIONAL ORGANIZATIONS TO
                                                          regional entities, and foreign government agencies
PROMOTE SOUND COMPETITION POLICY.
                                                          through substantive consultations and written
The FTC seeks more effective, coordinated reviews         comments. And finally, the FTC provides technical




                                                                                                                      Performance Section
of multijurisdictional mergers, and is working towards    assistance to newer competition agencies to enhance
achieving consistent outcomes in cases of potential       their ability to apply sound competition policies.
unilateral anticompetitive conduct.
                                                          Performance Results
Our Strategy
                                                          The FTC uses two performance measures to assess
To achieve this objective, the agency participates in     performance for this objective. Key Measure 2.4.1
multilateral competition organizations, which provides    and Performance Measure 2.4.2 address the scope of
valuable opportunities to promote international           our contact with international counterparts and help
cooperation and convergence and for competition           determine if our efforts are sufficiently broad-based.




                                          2012       Target      40
KEY MEASURE 2.4.1                                                        TARGET EXCEEDED.
                                          2011       Target      40      In	FY	2010,	the	FTC	provided	policy	
                                                                         advice	in	76	instances,	through	
POLICY ADVICE PROVIDED
                                                     Target      40      consultations,	written	submissions,	or	
TO FOREIGN COMPETITION                                                   comments.	The	FTC’s	policy	advice	
                                         2010                            continues	to	grow	as	a	result	of	the	
AGENCIES, DIRECTLY AND
                                                     Actual      76      increasing	number	of	jurisdictions	
THROUGH INTERNATIONAL                                                    enforcing	competition	laws,	the	
ORGANIZATIONS,                                       Target     N/A      FTC’s	participation	in	international	
                                                                         organizations,	and	the	FTC’s	growing	
THROUGH SUBSTANTIVE                      2009                            engagement	with	key	jurisdictions	such	
CONSULTATIONS, WRITTEN                               Actual     N/A      as	China.	The	agency	will	continue	to	
                                                                         monitor	the	target	of	this	new	measure	
SUBMISSIONS, OR
                                                     Target     N/A      and	will	reassess	it	after	additional	
COMMENTS.                                                                performance	cycles.
                                         2008
                                                     Actual     N/A      Data Source: Information on the
                                                                         international activities of the FTC is
                                                     Target     N/A      produced by the agency’s Office of
                                         2007                            International Affairs.
                                                     Actual     N/A


                                                     Target     N/A
                                         2006
                                                     Actual     N/A




                                                  FISCAL YEAR 2010                                                       81
                      PERFORMANCE                            2012      Target      10
                      MEASURE 2.4.2                                                             TARGET EXCEEDED.
                                                             2011      Target      10          In	FY	2010,	the	FTC	conducted	54	
                      TECHNICAL ASSISTANCE                                                     technical	assistance	missions	and	
                                                                       Target      10          hosted	six	international	Fellows.	Thirteen	
                      PROVIDED TO FOREIGN                                                      of	the	technical	assistance	missions	
                      COMPETITION AUTHORITIES.              2010                               and	one	international	Fellow	were	
                                                                       Actual      60          funded	through	outside	sources	such	
Performance Section




                                                                                               as	from	U.S.	Agency	for	International	
                                                                       Target     N/A          Development	and	the	U.S.	Trade	and	
                                                                                               Development	Agency.	The	agency	will	
                                                            2009                               continue	to	monitor	the	target	of	this	
                                                                       Actual     N/A          new	measure	and	will	reassess	it	after	
                                                                                               additional	performance	cycles.
                                                                       Target     N/A
                                                                                               Data Source: Office of International
                                                            2008                               Affairs technical assistance calendar.
                                                                       Actual     N/A


                                                                       Target     N/A
                                                            2007
                                                                       Actual     N/A


                                                                       Target     N/A
                                                            2006
                                                                       Actual     N/A




                      RESOURCES UTILIZED—STRATEGIC GOAL 2
                      (DOLLARS SHOWN IN MILLIONS.)
                                                          2006            2007              2008             2009              2010

                       Full-Time	Equivalents               	457           	489               		502             509              512


                       Obligations                         $86             $94               $103              $113             $123


                       Net	Cost                            ($23)          ($47)         							$			2          $	68              $43


                      Note: Differences between these obligations and net costs and the financial statements are due to rounding.




    82                                  FEDERAL TRADE COMMISSION | Performance and Accountability Report
STRATEGIC
GOAL 3: ADVANCE                                           OBJECTIVE 3.1: PROVIDE EFFECTIVE HUMAN

PERFORMANCE                                               RESOURCES MANAGEMENT.
                                                          The FTC uses an integrated approach that ensures
Advance the FTC’s performance through                     human capital programs and policies are linked to
organizational, individual, and management excellence.    our mission, goals, and strategies, while providing for
                                                          continuous improvement in efficiency and effectiveness.
I. Strategic View
                                                          OBJECTIVE 3.2: PROVIDE EFFECTIVE
The FTC recognizes that a strong foundation of            INFRASTRUCTURE AND SECURITY




                                                                                                                    Performance Section
organizational, individual, and management excellence     MANAGEMENT.
is a driver of mission success. The agency applies
four objectives to achieve this goal. The objectives      Building, modernizing, and maintaining physical and
align with four key functional areas: human resources,    information technology infrastructure ensures a safe
infrastructure and security, information resources, and   and secure workplace to achieve mission goals, and to
finance and acquisition.                                  respond to and anticipate both routine and emergency
                                                          agency requirements.




                                                      FEDERAL TRADE
                                                      COMMISSION BUILDING
                                                      Adapted from the Federal Trade Commission 	
                                                      90th Anniversary Symposium “Note on the Federal
                                                      Trade Commission Building,” by Judith Bailey and
                                                      James Hamill.

                                                   Located at the apex of the Federal Triangle (and
                                                   originally called the Apex Building), staff first 	
                                                   occupied the Federal Trade Commission Building
    in 1938. The building is designed in the Classical Revival style of architecture, and features large
    courtrooms facing the U. S. Capitol. These spaces host hearings, trials, appellate proceedings, and
    official meetings of the Commission.

    Two of the building’s most notable features are the Art Deco statues, designed by Michael Lantz
    and together called “Man Controlling Trade.” The statues portray a rearing stallion held by a man,
    symbolizing the relationship between trade and the government, and have become the agency’s
    informal logo. The building also features large decorative gates over the exterior doorways
    representing various means of trade including Columbus’s ships, an 18th Century merchant ship, 	
    a 19th Century clipper ship in full sail, and an early paddlewheel steamship, as well a “modern” 	
    ocean liner and seaplane that showed the latest technology in the late 1930s. Rectangular panels
    above the doorways represent foreign trade, agriculture, shipping, and industry.

    More information on this National Register of Historic Places building can be found at 	
    www.gsa.gov/portal/ext/html/site/hb/category/25431/actionParameter/exploreByBuilding/buildingId/610.




                                                   FISCAL YEAR 2010                                                    83
                      OBJECTIVE 3.3: PROVIDE EFFECTIVE                              human resources needs to carry out its mission and
                      INFORMATION RESOURCES MANAGEMENT.                             creates an agency-wide performance culture focused
                                                                                    on individual and organizational accountability toward
                      The FTC recognizes that sound management of
                                                                                    the achievement of the FTC’s programmatic goals and
                      information resources is essential to meeting its strategic
                                                                                    priorities. Finally, the agency achieves this objective by
                      goals.
                                                                                    providing human resources management training and
                      OBJECTIVE 3.4: PROVIDE EFFECTIVE                              outreach to staff.
                      FINANCIAL AND ACQUISITION MANAGEMENT.
                      Effective financial and acquisition management allows
                                                                                    Performance Results
                      the FTC to protect American consumers and maintain
Performance Section



                                                                                    Two performance measures, Performance Measure
                      competition in an accountable, transparent, and fiscally      3.1.1 and Performance Measure 3.1.2, are used to gauge
                      responsible manner.                                           achievement of this objective. These measures are
                                                                                    based on results from the Federal Employee Viewpoint
                      II. Strategic Analysis                                        Survey administered by the U.S. Office of Personnel
                                                                                    Management. The survey focuses on federal employees’
                      OBJECTIVE 3.1: PROVIDE EFFECTIVE HUMAN                        perceptions of critical areas of their work life and
                      RESOURCES MANAGEMENT.                                         workforce management, and measures factors that
                      This objective aligns with the agency’s Human Capital         influence whether employees want to join, stay, and help
                      Plan that encompasses leadership and knowledge                their agency meet its mission.
                      management, a results-oriented performance culture,
                      talent management, and job satisfaction.                      In FY 2010, the FTC had a survey response rate
                                                                                    of 51 percent (478 of 931 employees responded)
                      Our Strategy                                                  and, compared to other federal agencies with over
                                                                                    1,000 employees, received second place marks on the
                      The FTC recognizes that its employees are its                 Leadership and Knowledge Management, Results-
                      greatest asset and places great emphasis on the               Oriented Performance Culture, and Talent Management
                      importance of human resources management to the               indexes and fourth place in Job Satisfaction. In addition,
                      successful accomplishment of its mission. One of              the FTC is listed as one of the agencies with the
                      the key strategies used to achieve this objective entails     highest increases since 2008 for three of these four
                      implementing programs and processes that will enable          indexes. Of the 78 items on the survey, the FTC had
                      the agency to quickly recruit, develop, and retain a          55 items with high positive ratings that are considered
                      qualified, diverse workforce through an integrated            strengths; no items with negative ratings that would
                      workforce plan. The FTC also uses the integrated              be considered weaknesses; and six items had a neutral
                      workforce plan to identify and fulfill current and future     rating. Additionally, 64 items were five percentage points
                                                                                    or more above the government-wide average, and no
                                                                                    items were five percentage points or more below the
                                                                                    government-wide average.




    84                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 3.1.1

THE EXTENT EMPLOYEES BELIEVE THEIR ORGANIZATIONAL CULTURE PROMOTES
IMPROVEMENT IN PROCESSES, PRODUCTS AND SERVICES, AND ORGANIZATIONAL OUTCOMES.


                      Exceed the government-wide
                      results on the Federal Human       TARGET MET.
   2012     Target
                     Capital Survey’s Results-Oriented
                       Performance Culture Index         The	government-wide	results	were	53%	and	
                                                         the	FTC	received	68%.




                                                                                                     Performance Section
                      Exceed the government-wide         Compared	to	37	other	departments	and	
                      results on the Federal Human       agencies	with	more	than	1,000	full-time	
   2011     Target
                     Capital Survey’s Results-Oriented   employees,	the	FTC	took	second	place	in	
                       Performance Culture Index         Leadership	and	Knowledge	Management	and	
                                                         Results-Oriented	Performance	Culture.
                      Exceed the government-wide
                                                         Data Source: 2010 Federal Employee
                       results on the Federal Human
            Target                                       Viewpoint Survey.
                     Capital Survey’s Results-Oriented
   2010                 Performance Culture Index

            Actual              Exceeded


            Target                 N/A
  2009
            Actual                 N/A


            Target                 N/A
  2008
            Actual                 N/A


            Target                 N/A
  2007
            Actual                 N/A


            Target                 N/A
  2006
            Actual                 N/A




                                         FISCAL YEAR 2010                                               85
                             KEY MEASURE 3.1.2

                      THE EXTENT EMPLOYEES THINK THE ORGANIZATION HAS THE TALENT NECESSARY TO ACHIEVE
                      ORGANIZATIONAL GOALS.

                                                      Exceed the government-wide results on
                          2012          Target       the Federal Human Capital Survey’s Talent      TARGET MET.
                                                                Management Index
                                                                                                    The	government-wide	results	were	
                                                                                                    60%	and	the	FTC	received	72%.
                                                      Exceed the government-wide results on
                           2011         Target       the Federal Human Capital Survey’s Talent      Compared	to	37	other	departments	
Performance Section




                                                                Management Index                    and	agencies	with	more	than	
                                                                                                    1,000	full-time	employees,	the	
                                                                                                    FTC	took	second	place	in	Talent	
                                                      Exceed the government-wide results on
                                                                                                    Management.
                                       Target        the Federal Human Capital Survey’s Talent
                          2010                                  Management Index
                                                                                                    Data Source: 2010 Federal
                                                                                                    Employment Viewpoint Survey.
                                       Actual                        Exceeded


                                       Target                           N/A
                          2009
                                       Actual                           N/A


                                       Target                           N/A
                          2008
                                       Actual                           N/A


                                       Target                           N/A
                          2007
                                       Actual                           N/A


                                       Target                           N/A
                          2006
                                       Actual                           N/A



                      OBJECTIVE 3.2: PROVIDE EFFECTIVE                          have established a viable, tested infrastructure that can
                      INFRASTRUCTURE AND SECURITY                               provide continuation of the FTC’s mission along with a
                      MANAGEMENT.                                               safe and secure environment for all staff in the event of
                                                                                an emergency.
                      Building, modernizing, and maintaining physical and
                      information technology infrastructure ensures a safe
                                                                                Ensuring that the FTC has optimal informational
                      and secure workplace.
                                                                                technology (IT) infrastructure operations and
                                                                                performance is key to meeting the agency’s business
                      Our Strategy
                                                                                goals. The ability of the agency’s Information
                      The FTC ensures a safe and secure workplace by            Technology Management Office (ITMO) to deliver
                      promoting staff awareness, regularly participating in     value to the agency is dependent upon its ability to
                      Continuity of Operations Plan (COOP) testing, and         identify and provide a host of critical services of
                      incorporating best practices from Federal Emergency       improved quality, at lower business risk, and with
                      Management Agency (FEMA) staff. COOP exercises            increased agility. To this end, ITMO is working




    86                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
to deploy a sophisticated suite of infrastructure              target is based on prior performance and the target
operations performance monitoring tools, technology,           of 75 percent represents management’s commitment
and processes that will help achieve the agency goals.         to reaching a realistic yet ambitious milestone. The
Measuring and improving service delivery to bring              exercises allow the Executive Branch to implement
positive business experiences and outcomes for the FTC         integrated, overlapping national continuity concepts in
is imperative. With ever-changing technology, including        order to ensure the preservation of our government
the potential for use of cloud computing, this must be         and the continuing performance of essential functions.
accomplished in a growing, complex, and dynamic IT             These services provided by the government at all levels
infrastructure and application environment.                    and the private sector affect the everyday lives of
                                                               citizens and customers.




                                                                                                                           Performance Section
Performance Results
Two performance measures are used to gauge                     A second Performance Measure, Key Measure 3.2.2,
achievement of this objective. First, the FTC uses             assesses performance of this objective by collecting and
FEMA’s annual testing of COOP programs. The testing            tracking the availability of key information technology
is captured as Performance Measure 3.2.1 and includes          applications, systems, and components. By tracking
participation in the Federal Executive Branch Continuity       unplanned outage periods, the agency monitors
alert, notification, and deployment procedures as well as      the reliability and availability of almost 30 critical
interagency communications. The agency also annually           information technology services including: email, FTC
reviews its continuity capability, as well as its ability to   specific and custom applications and systems, BlackBerry
identify and prioritize essential functions and conduct        servers, Internet/Intranet, telecommunications (includes
operations from pre-planned alternate locations.               phone and voicemail services), Wide Area Network,
                                                               www.ftc.gov, Secure Access for Employees, and
Specifically, this measure represents performance in           enterprise-wide customer applications.
a series of exercises known as “Eagle Horizon.” The


                                            2012        Target      75.0%
KEY MEASURE 3.2.1                                                             TARGET EXCEEDED.
                                             2011       Target      75.0%     The	FTC’s	grade	of	85%	establishes	the	
A FAVORABLE CONTINUITY                                                        agency	as	a	leader	among	all	federal	
                                                        Target     75.0%      agencies	within	the	Eagle	Horizon	
OF OPERATIONS (COOP)                                                          program.
RATING.                                     2010
                                                        Actual     85.0%      These	efforts	included	review	
                                                                              of	all	previous	exercises	and	the	
                                                                              corresponding	results,	benchmarking	to	
                                                        Target      N/A       other	federal	agencies,	and	attendance	
                                           2009                               at	all	of	the	FEMA	program	development	
                                                        Actual      N/A       meetings.	
                                                                              The	one	area	in	which	the	FTC	did	not	
                                                        Target      N/A       excel	at	the	time	of	the	exercise	was	the	
                                                                              delegation	of	authority	portion	which	
                                           2008
                                                                              made	up	the	bulk	of	the	15%	shortfall.	
                                                        Actual      N/A       The	agency	has	since	resolved	this	
                                                                              deficiency	by	establishing	a	delegation	
                                                        Target      N/A       of	authority	policy.
                                           2007
                                                                              Data Source: FEMA’s Continuity
                                                        Actual      N/A
                                                                              Evaluation Tool.

                                                        Target      N/A
                                           2006
                                                        Actual      N/A



                                                      FISCAL YEAR 2010                                                        87
                                                                  2012          Target       99.00%
                      KEY MEASURE 3.2.2                                                                  TARGET EXCEEDED.
                                                                  2011          Target       98.50%      The	FTC’s	information	technology	
                      AVAILABILITY OF                                                                    services	pool	averaged	99.86%	
                                                                                Target       98.00%      availability,	exceeding	the	target	of	
                      INFORMATION TECHNOLOGY                                                             98.00%.
                      SYSTEMS.                                   2010
                                                                                Actual       99.86%      Data Source: ITMO’s Monthly System
                                                                                                         Availability Report.
                                                                                Target         N/A
                                                                 2009
Performance Section




                                                                                Actual         N/A


                                                                                Target         N/A
                                                                 2008
                                                                                Actual         N/A


                                                                                Target         N/A
                                                                 2007
                                                                                Actual         N/A


                                                                                Target         N/A
                                                                 2006
                                                                                Actual         N/A




                      OBJECTIVE 3.3: PROVIDE EFFECTIVE                                   will authorize the FTC to maintain and dispose of
                      INFORMATION RESOURCES MANAGEMENT.                                  agency records electronically. It will enable the FTC
                                                                                         to concentrate on managing information rather than
                      The agency manages information to enable staff to
                                                                                         records schedules.
                      make thoughtful decisions and perform their work,
                      to facilitate appropriate public access, and to protect
                                                                                         As another step in the transition, during FY 2010,
                      sensitive information from inappropriate access and
                                                                                         the FTC developed an Electronic Recordkeeping
                      release.
                                                                                         Certification Review process that will be used to review
                      Our Strategy                                                       the ability of the FTC’s information systems to house
                                                                                         agency records with authenticity, reliability and integrity
                      The FTC is undergoing a multiyear transition to                    for the mandated retention period.
                      managing information resources in electronic format
                      as one of the best means of meeting this objective. As             In addition, as part of effective information resources
                      part of this transition, the FTC conducted an agency-              management, the FTC is identifying and implementing
                      wide inventory of records, including major electronic              business process improvements through effective use
                      systems. Based on the inventory, the agency then                   of technology. For example, the FTC has developed
                      developed, finalized and submitted to the National                 a new web based e-Filing system for public filings in
                      Archives and Records Administration a comprehensive                administrative litigation under Part 3 of the FTC Rules
                      retention schedule that, when NARA approves it,                    of Practice. Designed in the footprint of systems used




    88                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
by the federal courts, the FTC’s e-Filing system enables        www.ftc.gov within 15 days of becoming part of the
parties to the agency’s administrative proceedings to file      public record. The FTC selected this measure because
public documents electronically rather than in paper            timely availability of public documents facilitates public
format.                                                         awareness of and participation in Commission activities.
                                                                Examples of documents approved by the Commission
Performance Results                                             are Federal Register Notices in rulemakings and other
                                                                proceedings that seek public comments, consent
One performance measure, Performance Measure
                                                                agreements, complaints and orders in administrative
3.3.1, is used to gauge success of this objective.
                                                                litigation, and complaints and proposed orders in
This key performance measure is the percentage
                                                                litigation in the federal courts.




                                                                                                                             Performance Section
of Commission-approved documents in the FTC’s
ongoing and newly initiated proceedings available on



                                           2012        Target       80.0%
                                                                               TARGET EXCEEDED.
KEY MEASURE 3.3.1                           2011       Target        75.0%     In	FY	2010,	nearly	94%	of	documents	
                                                                               tracked	under	this	measure	were	
THE PERCENTAGE OF                                      Target       75.0%      posted	to	the	Internet	within	15	days	of	
                                                                               becoming	part	of	the	public	record.	The	
COMMISSION-APPROVED                        2010                                performance	actual	is	an	estimate	based	
DOCUMENTS IN THE FTC’S                                 Actual       93.8%      on	samples	from	the	first	two	quarters	
                                                                               and	actual	counts	for	the	remaining	
ONGOING AND NEWLY
                                                       Target         N/A      year.	Comprehensive	counts	will	be	used	
INITIATED PROCEEDINGS                                                          in	the	future.	Additionally,	the	target	
                                          2009                                 for	this	new	performance	measure	will	
AVAILABLE VIA THE
                                                       Actual         N/A      increase	starting	in	FY	2012.
INTERNET WITHIN 15 DAYS
OF BECOMING PART OF THE                                Target         N/A      Data Source: Internal records from
                                                                               the Office of the Secretary and the
PUBLIC RECORD.                             2008                                Records and Filings Office.
                                                       Actual         N/A


                                                       Target         N/A
                                           2007
                                                       Actual         N/A


                                                       Target         N/A
                                          2006
                                                       Actual         N/A




                                                    FISCAL YEAR 2010                                                            89
                      OBJECTIVE 3.4: PROVIDE EFFECTIVE                            the reviews is to assist management in identifying high-
                      FINANCIAL AND ACQUISITION MANAGEMENT.                       risk areas and implement appropriate risk management
                                                                                  strategies where necessary. The first two reviews were
                      Resource stewardship and financial oversight are
                                                                                  conducted this year. In addition, the FTC is integrating
                      fundamental to establishing the accountability and
                                                                                  disparate legacy systems with the agency’s core financial
                      transparency through which organization, individual,
                                                                                  system, aligning resources to strategic priorities and
                      and management excellence are fostered.
                                                                                  outcomes to focus the agency on the most important
                                                                                  tasks and programs, and implementing best business
                      Our Strategy
                                                                                  solutions to accomplish our goals through world-class
                      By promoting consistency and integrity throughout           acquisition and business processes.
Performance Section




                      the organization, this objective contributes not only
                      to efficient program delivery, but also to effective and    Performance Results
                      efficient agency administration overall. Our work in
                                                                                  Three performance measures that assess internal
                      this area covers a wide range of administrative and
                                                                                  administrative and programmatic operations and
                      operational efforts, such as formulating and executing
                                                                                  acquisition procedures are used to gauge the
                      the agency budget, managing acquisition activities,
                                                                                  achievement of this objective. Performance Measure
                      overseeing the internal control program, managing
                                                                                  3.4.1 tracks the independent auditor’s financial
                      accounting operations, spearheading audit resolution,
                                                                                  statement audit results, and Key Measure 3.4.2 tracks
                      and ensuring compliance with various financial
                                                                                  the percentage of Bureaus/Offices that establish
                      management laws and regulations. These efforts are
                                                                                  and maintain an effective, risk-based internal control
                      critical to maintaining the management infrastructure
                                                                                  environment. Strong internal controls over financial
                      needed to carry out the mission.
                                                                                  and business processes are critical to the integrity of the
                                                                                  data reported through the financial reporting system.
                      One of the primary strategies the agency uses under
                                                                                  Performance Measure 3.4.3 monitors performance
                      this objective is to enhance the internal control
                                                                                  against the Small Business Administration’s government-
                      environment. To support this work, in FY 2010 the
                                                                                  wide small business procurement goals.
                      FTC established an Internal Control Review Plan to
                      conduct internal control reviews of agency bureaus and
                      offices at least once every three years. The objective of




    90                                    FEDERAL TRADE COMMISSION | Performance and Accountability Report
PERFORMANCE MEASURE 3.4.1

INDEPENDENT AUDITOR’S FINANCIAL STATEMENT AUDIT RESULTS.

                   Unqualified opinion on the
 2012     Target
                     financial statements         TARGET MET.
                                                 The	agency	received	a	“clean”	opinion	on	its	financial	
                   Unqualified opinion on the    statements.	The	opinion	is	determined	by	the	
  2011    Target
                     financial statements        independent	auditor’s	review	and	tests	of	internal	
                                                 controls	over	operations	and	financial	reporting	and	the	
                   Unqualified opinion on the    auditor’s	determination	that	the	financial	statements	and	




                                                                                                              Performance Section
          Target                                 notes	are	fairly	presented.
                     financial statements
 2010
                                                 Data Source: Independent auditor’s opinion.
          Actual      Unqualified opinion


          Target              N/A
 2009
          Actual              N/A


          Target              N/A
 2008
          Actual              N/A


          Target              N/A
 2007
          Actual              N/A


          Target              N/A
 2006
          Actual              N/A




                                            FISCAL YEAR 2010                                                     91
                                                     2012      Target     100.0%
                      KEY MEASURE 3.4.2                                            TARGET MET.
                                                     2011      Target     100.0%   The	Statements	of	Assurance	(SOA)	
                      THE PERCENTAGE OF                                            submitted	by	the	agency’s	major	
                                                                                   components	provide	the	basis	for	the	
                      BUREAUS/OFFICES THAT                     Target     100.0%
                                                                                   measurement	of	the	effectiveness	of	
                      ESTABLISH AND MAINTAIN         2010                          the	FTC’s	risk-based	internal	control	
                                                               Actual     100.0%   environment.
                      AN EFFECTIVE, RISK-
                      BASED INTERNAL CONTROL                                       Each	component	completed	
                                                               Target      N/A     questionnaires	specific	to	its	functions	
                      ENVIRONMENT.
                                                    2009
Performance Section



                                                                                   that	addressed	the	Government	
                                                               Actual      N/A     Accountability	Office’s,	“Standards	of	
                                                                                   Internal	Control”	and	other	internal	
                                                                                   documentation	supporting	the	SOA.	
                                                               Target      N/A     The	information	was	reviewed	by	the	
                                                    2008                           agency’s	internal	control	management.
                                                               Actual      N/A     In	addition,	the	Financial	Management	
                                                                                   Office	conducted	the	first	two	reviews	
                                                               Target      N/A     in	accordance	with	its	Internal	Control	
                                                                                   Review	Plan.	Based	on	the	SOAs	and	
                                                    2007
                                                                                   these	internal	reviews,	this	performance	
                                                               Actual      N/A
                                                                                   measure	is	met	by	100%	of	the	Bureaus/
                                                                                   Offices.	
                                                               Target      N/A
                                                                                   Data Source: The Statements of
                                                    2006                           Assurance submitted by the agency’s
                                                               Actual      N/A     thirteen major components.




                      PERFORMANCE                     2012      Target     23.0%
                      MEASURE 3.4.3                                                 TARGET EXCEEDED.
                                                      2011      Target     23.0%    This	measure	encompasses	contracts	
                                                                                    to	organizations	classified	as	small	
                      PERFORMANCE AGAINST                                           businesses	in	accordance	with	Federal	
                                                                Target     23.0%
                      THE SMALL BUSINESS                                            Acquisition	Regulation	19,	i.e.,	open	
                                                     2010                           market	procurements.	The	target	is	the	
                      ADMINISTRATION’S                          Actual     58.9%    Small	Business	Administration-assigned	
                      GOVERNMENT-WIDE SMALL                                         goal	for	the	FTC.	
                      BUSINESS PROCUREMENT                      Target      N/A
                                                                                    Data Source: The Federal
                      GOALS.                         2009                           Procurement Data System—Next
                                                                Actual      N/A     Generation.

                                                                Target      N/A
                                                     2008
                                                                Actual      N/A


                                                                Target      N/A
                                                     2007
                                                                Actual      N/A


                                                                Target      N/A
                                                     2006
                                                                Actual      N/A




    92                            FEDERAL TRADE COMMISSION | Performance and Accountability Report
F I N A N C I A L
    SECTION




     FISCAL YEAR 2010   93
                    MESSAGE FROM THE ACTING CHIEF
                    FINANCIAL OFFICER
                                                                                   •	 Enhancing internal control by executing a plan
Financial Section




                    During Fiscal Year (FY) 2010, the Federal Trade
                    Commission (FTC) upheld its commitment to protect                 to conduct internal control reviews of agency
                    consumers and promote competition in a fiscally                   bureaus and offices, and by completing a limited
                    responsible manner. I am pleased to report that FY                independent review of the processes in place
                    2010 marks the 14th consecutive year that the FTC                 to report reliable and accurate performance
                    has received an unqualified opinion on our financial              measures results.
                    statements. This achievement, along with other notable         •	 Continuing our record of no material
                    successes, demonstrates our commitment to effective               weaknesses, significant control deficiencies, or
                    financial management and to upholding high standards              nonconformances with the Federal Managers’
                    of accountability. Other key accomplishments this past            Financial Integrity Act and other applicable laws
                    fiscal year included:                                             and regulations.

                         •	 Returning more than $48 million in redress
                            funds to victims of fraud and scams following     The Financial Section of this report explains our
                            successful prosecution of defendants resulting    financial position as of September 30, 2010, and shows
                            in court-ordered judgments or settlements.        how financial resources were expended to protect
                                                                              consumers and maintain competition, as shown in our
                         •	 Receiving, for the third consecutive year, the    performance results. These achievements and goals can
                            Association of Government Accountants’            only be accomplished by the dedicated efforts of our
                            Certificate of Excellence in Accountability       talented and committed employees. We look forward
                            Reporting.                                        to the future with confidence as we continue to achieve
                         •	 Paying 98 percent of all invoices received from   results for the American consumer.
                            vendors on time.
                         •	 Reinforcing administrative control of funds by
                            developing and delivering an agency-wide fund
                            manager program.
                         •	 Exceeding the government-wide goal to allocate    James D. Baker
                            three percent of total contract dollars to        Acting Chief Financial Officer
                            companies owned by service-disabled veterans.     November 12, 2010




   94                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
                   Financial Section




FISCAL YEAR 2010      95
Financial Section




   96               FEDERAL TRADE COMMISSION | Performance and Accountability Report
                   Financial Section




FISCAL YEAR 2010      97
Financial Section




   98               FEDERAL TRADE COMMISSION | Performance and Accountability Report
                   Financial Section




FISCAL YEAR 2010      99
Financial Section




   100              FEDERAL TRADE COMMISSION | Performance and Accountability Report
PRINCIPAL FINANCIAL STATEMENTS
FEDERAL TRADE COMMISSION

BALANCE SHEET
AS OF SEPTEMBER 30, 2010 AND 2009
(Dollars shown in thousands)




                                                                                                      Financial Section
                                                                                 2010         2009
  Assets (Note 2):
         Intragovernmental:
            Fund balance with Treasury (Note 3)                            $109,486      $ 81,307
            Investments (Note 5)                                               199,105       94,848
            Accounts receivable, net (Note 6)                                      71          141
         Total intragovernmental                                            308,662       176,296


         Cash and other monetary assets (Note 4)                                21,473       18,141
         Accounts receivable, net (Note 6)                                     48,189        55,564
         General property and equipment, net (Note 7)                          18,060        15,473
  Total Assets                                                             $396,384      $265,474


  Liabilities:
         Intragovernmental:
            Accounts payable                                               $      188    $      371
            Other (Note 9)                                                     12,574         2,265
         Total intragovernmental                                               12,762         2,636

         Accounts payable                                                    11,112          12,879
         Accrued redress receivables due to claimants                        38,170          55,496
         Redress collected but not yet disbursed                            180,526          69,746
         Divestiture fund due                                                45,523          45,542
         Other (Note 9)                                                      20,641          18,784
  Total Liabilities (Note 8 and 9)                                         $308,734      $205,083


  Net Position (Note 1(o)):
        Cumulative results of operations - other funds                          87,650       60,391
  Total Net Position                                                       $ 87,650      $ 60,391
  Total Liabilities and Net Position                                       $396,384      $265,474

The accompanying notes are an integral part of these statements.




                                                        FISCAL YEAR 2010                               101
                    FEDERAL TRADE COMMISSION

                    STATEMENT OF NET COST
                    FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                    (Dollars shown in thousands)


                                                                                               2010           2009
                      Costs by Strategic Goal:
Financial Section




                             Protect Consumers (PC) Strategic Goal:
                                Gross costs (Note 12)                                     $158,458         $147,232
                               Less: Earned revenue (Note 13)                               (14,426)        (15,947)
                               Net PC strategic goal costs                                 144,032          131,285


                             Maintain Competition (MC) Strategic Goal:
                             Gross costs (Note 12)                                         116,642          109,718
                             Less: Earned revenue (Note 13)                                 (73,554)        (42,309)
                             Net MC strategic goal costs                                    43,088           67,409
                      Net Cost of Operations                                               $187,120        $198,694

                    The accompanying notes are an integral part of these statements.




   102                                  FEDERAL TRADE COMMISSION | Performance and Accountability Report
FEDERAL TRADE COMMISSION

STATEMENT OF CHANGES IN NET POSITION
FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
(Dollars shown in thousands)


                                                                            2010         2009

  Cumulative Results of Operations:




                                                                                                 Financial Section
        Beginning balance, adjusted                                  $ 60,391      $ 50,076
        Budgetary financing sources:
          Appropriations used                                            204,673       201,359
        Other financing sources (non-exchange):
           Imputed financing                                             9,706         7,650
         Total financing sources                                       214,379       209,009
         Less: Net cost of operations                                 (187,120)     (198,694)
         Net Change                                                     27,259        10,315
  Total Cumulative Results of Operations                             $ 87,650      $ 60,391


  Unexpended Appropriations:
  Beginning balance, adjusted                                        $        -    $         -
  Budgetary financing sources:
        Appropriations received                                       204,673       201,359
        Less: Appropriations used                                    (204,673)     (201,359)
        Total Budgetary Financing Sources                                   -             -
  Total Unexpended Appropriations                                    $         -   $         -
  Net Position (Note 1(o))                                           $ 87,650      $ 60,391

The accompanying notes are an integral part of these statements.




                                                  FISCAL YEAR 2010                                103
                    FEDERAL TRADE COMMISSION

                    STATEMENT OF BUDGETARY RESOURCES
                    FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
                    (Dollars shown in thousands)

                                                                                                         2010            2009
                      Budgetary Resources:
                             Unobligated balance, brought forward, October 1:                     $     9,783     $    13,063
Financial Section




                             Recoveries of prior year unpaid obligations
                                 Actual                                                                 3,325            3,067
                             Budget authority
                                 Appropriation                                                        204,673          201,359
                                 Spending authority from offsetting collections
                                       Earned
                                           Collected                                                   88,050           58,162
                                           Change in receivables from Federal sources                     (70)              94
                                       Change in unfilled customer orders
                                           Without advance from Federal sources                          96             (24)
                                           Previously unavailable                                         -          15,357
                             Subtotal budget authority                                              292,749         274,948
                      Total Budgetary Resources                                                   $ 305,857       $ 291,078

                      Status of Budgetary Resources:
                              Obligations incurred (Note 14)
                                  Direct                                                          $ 291,742       $ 280,905
                                 Reimbursable                                                           987             390
                                 Subtotal                                                           292,729         281,295
                              Unobligated balance
                                  Apportioned                                                        10,845           8,126
                                  Not available                                                       2,283           1,657
                      Total Status of Budgetary Resources                                         $ 305,857       $ 291,078
                      Change in Obligated Balance:
                             Obligated balance, net
                                Unpaid obligations, brought forward, October 1                    $ 69,086        $    56,088
                                Less: Uncollected customer payments from
                                       Federal sources, brought forward, October 1                       (293)           (224)
                             Total unpaid obligated balance, net                                       68,793          55,864

                            Obligations incurred, net (Note 14)                                        292,729         281,295
                            Less: Gross outlays                                                       (267,869)       (265,229)
                            Less: Recoveries of prior year unpaid obligations, actual                   (3,325)         (3,067)
                            Change in uncollected customer payments from Federal sources                   (26)            (70)
                            Obligated balance, net, end of period
                                       Unpaid obligations                                          90,622              69,086
                                       Uncollected customer payments from Federal sources            (320)               (293)
                            Total, unpaid obligated balance, net, end of period                  $ 90,302         $    68,793
                      Net Outlays:
                            Gross outlays                                                        $ 267,869        $ 265,229
                            Less: Offsetting collections                                           (88,050)         (58,162)
                            Less: Distributed offsetting receipts                                   (6,986)         (14,869)
                      Net Outlays                                                                $ 172,833        $ 192,198

                    The accompanying notes are an integral part of these statements.




   104                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
FEDERAL TRADE COMMISSION

STATEMENT OF CUSTODIAL ACTIVITY
FOR THE YEARS ENDED SEPTEMBER 30, 2010 AND 2009
(Dollars shown in thousands)

                                                                    PC         MC       2010       2009
  Revenue Activity (Note 17):




                                                                                                            Financial Section
      Sources of collections:
         Premerger filing fees (net of refunds)                 $     -     $72,858   $72,858   $42,148
         Civil penalties and fines                                2,097           -     2,097    12,756
         Redress (Note 18)                                        6,659           -     6,659    14,698
         Other miscellaneous receipts                               327           -       327       172
     Total cash collections                                       9,083      72,858    81,941    69,774
      Accrual adjustments                                         9,950           -     9,950      (123)
  Total Custodial Revenue                                       $19,033     $72,858   $91,891   $69,651

  Disposition of Collections (Note 17):
     Transferred to others:
         Treasury general fund                                  $ 9,083     $     -   $ 9,083   $27,626
         Department of Justice                                        -      72,858    72,858     57,072
     Increase / (decrease) in amounts yet to be transferred       9,950           -     9,950    (15,047)
  Total Disposition of Collections                              $19,033     $72,858   $91,891   $69,651
  Net Custodial Activity                                        $     -     $     -   $     -   $       -

The accompanying notes are an integral part of these statements.




                                                         FISCAL YEAR 2010                                    105
                    NOTES TO THE FINANCIAL
                    STATEMENTS
                    Note 1—Summary of Significant
                    Accounting Policies
                    (a) REPORTING ENTITY                                      are primarily comprised of proceeds derived from court
                                                                              ordered judgments and settlements held for subsequent
                    The Federal Trade Commission (FTC) is an                  distribution to approved claimants. These funds are
Financial Section




                    independent United States Government agency,              considered non-entity and are reported as such on the
                    established by the Federal Trade Commission Act of        Balance Sheet.
                    1914. The FTC enforces a variety of federal antitrust
                    and consumer protection laws. The agency is headed        (b) FUND ACCOUNTING STRUCTURE
                    by five Commissioners, nominated by the President
                    and confirmed by the Senate, each serving a seven-year    The FTC’s financial activities are accounted for using
                    term. The President chooses one Commissioner to act       various funds (i.e., Treasury Account Symbols (TAS)).
                    as Chairman. No more than three Commissioners can         They include the following for which the FTC maintains
                    be of the same political party.                           financial records:
                                                                              GENERAL FUND
                    The FTC has three major bureaus: The Bureau of
                    Consumer Protection (BCP), which supports the             TAS 29X0100 consists of a salaries and expense
                    strategic goal of protecting consumers, the Bureau of     appropriation used to fund agency operations and
                    Competition (BC), which supports the strategic goal of    capital expenditures. Offsetting collections received
                    maintaining competition, and the Bureau of Economics      during the year are also recorded in the general fund.
                    (BE), which supports both bureaus and strategic goals.    (See Note 13 Exchange Revenues.)
                    Additionally, various Offices provide mission support     DEPOSIT FUND
                    functions and services.
                                                                              TAS 29X6013 consists of monies held temporarily by
                                                                              the FTC as an agent for others (e.g., redress funds) prior
                    The majority of FTC staff is located in Washington
                                                                              to distribution through the consumer redress program.
                    DC; however, the FTC’s regions cover seven geographic
                    areas. The regional offices work with the BCP and         SUSPENSE FUND
                    BC to conduct investigations and litigation; provide      TAS 29F3875 consists of premerger filing fees collected
                    advice to state and local officials on the competitive    by the FTC under the Hart-Scott-Rodino (HSR)
                    implications of proposed actions; recommend cases;        Antitrust Improvement Act of 1976 that are distributed
                    provide local outreach services to consumers and          equally to the FTC as a funding source and to the
                    business persons; and coordinate activities with local,   Department of Justice (DOJ). (See Note 1(p) Revenues
                    state, and regional authorities. The regional offices     and Other Financing Sources).
                    frequently sponsor conferences for small businesses,
                    local authorities, and consumer groups.                   MISCELLANEOUS RECEIPT ACCOUNTS
                                                                              TAS 29 1040 and TAS 29 3220 consist of civil penalties,
                    The financial statements and notes include the            redress disgorgements to the Department of the
                    accounts of all funds under the FTC’s control. As         Treasury (Treasury) and other miscellaneous receipts
                    further described throughout these notes, in addition     that by law are not retained by the FTC. Cash balances
                    to appropriations received for salaries and necessary     are automatically transferred to the general fund of the
                    expenses, the FTC maintains control over funds that       Treasury at the end of each fiscal year.




   106                                 FEDERAL TRADE COMMISSION | Performance and Accountability Report
(c) BASIS OF ACCOUNTING AND                                  (f) ENTITY/NON-ENTITY ASSETS
PRESENTATION
                                                             Assets that an agency is authorized to use in its
The accompanying financial statements present the            operations are entity assets. Assets that an agency
financial position, net cost of operations, changes in net   holds on behalf of another federal agency or a third
position, budgetary resources, and custodial activities      party and are not available for the agency’s use are
of the FTC. As noted above, the FTC maintains a              non-entity assets.
single fund to account for salaries and all necessary
expenses. Further, there are no intra-entity transactions    (g) FUND BALANCE WITH TREASURY
with any other fund (e.g., deposit fund) that would
                                                             The FTC’s Fund Balance with Treasury (FBWT) includes
require eliminating entries to present consolidated




                                                                                                                         Financial Section
                                                             appropriated funds, deposit funds for subsequent
statements. Accordingly, the statements are not labeled
                                                             disbursement to claimants, and premerger filing fees
consolidated nor is the Statement of Budgetary
                                                             awaiting disbursement to the DOJ. Funds are carried
Resources (SBR) presented as combined. The financial
                                                             forward until such time as goods or services are received
statements have been prepared from the accounting
                                                             and payment is made. All cash receipts are deposited with
records of the FTC on an accrual basis, in conformity
                                                             the Treasury and all disbursements for payroll and vendor
with generally accepted accounting principles (GAAP)
                                                             invoices are disbursed by the Treasury.
of the United States of America and with the form
and content of financial statements specified by the
Office of Management and Budget (OMB) Circular               (h) CASH AND OTHER
A-136, Financial Reporting Requirements (as revised          MONETARY ASSETS
September 2010). GAAP for federal entities incorporate        The FTC’s consumer redress agents process claims and
the standards prescribed by the Federal Accounting           disburse redress proceeds to approved claimants. Upon
Standards Advisory Board.                                    approval of the redress office, amounts necessary to
                                                             cover current disbursement schedules are held as cash
(d) USE OF ESTIMATES                                         in interest bearing accounts. These funds are considered
The preparation of financial statements in conformity        non-entity assets and are reported on the Balance Sheet
with GAAP requires management to make estimates              along with an offsetting non-entity liability.
and assumptions that affect the reported amounts
of assets and liabilities at the date of the financial       (i) INVESTMENTS
statements and the reported amounts of revenues and          In protecting consumers, the FTC collects proceeds
expenses during the reporting period. Actual results         from defendants in accordance with court ordered
could differ from those estimates.                           judgments and settlement agreements for consumer
                                                             redress and holds these proceeds in the deposit fund
(e) BUDGET AUTHORITY                                         (TAS 29X6013) established with the Treasury. The FTC
Congress passes appropriations annually that provide         also holds monies in its deposit fund in connection
the FTC with authority to obligate funds for necessary       with a judgment that stipulates the divestiture of
expenses to carry out mandated program activities.           assets by the defendant. Under an agreement with
These funds are available until expended, subject to         the Treasury, the portion of such judgments and
OMB apportionment and to Congressional restrictions          settlements that are not immediately needed for cash
on the expenditure of funds. Also, the FTC places            disbursements are invested in Treasury securities. These
internal restrictions on fund expenditures to ensure         investments are considered non-entity assets and are
the efficient and proper use of all funds. Appropriated      reported on the Balance Sheet along with an offsetting
funding is derived from various revenues and financing       non-entity liability.
sources. The SBR reflects the single general fund (i.e.
TAS 29X0100) for which the FTC has budget authority.



                                                    FISCAL YEAR 2010                                                      107
                    (j) ACCOUNTS RECEIVABLE                                       CSRS Retirement and Disability Fund. For employees
                    Entity accounts receivable consist of amounts due             participating in FERS, the FTC contributes 11.2 percent
                    from other federal entities and from current and              to the Federal Employees’ Retirement Fund. Employees
                    former employees and vendors. Non-entity accounts             participating in FERS are covered under the Federal
                    receivable include uncollected civil monetary penalties       Insurance Contributions Act (FICA) for which the FTC
                    imposed as a result of the FTC’s enforcement activities       contributes a matching amount to the Social Security
                    and uncollected redress judgments. These non-entity           Administration. FTC contributions are recognized as
                    accounts receivable are reported on the Balance Sheet         current operating expenses.
                    along with an offsetting non-entity liability. Gross
                    receivables are reduced to net realizable value by an         The Thrift Savings Plan (TSP) is a defined contribution
Financial Section




                    allowance for uncollectible accounts. (See Note 6             retirement savings and investment plan for employees
                    Accounts Receivable.)                                         covered by either CSRS or FERS. Participating
                                                                                  employees may contribute any dollar amount or
                    (k) ACCRUED LIABILITIES AND                                   percentage of basic salary to TSP, not to exceed an
                                                                                  annual dollar amount of $16,500 for 2010. CSRS
                    ACCOUNTS PAYABLE
                                                                                  participating employees do not receive a matching
                    Accrued liabilities and accounts payable represent a
                                                                                  contribution from the FTC. FERS employees receive
                    probable future outflow or other sacrifices of resources
                                                                                  an agency automatic one percent contribution of gross
                    as a result of past transactions or events. Liabilities
                                                                                  pay to the TSP. The FTC also matches 100 percent of
                    are recognized when they are incurred, regardless
                                                                                  the first three percent contributed and 50 percent of the
                    of whether they are covered by budgetary resources.
                                                                                  next two percent contributed. Such FTC contributions
                    Liabilities cannot be liquidated without legislation that
                                                                                  are recognized as current operating expenses.
                    provides the resources to do so. Also, the government,
                    acting in its sovereign capacity, can abrogate FTC
                                                                                  Although the FTC contributes a portion for pension
                    liabilities (other than contracts). (See Note 8 Liabilities
                                                                                  benefits and makes the necessary payroll withholdings,
                    Not Covered by Budgetary Resources and Note 9
                                                                                  it is not responsible for managing contribution refunds,
                    Other Liabilities.)
                                                                                  employee’s retirement benefits, or the retirement
                                                                                  plan assets. Therefore, the FTC financial statements
                    (l) EMPLOYEE HEALTH BENEFITS AND                              do not report CSRS and FERS assets, accumulated
                    LIFE INSURANCE                                                plan benefits, or unfunded liabilities, if any, which
                    FTC employees are eligible to participate in the              may be applicable to employees. Such reporting is the
                    contributory Federal Employees Health Benefit                 responsibility of the Office of Personnel Management
                    Program (FEHBP) and the Federal Employees                     (OPM). However, the FTC recognizes the full cost of
                    Group Life Insurance Program (FEGLIP). The FTC                providing future pension benefits to covered employees
                    contributes a percentage to each program to pay for           at the time the employees’ services are rendered. OPM
                    current benefits.                                             has provided the FTC with certain cost factors that
                                                                                  estimate the true service cost of providing the pension
                    (m) EMPLOYEE RETIREMENT BENEFITS                              benefits to covered employees. During FYs 2010 and
                    FTC employees participate in either the Civil Service         2009, the cost factors used to arrive at the service cost
                    Retirement System (CSRS) or the Federal Employees             for CSRS covered employees were 30.1 percent and 25.8
                    Retirement System (FERS). Employees hired after               percent of basic pay, respectively. During FYs 2010 and
                    December 31, 1983, are covered by FERS and Social             2009, the cost factors for FERS covered employees were
                    Security, while employees hired prior to January 1, 1984,     13.8 and 12.3 percent of basic pay, respectively. The
                    may elect to either join FERS or remain in CSRS. For          pension expense recognized in the financial statements
                    employees participating in CSRS, the FTC contributes          equals this service cost to covered employees less
                    seven percent of the employee’s gross earnings to the         amounts contributed by these employees. If the pension




   108                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
expense exceeds the amount contributed by the FTC            reimbursable agreements with other federal agencies.
as employer, the excess is recognized as an imputed          All of the FTC’s offsetting collections are exchange
financing cost. The excess total pension expense over        revenues. (See Note 13 Exchange Revenues.)	
the amount contributed by the agency must be financed
by OPM and is recognized as an imputed financing             In addition to exchange revenue, the FTC receives
source on the records of the FTC.                            funding through a direct appropriation from the general
                                                             fund of the Treasury to support its operations. The
(n) OTHER POST-EMPLOYMENT BENEFITS                           direct appropriation represented approximately 67
FTC employees eligible to participate in the FEHBP           percent of total budgetary resources in FY 2010 and 69
and the FEGLIP may continue to participate in these          percent in FY 2009.




                                                                                                                           Financial Section
programs after their retirement. The OPM has provided
the FTC with certain cost factors that estimate the true     (q) METHODOLOGY FOR ASSIGNING
cost of providing the post-retirement benefit to current     COSTS AND EXCHANGE REVENUES
employees. The FTC recognizes a current cost for these       Total net costs are allocated to the protect consumers
and Other Retirement Benefits (ORB) at the time the          strategic goal and the maintain competition strategic
employee’s services are rendered. The ORB expense is         goal. (See Statement of Net Costs.) Costs and exchange
financed by OPM, and offset by the FTC through the           revenues that are identified specifically with each of
recognition of an imputed financing source. During           these two strategic goals are charged or credited directly.
FYs ended 2010 and 2009, the cost factors relating           Other costs not directly attributable to these two goals
to FEHBP were $5,906 and $5,756, respectively, per           are allocated based on the percentage of direct full-
employee enrolled. During FYs 2010 and 2009, the cost        time equivalents used by each of these two goals. These
factor relating to FEGLIP was 0.02 percent of basic pay      other indirect costs include costs related to the advance
per employee enrolled.                                       performance strategic goal.

(o) NET POSITION
Cumulative results of operations represent the net results   Note 2—Non-entity Assets
of operations since inception, the cumulative amount of      Non-entity Fund Balance with Treasury is comprised
prior period adjustments, the remaining book value of        of undisbursed premerger filing fees and deposits
capitalized assets, and future funding requirements.         held for the consumer redress program. Investments
                                                             represent funds not required for current distribution
The portion of FTC’s budget authority that is funded         for consumer redress. Cash and other Monetary Assets
by a direct appropriation is fully expended during the       consist of amounts on deposit with FTC distribution
year. Therefore, there is no unexpended appropriation        agents. Accounts receivable represent amounts due from
balance in net position at the end of the year. (See         consumer redress judgments and civil penalties.
Statement of Changes to Net Position.)

(p) REVENUES AND OTHER
FINANCING SOURCES
The FTC’s funding is derived from spending authority
from offsetting collections revenue and from direct
appropriation. Spending authority from offsetting
collections is comprised of collections of premerger
fees under the authority of the HSR Act, collection of
fees related to the Do-Not-Call (DNC) Implementation
Act, and amounts received for services performed under




                                                    FISCAL YEAR 2010                                                        109
                    Non-entity assets consisted of the following as of September 30, 2010 and 2009 (in thousands):


                                                                                                              2010                            2009
                       Intragovernmental:
                           Fund balance with Treasury                                                   $     6,056                     $     2,731
                           Investments                                                                      199,105                          94,848
                       Total intragovernmental                                                              205,161                          97,579

                          Cash and other monetary assets                                                   21,473                          18,141
                          Accounts receivable, net                                                         48,170                          55,546
Financial Section




                       Total non-entity assets                                                            274,804                         171,266
                       Total entity assets                                                                121,580                          94,208
                       Total assets                                                                     $ 396,384                       $ 265,474




                    Note 3—Fund Balance with Treasury
                    Fund balance includes appropriated funds, which are                    also includes non-entity funds arising from undisbursed
                    either unobligated, or obligated as an account payable or              HSR filing fees due to the DOJ and collections of
                    undelivered order and not yet disbursed. Fund balance                  redress judgments not yet disbursed to claimants.

                    Fund Balance with Treasury consisted of the following as of September 30, 2010 and 2009 (in thousands):

                                                                                                              2010                             2009
                       Fund Balances:
                          Appropriated funds                                                            $ 103,430                           $ 78,576
                          Suspense fund - undisbursed HSR filing fees                                         585                                433
                          Deposit funds - redress                                                           5,471                              2,298
                       Total                                                                            $ 109,486                           $ 81,307


                       Status of Fund Balance with Treasury
                          Unobligated balance
                             Apportioned                                                                $ 10,845                            $ 8,126
                             Unavailable                                                                   2,283                              1,657
                          Obligated balance not yet disbursed                                             90,302                             68,793
                          Non-Budgetary fund balance with Treasury:
                             Suspense fund - undisbursed HSR filing fees                                      585                                433
                             Deposit funds - redress                                                        5,471                              2,298
                       Total                                                                            $ 109,486                           $ 81,307




   110                                     FEDERAL TRADE COMMISSION | Performance and Accountability Report
Note 4—Cash and Other                                                 Note 5—Investments
Monetary Assets                                                       Funds not needed to cover immediate disbursements
In connection with the consumer redress program,                      for consumer redress are invested in Government
cash amounts necessary to cover current disbursement                  Account Series (GAS) securities under an agreement
schedules are held at financial institutions in interest              with the Bureau of Public Debt. GAS securities are
bearing accounts pursuant to court orders and are                     non-marketable, market-based Treasury securities that
reported as non-entity assets. A corresponding liability              are not traded on any securities exchange but mirror the
is recorded for these assets. The FTC’s consumer                      prices of particular Treasury securities trading in the
redress agents process claims and disburse redress                    government securities market. Additionally, funds from




                                                                                                                                          Financial Section
proceeds to claimants upon approval of the redress                    one judgment where divesting of assets was required
office. (See Note 18 Redress and Divestiture Activities.)             to maintain competition have also been invested. (See
                                                                      Note 18 Redress and Divestiture Activities.)
Cash and other monetary assets consisted of the following as of
September 30, 2010 and 2009 (in thousands):

                                                                    2010                       2009
Cash and other monetary assets:
      Redress contractors                                         $21,473                    $18,141
Total cash and other monetary assets                              $21,473                    $18,141




As of September 30, 2010, investments consisted of the following (in thousands):

                                                                                                                            Market
                                             Amortization Amortized Interest               Investment        Other
                                 Cost                     (Premium)                                                          Value
                                               Method      Discount Receivable                Net         Adjustments
                                                                                                                           Disclosure
Intragovernmental
Securities:
Non-Marketable:
      Market-Based                $199,105              n/a                -           -       $199,105            -          $199,105
Total                             $199,105              n/a                -           -       $199,105            -          $199,105



As of September 30, 2009, investments consisted of the following (in thousands):

                                                          Amortized                                                         Market
                                             Amortization            Interest              Investment        Other
                                Cost                      (Premium)                                                          Value
                                               Method               Receivable                Net         Adjustments
                                                           Discount                                                        Disclosure
Intragovernmental
Securities:
Non-Marketable:
      Market-Based                 $94,848              n/a            -           -           $94,848                 -       $94,848
Total                              $94,848              n/a            -           -          $94,848               -           $94,848




                                                              FISCAL YEAR 2010                                                             111
                    Note 6—Accounts Receivable
                    Opening accounts receivable balances reflect the                       historical experience and economic realities indicate that
                    Federal Accounting Standards Advisory Board                            these types of claims are frequently not fully collectible.
                    (FASAB) standard for the recognition of losses using
                    the collection criterion of “more likely than not.” This               The method used to estimate the allowance for
                    criterion results in receivable balances that are more                 uncollectible receivables consists of individual case
                    conservatively stated than those valued by the private                 analysis by the attorney case manager with respect to the
                    sector under generally accepted accounting principles.                 debtor’s ability and willingness to pay, the defendant’s
                    FASAB states that it is appropriate to recognize the                   payment record, and the probable recovery amount
Financial Section




                    nature of federal receivables, which, unlike trade                     including the value of the sale of assets. Based on the
                    accounts of private firms or loans made by banks, are                  aforementioned, cases are referred to the Treasury
                    not created through credit screening procedures. Rather,               Offset Program for collection activities after the
                    these receivables arise because of the assessment of                   receivable becomes six months delinquent in payment.
                    fines from regulatory violations. In these circumstances,



                    Accounts receivable consisted of the following as of September 30, 2010 and 2009 (in thousands):


                                                                                             Allowance for
                                                                          Gross
                                                                                             Uncollectible             2010 Net        2009 Net
                                                                        Receivables
                                                                                               Accounts
                        Entity accounts receivable:
                         Intragovernmental                                    $       71            $         -            $      71         $    141
                         With the Public                                              19                      -                   19               18

                        Total entity acounts receivable                       $       90            $         -            $      90         $    159

                        Non-entity accounts receivable:
                         Consumer redress                                     $ 651,174             $613,004               $38,170           $55,496
                         Civil penalties                                        20,322                10,322                10,000                50

                        Total non-entity accounts receivable                  $671,496              $623,326               $48,170           $55,546




   112                                     FEDERAL TRADE COMMISSION | Performance and Accountability Report
Note 7—General Property and                                           Amounts reported as equipment are comprised mostly of
                                                                      computer hardware and other building equipment. The
Equipment, Net                                                        FTC does not own buildings, but rather, in partnership
FTC capitalizes property and equipment with an                        with General Services Administration (GSA) leases both
initial cost of $100 thousand or greater and a useful                 federally owned (by GSA) and commercial space. (See
life over two years. Such assets are depreciated using                Note 10 Leases.) The leasehold improvements above
the straight-line method of depreciation with service                 consist of improvements made to the FTC headquarters
lives ranging from five to twenty years. Leasehold                    building located in Washington DC (which is owned by
improvements that cost $100 thousand or greater are                   the GSA), and to FTC commercially leased space also
capitalized and amortized over the remaining life of the              located in Washington DC.




                                                                                                                                    Financial Section
lease. Additionally, internal use software development
and acquisition costs of $100 thousand or greater are                 Depreciation expense was $3,073 and $2,416
capitalized as software development-in-progress until the             thousand for fiscal years ending September 30,
development stage has been completed and the software                 2010 and 2009, respectively, and is contained in the
successfully tested. Upon completion and testing,                     accumulated depreciation.
software development-in-progress costs are reclassified
as internal use software costs and amortized using the
straight-line method over the estimated useful life of
three to five years. Purchased commercial software that
does not meet the capitalization criteria is expensed.


As of September 30, 2010, general property and equipment, net consisted of the following (in thousands):

                                             Service                Acquisition             Accumulated                Net
            Asset Class
                                              Life                    Value                 Depreciation            Book Value
   Equipment                                        5-20 yrs.                $ 9,975                   $ 7,814            $ 2,161
   Leasehold improvements                         lease term                  14,080                     3,824             10,256
   Software                                          3-5 yrs.                 13,796                     8,153              5,643
   Total                                                                     $37,851                   $19,791            $18,060


As of September 30, 2009, general property and equipment, net consisted of the following (in thousands):

                                             Service                Acquisition             Accumulated                Net
           Asset Class
                                              Life                    Value                 Depreciation            Book Value
   Equipment                                        5-20 yrs.                 $8,089                       $7,026          $1,063
   Leasehold improvements                         lease term                  13,419                        2,872          10,547
   Software                                          3-5 yrs.                 10,683                        6,820           3,863
   Total                                                                     $32,191                  $16,718             $15,473




                                                            FISCAL YEAR 2010                                                         113
                    Note 8—Liabilities Not Covered by Budgetary Resources
                    Intragovernmental liabilities and liabilities with the public not covered by budgetary resources as of
                    September 30, 2010 and 2009 are shown below (in thousands):

                                                                                                                                  2010              2009
                        Intragovernmental:
                             Undisbursed premerger fees liability                                                            $     585         $     433
Financial Section



                             Civil penalty collections due to Treasury                                                           10,000               50
                             FECA liability                                                                                        439               436
                             Other Unfunded Employment Related Liability                                                            16                12
                             Total intragovernmental liabilities not covered by budgetary resources                              11,040              931



                        With the public :
                            Accrued redress receivables due to claimants                                                       38,170            55,496
                            Redress collected not yet disbursed                                                               180,526            69,746
                            Divestiture fund due                                                                               45,523            45,542
                            Unfunded leave                                                                                     10,683             9,787
                            Actuarial FECA                                                                                      2,162             2,173
                        Total liabilities not covered by budgetary resources                                                 $288,104          $183,675
                        Total liabilities covered by budgetary resources                                                         20,630            21,408
                        Total liabilities                                                                                    $308,734          $205,083




                    Undisbursed Premerger Fees Liability                                      liability is based on the liability to benefits paid ratio
                    represents undisbursed filing fees collected under the                    provided by DOL multiplied by the average of benefits
                    HSR Act, which are due to the DOJ in a subsequent                         paid over three years.
                    period.
                                                                                              Accrued Redress Receivables Due to
                    Civil Penalty Collections Due to Treasury                                 Claimants represents the contra account for accounts
                    represents the corresponding liability relative to                        receivable due from judgments obtained as a result of
                    accounts receivable due for civil monetary penalties,                     the agency’s consumer redress litigation.
                    which will be transferred to the general fund of the
                    Treasury upon receipt.                                                    Redress Collected Not Yet Disbursed
                                                                                              represents a non-entity liability corresponding to
                    Federal Employee’s Compensation Act                                       amounts reported as non-entity assets (including Fund
                    (FECA) Liability represents the unfunded liability                        Balance with Treasury, Cash and Other Monetary Assets
                    for workers compensation claims payable to the                            and Investments for TAS 29X6013). These funds are
                    Department of Labor (DOL) and an actuarial liability                      held until distributed to consumers or returned to
                    for future workers’ compensation claims. The actuarial                    Treasury through disgorgement.




   114                                       FEDERAL TRADE COMMISSION | Performance and Accountability Report
Divestiture Fund Due represents the                                  and adjusted as needed to accurately reflect the liability at
corresponding liability offsetting the amount reported               current pay rates and leave balances. Accrued annual leave
as non-entity assets (investments) held by the FTC                   is paid from future funding sources and, accordingly, is
pending divesture of assets pursuant to a court ordered              reflected as a liability not covered by budgetary resources.
judgment. These funds are currently invested in                      Sick and other leave is expensed as taken.
Treasury securities. (See Note 5 Investments.)
                                                                     Actuarial FECA represents the present value of
Unfunded Leave represents a liability for earned                     future workers’ compensation claims.
leave and is reduced when leave is taken. The balance in




                                                                                                                                     Financial Section
the accrued annual leave account is reviewed quarterly



Note 9—Other Liabilities
The following summarizes Other Liabilities as of September 30, 2010 and 2009 (in thousands):


                                                                 2010                           2010
                                                                                                                2010 Total
                                                              Non-Current                      Current
   Intragovernmental:
          Accrued benefits                                                $      -                 $ 1,550              $ 1,550
          Undisbursed premerger liability                                        -                     585                  585
          Civil penalty collection due to Treasury                               -                  10,000               10,000
          FECA liability                                                      439                         -                  439
          Total Intragovernmental                                             439                    12,135               12,574

   Accrued salary                                                              -                       7,796               7,796
   Accrued leave                                                               -                      10,683              10,683
   Actuarial FECA                                                          2,162                           -               2,162
   Total Other Liabilities                                                $2,601                    $ 30,614             $33,215



                                                                 2009                           2009
                                                                                                                2009 Total
                                                              Non-Current                      Current
   Intragovernmental:
          Accrued benefits                                                $     -                   $ 1,346             $ 1,346
          Undisbursed premerger liability                                       -                       433                 433
          FECA liability                                                      436                         -                 436
          Civil penalty collection due to Treasury                              -                        50                  50
          Total Intragovernmental                                             436                     1,829               2,265

   Accrued salary                                                              -                       6,824              6,824
   Accrued leave                                                               -                       9,787              9,787
   Actuarial FECA                                                          2,173                           -              2,173
   Total Other Liabilities                                                $2,609                    $ 18,440            $21,049




                                                           FISCAL YEAR 2010                                                           115
                      Note 10—Leases                                                         Note 11—Commitments and
                      Leases of commercial property are made through
                                                                                             Contingencies
                      and managed by GSA. The FTC has leases on three                        The FTC is a party in various administrative proceedings,
                      government-owned properties and eight commercial                       legal actions, and claims brought by or against it. In the
                      properties. The FTC’s current leases expire at various                 opinion of FTC management and legal counsel, the
                      dates through 2019. Four leases provide for tenant                     ultimate resolution of these proceedings, actions, and
                      improvement allowances totaling approximately $3,811                   claims, will not materially affect the financial position or
                      thousand and provide that these costs be amortized                     the results of operations of the FTC.
                      over the length of the leases. Under the terms of the
Financial Section




                      leases, the FTC agrees to reimburse the landlord for the
                      principal balance of the unamortized portion of the                    Note 12—Intragovernmental Costs
                      tenant improvement allowance in the event the agency                   and Exchange Revenues
                      vacates the space before lease expiration. The FTC
                      rents approximately 630,661 square feet of space in                    For ‘exchange revenue with the public,’ the buyer
                      both commercial and government-owned properties for                    of the goods or services is a non-federal entity. For
                      use as offices, storage and parking. All FTC leases are                ‘intragovernmental costs’ the buyer and seller are both
                      operating leases. Rent expenditures for the years ended                federal entities. If a federal entity purchases goods or
                      September 30, 2010 and 2009, were approximately                        services from another federal entity and sells them to
                      $20,714 and $19,126 thousand respectively.                             the public, the exchange revenue would be classified
                                                                                             as ‘with the public,’ but the related costs would be
                      Future minimum lease payments due under leases of                      classified as ‘intragovernmental.’ The purpose of
                      government-owned property as of September 30, 2010,                    this classification is to enable the federal government
                      are as follows (in thousands):                                         to provide consolidated financial statements, and
                                                                                             not to match public and intragovernmental revenue
                    Fiscal Year                                                              with costs that are incurred to produce public and
                      2011                                                     $ 6,920       intragovernmental revenue.
                      2012                                                       6,857
                      2013                                                       6,810
                      2014                                                       6,523
                      2015                                                         224
                      Thereafter                                                   881
                      Total Future Minimum Lease Payments                      $28,215


                      Future minimum lease payments under leases of commercial
                      property due as of September 30, 2009 are as follows (in thousands):

                    Fiscal Year
                      2011                                                    $ 15,347
                      2012                                                      13,421
                      2013                                                       3,963
                      2014                                                       3,919
                      2015                                                       1,662
                      Thereafter                                                 2,988
                      Total Future Minimum Lease Payments                      $41,300




   116                                       FEDERAL TRADE COMMISSION | Performance and Accountability Report
For the FYs ended September 30, intragovernmental and public costs and exchange revenues are as follows (in thousands):

                                                                                                   2010                       2009
   Protect Consumers (PC) Strategic Goal:
         Intragovernmental gross costs                                                        $ 40,985                    $ 36,121
         Public costs                                                                          117,473                     111,111
   Total PC strategic goal costs                                                               158,458                     147,232


         Intragovernmental earned revenue                                                          (257)                      (253)
         Public earned revenue                                                                  (14,169)                   (15,694)




                                                                                                                                       Financial Section
   Total PC strategic goal earned revenue                                                      (14,426)                    (15,947)
   Total PC strategic goal net costs                                                           144,032                     131,285

   Maintain Competition (MC) Strategic Goal:
        Intragovernmental gross costs                                                           30,169                      26,917
        Public costs                                                                            86,473                      82,801
   Total MC strategic goal costs                                                               116,642                     109,718


         Intragovernmental earned revenue                                                         (696)                        (161)
         Public earned revenue                                                                 (72,858)                    (42,148)
   Total MC strategic goal earned revenue                                                      (73,554)                    (42,309)
   Total MC strategic goal net costs                                                            43,088                      67,409


   Net cost of operations                                                                     $187,120                    $198,694




Note 13—Exchange Revenues                                             Exchange revenues are also earned through the
                                                                      collection of fees for the National DNC Registry. This
Exchange revenues are earned through the collection of
                                                                      Registry operates under Section 5 of the FTC Act,
fees under the HSR Act. This Act, in part, requires the
                                                                      which enforces the Telemarketing Sales Rule. The Do-
filing of premerger notifications with the FTC and the
                                                                      Not-Call Implementation Act, Public Law No. 108-010,
Antitrust Division of the DOJ and establishes a waiting
                                                                      gives the FTC authority to establish fees sufficient to
period before certain acquisitions may be consummated.
                                                                      offset enforcement of the provisions related to the
Mergers with transaction valuation above $63.4 million
                                                                      Registry. Telemarketers are required to pay an annual
require the acquiring party to pay a filing fee. The filing
                                                                      subscription fee and download from the DNC Registry
fees are based on the transaction amount and follow
                                                                      database a list of telephone numbers of consumers
a three-tiered structure: $45, $125 and $280 thousand.
                                                                      who do not wish to receive calls. Fees are based on the
The FTC collects all HSR premerger fees, retains
                                                                      number of area codes downloaded. Data for up to five
one-half, and remits 50 percent to the DOJ Antitrust
                                                                      area codes is free. Effective October 1, 2009, the annual
Division pursuant to public law. Revenue is recognized
                                                                      fee per area code download increased from $54 to $55.
upon collection of the appropriate fee and verification
                                                                      The maximum annual fee increased from $14,850 to
of proper documentation.
                                                                      $15,058. Revenue is recognized when collected and the
                                                                      telemarketer is given access to the requested data.




                                                            FISCAL YEAR 2010                                                            117
                    Exchange revenue is also earned for services provided
                    to other government agencies through reimbursable                     Note 15—Explanation of
                    agreements. The FTC recovers the full cost of services,
                    primarily salaries and related expenses. Revenue is
                                                                                          Differences between the
                    earned at the time the expenditures are incurred against              Statement of Budgetary
                    the reimbursable order. All exchange revenues are                     Resources and the Budget of the
                    deducted from the full cost of the FTC’s programs to                  United States Government
                    arrive at net program cost.
                                                                                          There are no material differences between amounts
                                                                                          reported in the FY 2009 Statement of Budgetary
Financial Section




                    For the FYs ended September 30, exchange revenue consisted of         Resources and the FY 2009 actual amounts as
                    the following (in thousands):                                         reported in the FY 2011 Budget of the United States
                                                                                          Government. The FY 2012 Budget of the United States
                                                        2010              2009
                                                                                          is not available to compare FY 2010 actual amounts to
                      HSR premerger filing fees           $72,858           $42,148
                                                                                          the FY 2010 Statement of Budgetary Resources.
                      Do Not Call registry fees            14,169            15,694
                      Reimbursable agreements                 953               414
                      Total                               $87,980           $58,256
                                                                                          Note 16—Undelivered Orders at
                                                                                          the End of the Period
                                                                                          The amount of budgetary resources obligated for
                                                                                          undelivered orders as of September 30, 2010 and 2009
                                                                                          is $69,991 and $47,677 thousand respectively.
                    Note 14—Apportionment
                    Categories of Obligations
                    Incurred: Direct vs. Reimbursable
                    Obligations

                    APPORTIONMENT CATEGORIES OF
                    OBLIGATIONS INCURRED
                    Obligations incurred reported on the Statement of Budgetary
                    Resources in FY 2010 and FY 2009 consisted of the following
                    (in thousands):


                                                        2010              2009
                      Direct Obligations:
                        Category A                        $291,742         $265,548
                        Expenditures transferred
                          to DOJ of HSR fees                        -         15,357
                                                           291,742          280,905

                      Reimbursable Obligations:
                       Category B                              987                  390
                        Total                             $292,729         $281,295




   118                                     FEDERAL TRADE COMMISSION | Performance and Accountability Report
Note 17—Custodial Activities                                    Other line items on the SCA include:

The primary custodial activities of the FTC are:                ACCRUAL ADJUSTMENTS

PREMERGER FILING FEES                                           The accrual adjustment for FY 2010 represents the
                                                                difference between the FTC’s opening and closing
All HSR premerger filing fees are collected by the FTC          accounts receivable, net balances for civil penalties.
pursuant to 15 U.S.C. 18a notes, as amended, and are
divided evenly between the FTC and the DOJ. During              (INCREASE) IN AMOUNTS YET TO BE
FY 2010 and FY 2009, the FTC collected $145,716 and             TRANSFERRED




                                                                                                                             Financial Section
$84,295 thousand respectively, in HSR premerger filing
fees. The amounts designated for the DOJ as reported            An offsetting liability is established for custodial funds
on the SCA were $72,858 thousand for FY 2010 and                due to be collected (receivable).
$42,148 thousand for FY 2009. Undistributed fees to
the DOJ at September 30, 2010 and 2009 were $585                Note 18—Redress and Divestiture
and $433 thousand, respectively.                                Activities

CIVIL PENALTIES AND FINES                                       REDRESS
                                                                The FTC obtains consumer redress in connection with
Civil penalties collected in connection with the
                                                                the settlement or litigation of both its administrative
settlement or litigation of the FTC’s administrative
                                                                proceedings and its federal court cases. The FTC
or federal court cases are collected by either the FTC
                                                                attempts to distribute funds thus obtained to consumers
or the DOJ as provided for by law. The FTC deposits
                                                                whenever possible. If consumer redress is not practical,
these collections into the Treasury. Civil penalties
                                                                the funds are paid (disgorged) to the Treasury, or
collected also include amounts collected for undecided
                                                                on occasion, other alternatives, such as consumer
civil penalty cases that are held until final disposition of
                                                                education, are permitted. Major components of the
the case. All civil penalties collected are disgorged to the
                                                                program include eligibility determination, disbursing
general fund of the Treasury at the end of the year.
                                                                redress to claimants, and accounting for the disposition
                                                                of these funds. Collections made against court-ordered
REDRESS
                                                                judgments totaled $170,270 and $75,301 thousand
Collections for redress reported on the SCA are limited to      during FYs 2010 and 2009, respectively.
those collections that have been disgorged to the Treasury.
Collections for redress that are distributed to claimants are   DIVESTITURE FUND
disclosed in Note 18 Redress and Divestiture Activities.
                                                                One judgment (obtained by the FTC in support of
Collections disgorged to the Treasury were $6,659
                                                                its strategic goal to maintain competition) stipulates
thousand for FY 2010 and $14,698 thousand for FY 2009.
                                                                the divestiture of assets by the defendants into an
                                                                interest-bearing account to be monitored by the agency.
                                                                The account balance represents principal and related
                                                                interest held in the Treasury’s Bureau of Public Debt. A
                                                                corresponding liability is recorded.




                                                       FISCAL YEAR 2010                                                       119
                    Redress and divestiture fund activities for FY’s 2010 and 2009 consist of (in thousands):

                                                                                                                     2010       2009
                    Redress
                       Fund Balance with Treasury
                            Beginning balance                                                                   $ 2,298      $ 2,507
                            Collections                                                                          170,270       75,301
                            Disbursements to claimants                                                              (483)        (261)
                            Disgorgements to Treasury                                                             (6,659)     (14,698)
Financial Section




                             Transfers, expenses, refunds                                                        (159,955)    (60,551)
                       Ending balance                                                                           $   5,471    $ 2,298

                       Cash and Other Monetary Assets
                           Beginning balance                                                                      $18,141    $ 10,485
                           Disbursements to claimants                                                             (47,683)    (68,910)
                           Transfers, expenses, interest income                                                    51,015     76,566
                       Ending balance                                                                           $ 21,473     $ 18,141

                       Investments
                           Beginning balance                                                                    $ 49,306     $72,028
                           Transfers, expenses, interest income                                                  104,276     (22,722)
                       Ending balance                                                                           $ 153,582    $49,306

                       Accounts Receivable, Net
                           Beginning balance                                                                    $ 55,496     $ 87,800
                           Net Activity                                                                           (17,326)   (32,304)
                       Ending balance                                                                           $ 38,170     $ 55,496

                       Divestiture Fund:
                       Investments
                           Beginning balance                                                                    $ 45,542     $ 45,485
                           Interest, net of expenses                                                                  (19)         57
                       Ending balance                                                                           $ 45,523     $45,542




   120                                      FEDERAL TRADE COMMISSION | Performance and Accountability Report
Note 19 – Reconciliation of Net Cost of Operations to Budget
                                                                                             2010        2009
 Resources Used to Finance Activities:
 Budgetary Resources Obligated
        Obligations incurred                                                            $292,729     $281,295
        Less: Spending authority from offsetting collections and recoveries               (91,401)     (76,656)
        Obligations net of offsetting collections and recoveries                         201,328      204,639




                                                                                                                  Financial Section
 Other Resources
        Imputed financing from costs absorbed by others                                    9,706        7,650
        Net other resources used to finance activities                                     9,706        7,650
        Total resources used to finance activities                                       211,034      212,289

 Resources Used to Finance Items not Part of the Net Cost of Operations:
         Change in budgetary resources obligated for goods,
         services and benefits ordered but not yet provided                              (22,218)     (14,274)
         Resources that finance the acquisition of assets                                 (5,660)      (2,791)
         Total resources used to finance items not part of the net cost of operations    (27,878)     (17,065)
 Total resources used to finance the net cost of operations                              183,156      195,224


 Components of the Net Cost of Operations that will not Require or
 Generate Resources in the Current Period:
        Components Requiring or Generating Resources in Future Periods:
        Increase in annual leave liability                                                   896          729
        Other                                                                                 (5)         325
          Total components of Net Cost of Operations that will require or
          generate resources in future periods                                               891        1,054


          Components not Requiring or Generating Resources:
          Depreciation and amortization                                                    3,073        2,416
          Total Components of Net Cost of Operations that will not require or
          generate resources                                                               3,073        2,416
 Total components of net cost of operations that will not require or
 generate resources in the current period                                                  3,964        3,470

 Net Cost of Operations                                                                 $ 187,120    $198,694




                                                            FISCAL YEAR 2010                                       121
Other Accompanying Information




      122                        FEDERAL TRADE COMMISSION | Performance and Accountability Report
OT HER    ACCOMPANYING
         INFORMATION




          FISCAL YEAR 2010   123
                                 INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND
                                 PERFORMANCE CHALLENGES
Other Accompanying Information




      124                               FEDERAL TRADE COMMISSION | Performance and Accountability Report
INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




                                                          Other Accompanying Information




                             FISCAL YEAR 2010               125
                                 INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
                                 CHALLENGES (CONTINUED)
Other Accompanying Information




      126                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




                                                          Other Accompanying Information




                             FISCAL YEAR 2010               127
                                 INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
                                 CHALLENGES (CONTINUED)
Other Accompanying Information




      128                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES (CONTINUED)




                                                          Other Accompanying Information




                             FISCAL YEAR 2010               129
                                 INSPECTOR GENERAL-IDENTIFIED MANAGEMENT AND PERFORMANCE
                                 CHALLENGES (CONTINUED)
Other Accompanying Information




      130                                   FEDERAL TRADE COMMISSION | Performance and Accountability Report
CHAIRMAN’S RESPONSE TO IG CHALLENGES




                                       Other Accompanying Information




                   FISCAL YEAR 2010      131
                                 Summary of Financial Statement Audit and Management Assurances

                                 TABLE 1: SUMMARY OF FINANCIAL STATEMENT AUDIT

                                  AUDIT OPINION                                              Unqualified


                                  RESTATEMENT                                                    No


                                                               Beginning                                                   Ending
                                                                                 New          Resolved      Consolidated
Other Accompanying Information




                                                                Balance                                                    Balance
                                  MATERIAL WEAKNESSES
                                                                   0              0               0              0           0


                                  TOTAL MATERIAL
                                                                   0              0               0              0           0
                                  WEAKNESSES




      132                                         FEDERAL TRADE COMMISSION | Performance and Accountability Report
TABLE 2: SUMMARY OF MANAGEMENT ASSURANCES

 Effectiveness of Internal Control Over Financial Reporting (Federal Managers’
 Financial Integrity Act (FMFIA) Para. 2)

 STATEMENT OF
                                                        Unqualified
 ASSURANCE

                         Beginning                                                       Ending
                                           New           Resolved      Consolidated
                          Balance                                                        Balance




                                                                                                   Other Accompanying Information
 MATERIAL WEAKNESSES

                            0               0               0               0                 0

 TOTAL MATERIAL
                            0               0               0               0                 0
 WEAKNESSES


 Effectiveness of Internal Control Over Operations (FMFIA Para. 2)

 STATEMENT OF
                                                        Unqualified
 ASSURANCE

                         Beginning                                                       Ending
                                           New           Resolved      Consolidated
                          Balance                                                        Balance
 MATERIAL WEAKNESSES

                            0               0               0               0                 0

 TOTAL MATERIAL
                            0               0               0               0                 0
 WEAKNESSES


 Conformance with Financial Management System Requirements (FMFIA Para. 4)

 STATEMENT OF
                                Systems conform to financial management system requirements
 ASSURANCE

                         Beginning                                                       Ending
                                           New           Resolved      Consolidated
                          Balance                                                        Balance
 NON-CONFORMANCES

                            0               0               0               0                 0


 TOTAL NON-
                            0               0               0               0                 0
 CONFORMANCES




                                        FISCAL YEAR 2010                                             133
                                 IMPROPER PAYMENTS
                                 INFORMATION ACT
                                 The Improper Payments Information Act (Public            that exceed both 2.5 percent of a program’s annual
                                 Law No. 107-300) defined requirements to reduce          payments and $10 million. The agency reviews its
                                 improper and erroneous payments made by the federal      controls and systems under the FMFIA to ensure that
                                 government. The Office of Management and Budget          the agency can rely on them. In this review, the agency
                                 (OMB) also established specific reporting requirements   has not identified any programs where significant
Other Accompanying Information




                                 for agencies with programs that are susceptible to       erroneous payments have occurred within the FTC. The
                                 significant improper payments. Significant improper      agency will continue to review its programs annually to
                                 payments as defined by OMB guidance are those            determine if any significant improper payments exist.




      134                                           FEDERAL TRADE COMMISSION | Performance and Accountability Report
                         Appendices
A P P E N D I C E S




      FISCAL YEAR 2010   135
             APPENDIX A: ACRONYMS
             APA 				           Administrative Procedure Act
             BC 				            Bureau of Competition
             BCP 				           Bureau of Consumer Protection
             BE 				            Bureau of Economics
             BI 				            Business Intelligence
             CDC 				           Centers for Disease Control
Appendices




             CEO				            Chief Executive Officer
             CFO 				           Chief Financial Officer
             CFS 				           Core Financial System
             CISCO				          Chief Information Security Officer
             CON 				           Certificate of Need
             COOP 				          Continuity of Operations Plan
             COPPA 			          Children’s Online Privacy Protection Act
             CPO				            Chief Privacy Officer
             CSN 				           Consumer Sentinel Network
             CSRS 				          Civil Service Retirement System
             DNC 				           Do Not Call
             DOJ 				           Department of Justice
             DOL 				           Department of Labor
             DRM 				           Digital Rights Management
             EDMS 				          Electronic Document Management System
             EFT 				           Electronic Funds Transfer
             FASAB 				         Federal Accounting Standards Advisory Board
             FDA 				           Food and Drug Administration
             FECA 				          Federal Employee’s Compensation Act
             FEGLIP 			         Federal Employees Group Life Insurance Program
             FEHBP 			          Federal Employees Health Benefit Program
             FEMA 				          Federal Emergency Management Agency
             FERS 				          Federal Employees Retirement System
             FICA 				          Federal Insurance Contributions Act
             FISMA 				         Federal Information Security Management Act
             FMFIA 				         Federal Managers’ Financial Integrity Act
             FTC 				           Federal Trade Commission
             FTE 				           Full-Time Equivalent
             FY 				            Fiscal Year
             GAAP 				          Generally Accepted Accounting Principles




  136               FEDERAL TRADE COMMISSION | Performance and Accountability Report
GAO 				              Government Accountability Office
GAS 				              Government Account Series
GSA 				              General Services Administration
HRMO 				             Human Resources Management Office
HSR 				              Hart-Scott-Rodino Act
ICN 				              International Competition Network
IG 				               Inspector General
IPPA				              Integrated Project Plan of Action




                                                                                        Appendices
IT				                Information Technology
ITMO 				             Information and Technology Management Office
MC 				               Maintain Competition
MD&A 				             Management’s Discussion and Analysis
N/A 				              Not Applicable or Not Available
NFL				               National Football League
NIST				              National Institute of Standards and Technology
MLS 				              Multiple Listing Service
OECD				              Organization for Economic Co-operation and Development
OIG 				              Office of Inspector General
OMB 				              Office of Management and Budget
OPM 				              Office of Personnel Management
ORB 				              Other Retirement Benefits
PAR 				              Performance and Accountability Report
PC 				               Protect Consumers
PII 				              Personally Identifiable Information
PSC 				              Privacy Steering Committee
SAS 				              Statement on Auditing Standard
SAT 				              Senior Assessment Team
SCA 				              Statement of Custodial Activity
SFFAS 				            Statement of Federal Financial Accounting Standard
SHI				               Sensitive Health Information
SOA 				              Statement of Assurance
TAS 				              Treasury Account Symbol
TSP 				              Thrift Savings Plan
TTY 				              Text Telephone or Telephone Typewriter
U.S. 				             United States
U.S. SAFE WEB Act		   Undertaking Spam, Spyware, And Fraud Enforcement With Enforcers
				                  beyond 	Borders Act of 2006
USDA 				             United States Department of Agriculture




                                      FISCAL YEAR 2010                                  137
             APPENDIX B: DISCONTINUED
             PERFORMANCE MEASURES
             The FTC began operating under an updated strategic            and replaced with new measures that better capture
             plan in FY 2010. As a result of the update, the               outcomes and related facets of the agency’s work.
             performance measures listed below were dropped

                 •	 Key Measure 1.2.1 Save consumers money each               •	 Performance Measure 2.1.4 Report the number of
                    year through law enforcement.                                (A) second requests, (B) reportable transactions for
Appendices




                                                                                 which premerger notifications were received, (C)
                 •	 Performance Measure 1.3.2 Track consumer
                                                                                 HSR investigations that resulted in enforcement
                    protection messages related to identity theft,
                                                                                 action, (D) transactions in which antitrust issues
                    accessed online or in print.
                                                                                 were resolved through voluntary abandonment
                 •	 Performance Measure 1.3.3 Track consumer                     or restructuring because of FTC concerns, and
                    protection messages in Spanish, accessed online              (E) investigations closed because the evidence
                    or in print.                                                 indicated that a competitive problem was unlikely.
                 •	 Key Measure 1.3.4 Track (A) the number of                 •	 Performance Measure 2.1.5 Track the number of
                    times print media publish articles that refer to the         significant nonmerger investigations closed each
                    FTC consumer protection activities, and (B) the              year, (A) with enforcement action, and (B) without
                    circulation of media that publish those articles.            enforcement action.
                 •	 Performance Measure 1.4.2 Issue reports on                •	 Key Measure 2.2.1 Positive result of cases brought
                    novel or challenging consumer protection                     by the FTC due to alleged violations.
                    problems or issues.
                                                                              •	 Key Measure 2.3.2 Track (A) the number of times
                 •	 Performance Measure 1.4.3 File public and                    print media publish articles that refer to FTC
                    advocacy comments with other federal and                     competition activities and, (B) the circulation of the
                    stage government agencies.                                   media that publish those articles.
                 •	 Performance Measure 1.4.4 Cooperate with                  •	 Key Measure 2.4.3 make advocacy filings
                    foreign government agencies on enforcement                   with other federal and state government
                    matters with cross-border components.                        agencies urging them to assess the competition
                 •	 Performance Measure 1.4.5 Provide consumer                   ramifications and costs and benefits to consumers
                    protection related policy or technical input to              of their policies.
                    foreign government agencies or international              •	 Performance Measure 2.4.4 Issue advisory
                    organizations.                                               opinions to persons seeking agency review of
                 •	 Key Measure 2.1.1 Achieve positive outcomes                  proposed business actions.
                    in matters in which HSR requests for additional           •	 Performance Measure 2.4.5 File amicus briefs with
                    information are issued.                                      courts addressing competition-related issues.
                 •	 Key Measure 2.1.2 Percentage of significant               •	 Key Measure 2.4.7 Track the number of (A)
                    nonmerger investigations that result in a                    cases on which the FTC cooperated with foreign
                    positive outcome.                                            competition authorities, (B) consultations with
                 •	 Performance Measure 2.1.3 Track the number                   or comments to foreign competition authorities,
                    of enforcement actions for the total mission,                (C) written submissions to international fora, (D)
                    for the (A) merger and (B) nonmerger actions.                international events attended, and (E) leadership
                                                                                 positions held by FTC staff in international
                                                                                 competition organizations.


  138                           FEDERAL TRADE COMMISSION | Performance and Accountability Report
APPENDIX C: CONTACT INFORMATION
AND ACKNOWLEDGEMENTS
FEDERAL TRADE COMMISSION                     600 Pennsylvania Avenue, NW
                                             Washington, DC 20580
General Information Number 	                 202-326-2222
Internet Home Page 	                         www.ftc.gov




                                                                                          Appendices
FTC Spanish Home Page 	                      www.ftc.gov/espanol
Strategic Plan Internet Site 	               www.ftc.gov/strategicplan
FTC Press Releases 	                         www.ftc.gov/opa/pressold.shtm

PERFORMANCE AND ACCOUNTABILITY REPORT (PAR) SPECIFIC
The FTC welcomes comments or suggestions for improvement of its PAR. Please contact the
agency to provide feedback or to request additional copies.

PAR Internet Site 	                          www.ftc.gov/par
PAR Contact 	                                Lori Walsh-Van Wey
PAR Telephone	                               202-326-3790
PAR Email Address	                           gpra@ftc.gov
PAR Fax Number	                              202-326-2329
PAR Mailing Address	                         Federal Trade Commission
	                                            Attn: PAR, M/D H-774
	                                            600 Pennsylvania Avenue, NW
	                                            Washington, DC 20580

REGIONS
East Central (Cleveland, OH)	                216-263-3455
Midwest (Chicago, IL)	                       312-960-5634
Northeast (New York, NY)	                    212-607-2829
Northwest (Seattle, WA)	                     206-220-6350
Southeast (Atlanta, GA)	                     404-656-1390
Southwest (Dallas, TX)	                      214-979-9350
Western (San Francisco, CA)	                 415-848-5100
Western (Los Angeles, CA)	                   310-824-4343

CONSUMER RESPONSE CENTER
General Complaints 	                         877-FTC-HELP (877-382-4357)
Identity Theft Complaints 	                  877-ID-THEFT (877-438-4338)
Online General Complaints 	                  www.ftc.gov/complaint
Identity Theft Education 	                   www.ftc.gov/idtheft
	        and Complaints
National Do Not Call Registry 	              www.donotcall.gov




                                              FISCAL YEAR 2010                            139
             ACKNOWLEDGEMENTS
             The FTC gratefully acknowledges the work of Donna Brenyo, Ted Franklin, Karen Leydon, Nancy Lux,
             Randy Maples, Jeff Nakrin, Mark Oemler, Diane Reinertson, Jon Schroeder, and Lori Walsh-Van Wey
             of the Office of the Executive Director; Jeanine Balbach, Nathan Hawthorne, and Stefano Sciolli of the
             Bureau of Competition; Beth Arvan Wiggins, Daniel Kaufman, and Jonathan Soileau of the Bureau of
             Consumer Protection; Russell Damtoft of the Office of International Affairs; and Christopher Grengs
             of the Office of Policy Planning for contributing to the development of this report. Editorial and design
             work supported by AOC Solutions, Inc., and Fathom Creative.
Appendices




  140                           FEDERAL TRADE COMMISSION | Performance and Accountability Report
          THE WORK OF THE

FEDERAL TRADE
CO M M I SS I O N
is critical to protecting and strengthening


FR E E &
OPEN              M A R K E TS
AND PROMOTING INFORMED
CONSUMER CHOICE,
   B O T H I N T H E U N I T E D S TAT E S

AND AROUND THE WORLD.

         W W W. F T C . G O V
